<html>
<title> - THE RESEARCH AND DEVELOPMENT PORTFOLIO REQUIRED TO SUPPORT THE PRIORITIES OF THE DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                 THE RESEARCH AND DEVELOPMENT PORTFOLIO
                 REQUIRED TO SUPPORT THE PRIORITIES OF
                    THE DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2009

                               __________

                           Serial No. 111-64

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
53-445PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                      HON. DAVID WU, Oregon, Chair
DONNA F. EDWARDS, Maryland           ADRIAN SMITH, Nebraska
BEN R. LUJAN, New Mexico             JUDY BIGGERT, Illinois
PAUL D. TONKO, New York              W. TODD AKIN, Missouri
DANIEL LIPINSKI, Illinois            PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona               
GARY C. PETERS, Michigan                 
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
         MEGHAN HOUSEWRIGHT Democratic Professional Staff Member
            TRAVIS HITE Democratic Professional Staff Member
            HOLLY LOGUE Democratic Professional Staff Member
             DAN BYERS Republican Professional Staff Member
                  VICTORIA JOHNSTON Research Assistant










                            C O N T E N T S

                           November 19, 2009

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................     4
    Written Statement............................................     6

Statement by Representative Adrian Smith, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........     7
    Written Statement............................................     8

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................     9

                               Witnesses:

Hon. Polly Trottenberg, Assistant Secretary for Transportation 
  Policy, U.S. Department of Transportation
    Oral Statement...............................................     9
    Written Statement............................................    11
    Biography....................................................    12

Hon. Peter H. Appel, Administrator, Research and Innovative 
  Technology
    Oral Statement...............................................    13
    Written Statement............................................    15
    Biography....................................................    16

Neil J. Pedersen, P.E., Administrator, Maryland State Highway 
  Administration
    Oral Statement...............................................    16
    Written Statement............................................    18
    Biography....................................................    27

Ann Flemer, Deputy Executive Director, Policy, Metropolitan 
  Transportation Commission (MTC)
    Oral Statement...............................................    27
    Written Statement............................................    29
    Biography....................................................    36

Alan E. Pisarski, Independent Consultant
    Oral Statement...............................................    37
    Written Statement............................................    38
    Biography....................................................    47
Robert E. Skinner, Jr., Executive Director, Transportation 
  Research Board of the National Academies
    Oral Statement...............................................    48
    Written Statement............................................    50
    Biography....................................................    62

             Appendix 1: Answers to Post-Hearing Questions

Hon. Polly Trottenberg, Assistant Secretary for Transportation 
  Policy, U.S. Department of Transportation; and Hon. Peter H. 
  Appel, Administrator, Research and Innovative Technology 
  Administration.................................................    78

Neil J. Pedersen, Administrator, Maryland State Highway 
  Administration.................................................    85

Ann Flemer, Deputy Executive Director, Policy, Metropolitan 
  Transportation Commission (MTC)................................    96

Alan E. Pisarski, Independent Consultant.........................   100

Robert E. Skinner, Executive Director of the Transportation 
  Research Board, The National Academies.........................   104

 
    THE RESEARCH AND DEVELOPMENT PORTFOLIO REQUIRED TO SUPPORT THE 
             PRIORITIES OF THE DEPARTMENT OF TRANSPORTATION

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2009

                  House of Representatives,
          Subcommittee on Technology and Innovation
                        Committee on Science and Technology
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2325 of the Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.
                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                 The Research and Development Portfolio

               Required to Support the Priorities of the

                      Department of Transportation

                       thursday, november 9, 2009
                         10:00 a.m.-12:00 p.m.
                   2325 rayburn house office building

I. Purpose

    This hearing will focus on the components of a surface 
transportation R&D portfolio to support the U.S. Department of 
Transportation's goals of safety, economic competitiveness, 
environmental sustainability, and community livability. The hearing 
will also address the necessary steps for the DOT to implement its R&D 
agenda and the most effective practices for ensuring the latest R&D is 
utilized.

II. Witnesses

The Honorable Polly Trottenberg, Assistant Secretary for Transportation 
Policy, U.S. Department of Transportation.

The Honorable Peter Appel, Administrator, Research and Innovative 
Technology Administration

Mr. Neil J. Pedersen, Administrator, Maryland State Highway 
Administration, Vice Chair, AASHTO Standing Committee on Highways

Ms. Ann Flemer, Deputy Executive Director, Policy, Metropolitan 
Transportation Commission, Oakland, California; Vice Chair, Intelligent 
Transportation Society of America

Mr. Alan E. Pisarski, Independent Consultant

Mr. Robert E. Skinner, Executive Director of the Transportation 
Research Board, The National Academies

III. Brief Overview

    At his Senate confirmation hearing on January 21 of this year, 
Transportation Secretary Ray LaHood identified four priorities for his 
time at the Department of Transportation: safety, the economy, 
sustainability, and community livability. While the DOT has not yet 
issued an official strategic plan around these goals, they are already 
reflected in DOT policy. For example, these priorities are reflected in 
the selection criteria for the TIGER Discretionary Grants,\1\ a DOT-
wide Livability Initiative, and a joint DOT-HUD task force to guide the 
development of Sustainable Communities. Safety, the economy, and 
environmental considerations have long been historic goals for 
transportation investment. Livability, however, is a new policy 
initiative for the DOT. However, it is also a subjective term, open to 
many different interpretations. The same concern is also present for 
the terms of sustainability and economic competitiveness. Without more 
specificity to these goals, it is difficult to assess the impact of 
federal investment toward achieving them.
---------------------------------------------------------------------------
    \1\ The Transportation Investment Generating Economic Returns, 
authorized by American Recovery and Reinvestment Act.
---------------------------------------------------------------------------
    Annually, the budget for surface transportation research, 
development, and technology transfer activities is over $600 
million.\2\ The purpose of this hearing is to discuss the specific 
components of a surface transportation R&D agenda that will support the 
DOT's priorities. As required under SAFETEA-LU, the highway 
reauthorization bill of 2005, the Research and Innovative Technology 
Administration (RITA) issued The Transportation Research, Development, 
and Technology Strategic Plan for 2006 to 2011. The plan listed 
research activities within the Department associated with strategic 
objectives, such as safety, environmental stewardship, or congestion 
reduction. However, the plan fell short of offering justifications for 
the R&D priorities or specific information on how the research would 
further the DOT's strategic goals.\3\ The pending surface 
transportation reauthorization presents an opportunity to ensure 
transportation R&D activities are aligned with DOT priorities and to 
examine how the priorities will further the Department's strategic 
goals. To determine the elements of an R&D agenda needed to support the 
goals, the terms must be well defined.
---------------------------------------------------------------------------
    \2\ Approximate per fiscal year total for the RD&T activities of 
the Research and Innovative Technology Administration, the Federal 
Highway Administration, the Federal Transit Administration, and the 
National Highway Traffic Safety Administration. The research budget for 
the Federal Motor Carrier Safety Administration was not available.
    \3\ Comments of the Transportation Research Board, Appendix A of 
the 2006 Strategic Plan.

IV. Background

DOT Priorities
    Although the Secretary's priorities discussed above are not yet in 
an official DOT strategic plan, they are already reflected in 
significant policy initiatives as described below.

        <bullet>  LIVABILITTY. On March 18 before Congress, the 
        Secretary stated that many DOT activities already foster 
        community livability, including the promotion of transit-
        oriented development, bicycle and pedestrian programs, and 
        congestion mitigation initiatives. However, he argued that a 
        Livability Initiative was necessary to accomplish goals such 
        as, integrating transportation and land-use planning, fostering 
        multi-modal transportation, and increasing access to housing, 
        jobs, and other services.\4\ In furtherance of many of these 
        goals, the DOT's partnership with the Department of Housing and 
        Urban Development (HUD) for Sustainable Communities will focus 
        on integrating regional housing, transportation, and land-use 
        planning. Part of this will include the development of 
        livability measures and tools to track the progress of areas in 
        meeting these measures. As noted above, livability is one of 
        the evaluation criteria for the TIGER Discretionary Grants, 
        which seek to fund projects that will, for example, 
        significantly enhance user mobility through the creation of 
        more convenient transportation options for travelers or 
        projects that are the result of a planning process which 
        coordinated transportation and land-use planning decisions and 
        encouraged community participation in the process.
---------------------------------------------------------------------------
    \4\ March 18, 2009 hearing, before the House Appropriations 
Committee, Subcommittee on Housing, Transportation, and Urban 
Development.

        <bullet>  SUSTAINABILITY. Environmental Stewardship is 
        currently a DOT strategic goal, the objectives of which are 
        two-fold: (1) to reduce the pollution and adverse environmental 
        effects from transportation; and (2) to streamline the 
        environmental review of transportation projects. The DOT has 
        not yet detailed the scope envisioned for sustainability and 
        how it might differ from Environmental Stewardship. The DOT's 
        current department-wide strategic plan \5\ identifies 
        activities supporting these two objectives, including the 
        National Strategy to Reduce Congestion on America's 
        Transportation Networks and the implementation of the President 
        Bush's Executive Order to expedite the environmental reviews of 
        high-priority transportation projects. In testimony before 
        Congress,\6\ Secretary LaHood cited fuel standards and 
        transportation efficiency as important DOT activities in 
        mitigating transportation's impact on climate change, as well 
        as the need to stem the growth in vehicle-miles-traveled (VMT). 
        Sustainability is also part of the evaluation criteria for the 
        TIGER Discretionary grants, which will support projects that 
        reduce energy consumption or carbon emissions, as well as those 
        that maintain, protect or enhance the environment. As these 
        different initiatives show, sustainability is a broad term, 
        covering energy and resource conservation, preventing air, 
        water, and noise pollution, and reducing greenhouse gas 
        emissions. Defining the scope of sustainability will enable 
        transportation decision makers to better assess if their 
        investments are meeting these environmental objectives.
---------------------------------------------------------------------------
    \5\ Strategic plan.
    \6\ July 14 testimony before the Senate Committee on Environment 
and Public Works.

        <bullet>  ECONOMIC COMPETITIVENESS. In his March 12 testimony 
        before the Senate Committee on Banking, Housing and Urban 
        Affairs, Secretary LaHood stated that ``improving the 
        efficiency and reliability of our surface transportation system 
        will be vital in enhancing the Nation's productivity and 
        competitiveness in an increasingly global economy.'' The DOT 
        estimates that Recovery Act funding has resulted in the 
        immediate creation of thousands of jobs, but the DOT intends to 
        make additional investments that ``contribute over the long-
        term to growth in employment, production, or other high-value 
        economic activity.'' The goal of such projects would improve 
        long-term competitiveness in the movement of goods or to expand 
        hiring and growth in the private sector. However, there is no 
---------------------------------------------------------------------------
        guidance on how such goals would be planned or measured.

        <bullet>  SAFETY. The current DOT Strategic Plan describes 
        safety as the ``premier goal of the DOT.'' To that end, the 
        Department has invested in the research, development, and 
        deployment of surface transportation safety measures. Such 
        investments include improved design for roads and roadside 
        barriers, as well as behavioral research and intervention to 
        improve driver safety. The DOT recently announced that it will 
        be promoting education and awareness to combat distracted 
        driving, and the Administration has also announced an executive 
        order that will prohibit any federal employee from sending text 
        messages while driving if they are driving a government-owned 
        vehicle or engaged in government business. While safety is the 
        most concrete of the DOT's four key themes, defining its scope 
        is also necessary to measuring the impact of safety 
        investments.

DOT RD&T Activities.

Federal Highway Administration (FHWA)

    FHWA's total RD&T request is over $200 million per fiscal year. 
Major focus areas for that funding in FY2009 included:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Research and Innovative Technology Administration (RITA)

    RITA is responsible for the coordination of all research and 
development at the DOT, and it also oversees the following programs. In 
addition to the $13.2 million FY2010 request for the planning and 
coordination aspects of RITA, RITA also oversees:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Center are fee for service entities that support education and 
research, respectively.

Federal Transit Administration (FTA)

    In FY2009, FTA requested $59.6 million for its R&D programs, which 
included:

        <bullet>  $14.1 million to improve capital and operation 
        efficiencies, through projects such as the development and 
        evaluation of small transit vehicles and clean fuels and the 
        identification of transit benchmarks critical to the success of 
        public transportation systems.

        <bullet>  $8.4 million to improve safety and emergency 
        preparedness through activities such as drug and alcohol 
        compliance and the development of methods and technologies to 
        increase the safety of transit.

        <bullet>  $5.2 million to for research related to energy and 
        the environment.

    The FTA request also includes the Transit Cooperative Research 
Program, the National Transit Institute, and the transit University 
Transportation Centers.

Federal Motor Carriers Administration (FMCSA)

    The breakdown for the amount spent by the FMCSA on research 
activities not available. However, the website describes several RD&T 
initiatives, such as Large Truck Crash Causation Study Analysis Series, 
the 100 car Naturalistic Driving Study, and the development of 
technologies for the trucking industry.

National Highway Traffic Safety Administration (NHSTA)

    The National Highway Traffic Safety Administration's research 
activities for FY2009 included: $29.2 million for vehicle safety 
research and analysis and $105 million for Highway Safety Research and 
Development to reduce highway fatalities and injuries.

The Transportation Research Board (TRB)

    The TRB, part of the National Academies, manages the National 
Cooperative Highway Research Program and the Strategic Highway Research 
Program II.

        <bullet>  Strategic Highway Research Program II. This program 
        focuses on four areas of research: Safety, Infrastructure 
        Renewal, Reliability, and Transportation Capacity. FHWA has 
        provided a total of $170.8 million since FY2006 to TRB for SHRP 
        II. Funding for the program from FHWA ended in FY2009, and TRB 
        expects the results and products developed from this research 
        to be available over the next several years.

        <bullet>  National Cooperative Highway Research Program 
        (NCHRP). NCHRP addresses surface transportation problems raised 
        directly by state departments of transportation. Total funding 
        for NCHRP is approximately $36 million per fiscal year.

V. Issues & Concerns

        <bullet>  Secretary LaHood's policy goals of safety, economic 
        competitiveness, environmental sustainability, and community 
        livability are broad terms. Providing definitions and 
        performance measures will help ensure that the federal 
        investment achieves the targeted results. Understanding the 
        scope of these terms in particularly important in prioritizing 
        a research agenda to support the policy objectives.

        <bullet>  States and local governments are responsible for the 
        Nation's transportation systems. Therefore, it is crucial that 
        federally funded research addresses the problems faced by these 
        transportation officials. Understanding how the DOT's goals 
        will affect state and local transportation agencies, and what 
        types of knowledge and research they will need to advance goals 
        of safety, competitiveness, sustainability, or livability, is 
        key to ensuring that the intended benefits of the goals are 
        realized by taxpayers.

        <bullet>  Particularly as policymakers look toward requiring 
        more performance measures for the transportation system, it is 
        important that the DOT goals have discernable metrics and 
        methods to assess whether the policy investments are creating 
        the intended benefits.

    Chairman Wu. The hearing will come to order. Good morning. 
Welcome, everyone, to today's hearing on the Department of 
Transportation's [DOT] research portfolio and the best ways of 
establishing and supporting the Department's priorities.
    Earlier this year, Secretary LaHood laid out four key 
priorities that would guide DOT policies: safety, economic 
competitiveness, environmental sustainability, and community 
livability. I think that we can all agree that these are 
laudable goals. However, as Chair of the Subcommittee that 
oversees the National Institute of Standards and Technology, 
the federal agency charged by the Constitution with maintaining 
the Nation's systems of weights and measures, I constantly 
repeat a couple of things: if you cannot define something, you 
don't know whether you are doing it or not, and if you can't 
measure it for economic or technologic purposes, it doesn't 
really exist.
    This is the focus of today's hearing. I want to better 
understand the definitions of Secretary LaHood's key 
priorities, the main elements of an R&D agenda that support 
these priorities, the metrics required to ensure that we are 
making a difference, and finally, what is necessary to ensure 
that R&D results are actually used in the field. This 
examination is very, very important because the public expects 
to reap real benefits, not just hear terms or terminology from 
Washington D.C.
    The DOT supports research on a wide array of surface 
transportation topics, from improved paving materials to runoff 
reduction methods, and I am interested in hearing from all the 
witnesses today about how the over half-a-billion dollars per 
year that DOT spends on research is supporting the agency's 
proposed priorities. For example, with new priorities like 
livability, perhaps there may be a need for broader research 
into the kinds of payoffs that we might expect from our 
investment in this field and into additional means of data 
collection.
    This is the third transportation hearing this Subcommittee 
has held in the 111th Congress. The first hearing looked at the 
need to bring better planning and coordination to the DOT 
surface transportation agenda, and I continue to have a strong 
interest in this and particularly how the various research 
components coordinate and actually make their research relevant 
to the operating units. The second examined the research needed 
to mitigate the impact of surface transportation on carbon 
emission and climate change.
    Both of these hearings emphasized the need for better 
technology transfer and improved efforts to ensure that 
federally funded R&D meets the need of state and local 
transportation officials. These two issues go hand in hand: if 
the research does not address the problems of the people 
managing our transportation system, it will not be transferred 
into practice. I am pleased that today that we have state and 
local representation with us to discuss their challenges and 
the types of research that will actually meet their needs.
    The pending surface transportation reauthorization, which 
most of us hope will happen sooner rather than later, gives us 
an opportunity to examine the research programs of the DOT. I 
am hopeful that this hearing will shed light on DOT priorities 
and bring specific recommendations on the types of R&D 
investment needed to support these priorities.
    Chairman Wu. I would like to invite the Ranking Member, my 
good friend, Mr. Smith, to make his opening statement.
    [The prepared statement of Chairman Wu follows:]
                Prepared Statement of Chairman David Wu
    Good morning. I would like to welcome everyone to today's hearing 
on how the Department of Transportation's research portfolio can best 
support its established priorities.
    Earlier this year, Secretary LaHood laid out four key priorities 
that would guide DOT policies: safety, economic competitiveness, 
environmental sustainability, and community livability. I think we can 
all agree that these are laudable goals. However, as chair of the 
subcommittee that oversees the National Institute of Standards and 
Technology, the federal agency charged by the Constitution with 
maintaining the nation's systems of weights and measures, I've learned 
two things: one, if you cannot define something, you don't you know 
you're doing it, and two, if you can't measure it, it doesn't exist.
    This is the focus of today's hearing. I want to better understand 
the definition of Secretary LaHood's four key priorities, the main 
elements of an R&D agenda that will support these priorities, the 
metrics required to ensure we are making a difference, and finally, 
what is necessary to ensure that R&D results are utilized in the field. 
This examination is important because the public must reap actual 
benefits, not just hear more Washington jargon.
    The DOT supports research on a wide array of surface transportation 
topics, from improved paving materials to runoff reduction methods. I 
am interested in hearing from today's witnesses about how well the over 
$600 million per year that DOT spends on research is supporting the 
agency's proposed priorities. For example, with new priorities like 
livability, perhaps there is a need for research in social science and 
investment in different types of data collection.
    This is the third transportation hearing this subcommittee has held 
in the 111th Congress. The first hearing looked at the need to bring 
better planning and coordination to the DOT surface transportation 
research agenda. The second examined the research needed to mitigate 
the impact of the surface transportation system on the climate.
    Both of these hearings emphasized the need for better technology 
transfer and improved efforts to ensure that federally funded R&D meets 
the needs of state and local transportation officials. These two issues 
go hand-in-hand: if the research does not address the problems of the 
people managing our transportation system, it will not be transferred 
into practice. I am pleased today that we have state and local 
representation with us to discuss their challenges and the types of 
research that will actually meet their needs.
    The pending surface transportation reauthorization gives us an 
opportunity to examine the research programs of the DOT. I am hopeful 
that this hearing will shed light on the DOT priorities and bring 
specific recommendations on the types of R&D investment needed to 
support those priorities.

    Mr. Smith. Thank you, Mr. Chairman. Thank you to the 
witnesses for sharing your time and expertise, as we examine 
the R&D portfolio and policy priorities of DOT.
    As Committee action on DOT R&D legislation has been pushed 
back due to delays and progress on the overall highway bill, 
this hearing does present a great opportunity to examine R&D 
priorities in advance of Full Committee consideration of 
reauthorization.
    This hearing is intended to focus specifically on the R&D 
needed to support department-wide goals of safety, economic 
competitiveness, environmental sustainability, and community 
livability. I hope we can also consider economic survivability. 
In order to do this, I believe it is important that we examine 
the goals themselves, understand their purpose and meaning and 
evaluate whether they are appropriate for guiding future R&D 
activities.
    To this end, I am particularly concerned with the 
appropriateness of the Administration's ``community livability 
goal,'' again, maybe getting back to the economic 
survivability, and at a minimum it represents a concept 
difficult to define and measure progress toward.
    More troubling, however, key aspects of a livability agenda 
appear to involve significant Federal Government intrusion into 
the manner in which Americans travel and live in general. 
Obviously, the automobile is central to our identity and 
quality of life. In fact, the government even subsidizes the 
new purchase of an automobile. Almost 95 percent of Americans 
get around by cars. In a district such as mine in rural 
Nebraska, I am sure this figure is closer to 100 percent, or at 
least very close. Even in urban areas, Americans have 
demonstrated a great willingness to accept heavy traffic 
congestion and long commutes in exchange for the opportunity to 
live in a larger home with a yard in a neighborhood with good 
schools and low crime and also feed the world. In this sense, 
it seems the Administration's vision of this livable community 
is quite different from that of what I would call an average 
American.
    While these policy concerns do tend to go beyond the 
Committee's jurisdiction, they are important and relevant 
because the Department's R&D agenda will be shaped and driven 
by the DOT-wide strategic goals. Accordingly, I hope we can 
exercise close scrutiny of these goals as we consider further 
changes to the R&D legislation at the Full Committee level.
    Again, I thank the panelists. Maybe we will hear like we 
did two weeks ago that climate change can be solved in part by 
reducing the amount of red meat consumption or beef 
consumption. I hope that is not really the case. I am a little 
bit selfish in saying that. But I do thank you for sharing your 
expertise and look forward to your testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith follows:]
           Prepared Statement of Representative Adrian Smith
    Thank you. Mr. Chairman, for calling this hearing this morning to 
examine the R&D portfolio and policy priorities of the Department of 
Transportation.
    As committee action on DOT R&D legislation has been pushed back due 
to delays in progress on the overall highway bill, this hearing 
presents a good opportunity to examine DOT R&D priorities in advance of 
full committee consideration of reauthorization.
    This hearing is intended to focus specifically on the R&D needed to 
support department-wide goals of safety, economic competitiveness, 
environmental sustainability, and community livability. In order to do 
this, I believe it's important that we also examine the goals 
themselves to understand their purpose and meaning and evaluate whether 
they are appropriate for guiding future R&D activities.
    To this end, I am particularly concerned with the appropriateness 
of the administration's ``community livability'' goal. At a minimum, it 
represents an amorphous concept difficult to define and measure 
progress toward. More troubling, however, key aspects of the livability 
agenda appear to involve significant Federal government intrusion into 
the manner in which Americans to travel and live.
    Secretary LaHood has summarized this succinctly, characterizing the 
administration's livability initiative as ``a way to coerce people out 
of their cars.'' While the candor is refreshing, needless to say I find 
this statement troubling.
    The automobile is central to our identity and quality of life. 
Almost 95 percent of Americans get around by cars, and in districts 
such as mine in rural Nebraska I'm sure this figure is closer to 100 
percent. Even in urban areas, Americans have demonstrated a great 
willingness to accept heavy traffic congestion and long commutes in 
exchange for the opportunity to live in a larger home with a yard, in a 
neighborhood with good schools and low crime.
    In this sense, it seems the Administration's vision of a ``livable 
community'' is quite different from that of average Americans.
    While these policy concerns tend to go beyond the committee's 
jurisdiction, they are important and relevant because the Department's 
R&D agenda will be shaped and driven by the DOT-wide strategic goals. 
Accordingly, I hope we can exercise close scrutiny of these goals as we 
consider further changes to DOT R&D legislation at the full committee 
level.
    I thank the panelists for being here, and I look forward to a 
productive discussion.

    Chairman Wu. Thank you, Mr. Smith, and I think that we will 
always depend on good Nebraskan beef.
    If there are Members who wish to submit additional opening 
statements, statements will be added to the record at this 
point.
    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    Today we will discuss the specific components of the surface 
transportation research and development agenda to support the 
priorities at the Department of Transportation. We will also examine 
how the DOT can implement its research and development agenda and 
identify effective practices to ensure the latest research and 
development is utilized.
    Surface transportation research and development is critical as the 
population continues to grow and congestion continues to increase.
    Take Arizona, for example, which is one of the fastest growing 
states in the nation. Since 1970, our population has more than tripled. 
The Phoenix metropolitan area, long the largest in our state, is now 
one of the largest in the nation.
    Not surprisingly, all this growth has created an urgent need for 
new transportation infrastructure and congestion mitigation efforts.
    The Arizona Department of Transportation (ADOT) has been a leader 
in transportation research and technology and has engaged in several 
research efforts to improve infrastructure problems such as monitoring 
and managing congestion and experimenting with pavement materials.
    I look forward to hearing from our witnesses about this important 
issue.
    I yield back.

    And now, it is my pleasure to introduce our witnesses. Ms. 
Polly Trottenberg is the Assistant Secretary for Transportation 
Policy at the United States Department of Transportation. Mr. 
Peter Appel, who is the Administrator of the Research and 
Innovative Technology Administration, also at DOT. Mr. Neil 
Pedersen is the Administrator of the Maryland State Highway 
Administration and the Vice Chair of the Standing Committee on 
Highways at the American Association of State Highway and 
Transportation Officials (AASHTO). And that is why we say that 
in acronym almost all the time. Ms. Ann Flemer is the Deputy 
Executive Director of Policy with the Metropolitan 
Transportation Commission [MTC] in Oakland, California, and she 
is also the Vice Chair of the Intelligent Transportation 
Society of America. Mr. Alan E. Pisarski is an independent 
consultant. And our final witness is Mr. Robert Skinner, the 
Executive Director of the Transportation Research Board [TRB] 
at the National Academies of Science.
    You will each have five minutes for your spoken testimony, 
and your written testimony will be included in the record in 
the hearing. When you all complete your testimony, we will 
begin with questions, and each Member will have five minutes to 
question the panel.
    Ms. Trottenberg, please proceed.

 STATEMENT OF HON. POLLY TROTTENBERG, ASSISTANT SECRETARY FOR 
    TRANSPORTATION POLICY, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Trottenberg. Thank you, Mr. Chairman. Chairman Wu, 
Ranking Member Smith, on behalf of Secretary Ray LaHood, I 
would like to thank you for the opportunity to appear before 
this Subcommittee today with my colleague, Peter Appel, to 
discuss the research and policy priorities in the U.S. 
Department of Transportation. U.S. DOT greatly appreciates the 
leadership that this Committee has shown on transportation 
research, and we appreciate the guidance and oversight you have 
given the Department over the years.
    As this Committee has recognized, research is a critical 
component to accomplish the goal that we all share of creating 
a national transportation system that is transparent and 
accountable, data-driven, focused on achieving strategic 
outcomes and on maximizing the value of public investment.
    Having had the opportunity to work on many transportation 
bills myself during my 12 years as a Senate staffer, I know 
firsthand how important timely and targeted research is for 
Congressional decision makers and for other stakeholders.
    As such, the Office of Policy and DOT has made it a top 
priority to provide accessible and relevant research and 
strengthen the ongoing dialogue with leaders in Congress, the 
Administration, and the larger national transportation 
community. This is particularly important as we consider the 
next surface transportation bill at a time that our Nation's 
transportation system faces profound economic, social and 
environmental challenges. And as we all know and the Chairman 
mentioned, our transportation system also faces unprecedented 
fiscal challenges, with dedicated revenue sources no longer 
adequate to maintain our existing infrastructure or to fund the 
future investments that we need.
    At U.S. DOT we are currently developing our 2010-2015 
strategic plan, which will outline our strategic goals and 
priorities. The plan is not yet complete, but it will focus on 
key priorities that the Chairman mentioned and that Secretary 
LaHood has articulated with, I think, one more added to the 
list: creating a national transportation system that improves 
safety and public health, fosters livable communities, promotes 
a state of good repair and long-term economic competitiveness, 
while achieving a state of environmental sustainability.
    This Administration believes we must create a truly multi-
modal transportation system that provides the traveling public 
and U.S. businesses with safe, convenient, affordable and 
environmentally sustainable transportation choices, and the 
research we conduct is central to achieving that goal.
    Improving safety remains the top priority of U.S. DOT. 
Secretary Ray LaHood has tasked all DOT employees with 
fostering a safety culture in our daily work and encouraging 
our partners, stakeholders, and the public to redouble their 
efforts to reduce transportation-related fatalities and 
injuries. As this Committee knows, we conduct and support 
significant research in the safety area, and Administrator 
Appel will describe that in more detail.
    Creating livable communities that provide residents with 
affordable transportation options is another key U.S. DOT 
priority. As you all know, DOT has formed a partnership with 
the Department of Housing and Urban Development [HUD] and the 
Environmental Protection Agency [EPA] to integrate 
transportation, housing, economic development and environmental 
planning and research. This innovative and cross-cutting effort 
seeks to promote increased access to jobs, school, health 
services, and other activities, and we hope this effort will 
have important results in urban areas, in suburban areas, and 
in rural areas. We think it can work in all parts of the 
country. The three agencies will be engaging in joint research 
and data collection, developing appropriate analytic tools and 
performance matters that we hope will produce better livability 
policies and investments.
    The U.S. must also maintain our existing infrastructure in 
a state of good repair. Our Nation has built one of the world's 
most extensive and productive transportation systems, 
representing trillions of dollars of public and private 
investment. It is essential that we adequately maintain and 
modernize this vast, existing infrastructure to maximize its 
reliability, capacity and performance, and reduce operational 
and replacement costs to extend the system's useful life.
    We also seek to achieve the maximum economic impact from 
our transportation investments and lay the groundwork for long-
term economic growth and prosperity. It is essential to 
determine which investments on both the passenger and the 
freight side will yield the greatest benefits to the 
transportation network, especially during this period of 
economic hardship and with difficult budget choices at all 
levels of government.
    Finally, the Obama Administration is committed to a 
comprehensive national energy and environmental policy that 
emphasizes reducing carbon emissions and consumption of fossil 
fuels as well as protecting and enhancing natural resources.
    U.S. DOT is committed to advancing transportation policies 
and investments that reduce energy use and foster protection of 
critical watersheds and ecosystems.
    Clearly, achieving these ambitious priorities will require 
U.S. DOT to accelerate the rate at which we convert research 
into data-driven policies and outcomes. Too often in the past, 
we have done a good job of funding cutting-edge research, but 
have not done a good enough job of making sure that the 
research is translated by policymakers and practitioners into 
better, safer, more efficient transportation. We intend to 
focus on the entire innovation process, from research to policy 
development to analyzing the outcomes of existing programs to 
make sure that the American people are getting their money's 
worth from the research that they support.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Hon. Trottenberg follows:]
              Prepared Statement of Hon. Polly Trottenberg
DOT's Research and Development to Support the Department of 
        Transportation's Strategic Goals

    Chairman Wu, Ranking Member Smith, and Members of the Subcommittee:
    On behalf of Secretary Ray LaHood, I'd like to thank you for the 
opportunity to appear here today with my colleague Peter Appel to 
discuss the research and policy priorities for the U.S. Department of 
Transportation.
    U.S. DOT greatly appreciates the leadership this Committee has 
shown on transportation research and we value the guidance and 
oversight you have provided the Department over the years.
    As this Committee has recognized, research is a critical component 
to accomplish the goals we all share of creating a national 
transportation policy that is transparent and accountable, data-driven, 
focused on achieving strategic outcomes and on maximizing the value of 
public investment.
    Having had the opportunity to work on many key transportation bills 
during my 12 years as a staff member in the Senate, I know firsthand 
how important timely and targeted research is for Congressional 
decisionmakers.
    As such, the Office of Policy has made it a top priority to provide 
accessible and relevant research to leaders in Congress, the 
Administration, and the larger national transportation community. This 
is particularly important as we consider the next surface 
transportation bill at a time that our Nation's transportation system 
faces profound economic, social and environmental challenges. Our 
transportation system also faces unprecedented fiscal challenges, with 
dedicated revenue sources no longer adequate to maintain our existing 
infrastructure or to fund the future investments we will need.
    At U.S. DOT we are currently developing our 2010-2015 Strategic 
Plan, which will outline our strategic goals and priorities. The Plan 
is not yet complete, but it will focus on key priorities that Secretary 
LaHood has publicly articulated--namely, creating a National 
transportation system that improves safety and public health, fosters 
livable communities, promotes a state of good repair and long-term 
economic competiveness, while achieving environmental sustainability.
    This Administration believes that we must create a safe, truly 
multimodal transportation system that provides the traveling public and 
U.S. businesses with safe, convenient, affordable and environmentally 
sustainable transportation choices.
    Improving safety is the top priority of U.S. DOT. Secretary Ray 
LaHood has tasked all DOT employees with fostering a safety culture in 
our daily work and encouraging our partners, stakeholders and the 
public to redouble their efforts to reduce transportation-related 
fatalities and injuries. As this Committee knows, we conduct and 
support significant research in the safety area, which Administrator 
Appel will describe in more detail.
    Creating livable communities that provide residents with affordable 
transportation options is another key U.S. DOT priority. DOT has formed 
an interagency livability partnership with the Department of Housing 
and Urban Development (HUD) and the Environmental Protection Agency 
(EPA) to integrate transportation, housing, economic development and 
environmental planning and research. This innovative, cross-cutting 
effort seeks to promote increased access to jobs, school, health 
services, and other activities for our citizens while improving the 
quality of life in their communities.
    The U.S. must also maintain our existing infrastructure in a state 
of good repair. Our nation has built one of the world's most extensive 
and productive transportation systems, representing trillions of 
dollars of public and private investment. It is essential that we 
adequately maintain and modernize this vast, existing infrastructure to 
maximize its reliability, capacity and performance, to reduce 
operational and replacement costs and to extend the system's useful 
life.
    We also seek to achieve the maximum economic impact from our 
transportation investments and lay the groundwork for long-term 
economic growth and prosperity. It is essential to determine which 
investments yield the greatest benefits to the transportation network 
especially during this period of economic hardship and with difficult 
budget choices occurring at all levels of government.
    Finally, the Obama Administration is committed to a comprehensive 
national energy and environmental policy that emphasizes reducing 
carbon emissions and consumption of fossil fuels as well as protecting 
and enhancing natural resources. Thus, U.S. DOT is committed to 
advancing transportation policies and investments that reduce energy 
use and foster protection of critical watersheds and ecosystems. Our 
work on livable communities also helps us move towards clean energy and 
sustainable environment.
    Clearly achieving these ambitious priorities will require U.S. DOT 
to accelerate the rate at which we convert research into outcomes. Too 
often in the past, we have done a good job of funding cutting-edge 
research, but have not done a good enough job of making sure that the 
results of that research were translated by policymakers into better, 
safer, more efficient transportation. We intend to focus on the entire 
innovation process--from research to policy development--to make sure 
that the American people are getting their money's worth from the 
research that we support.
    Thank you and I look forward to your questions.

                  Biography for Hon. Polly Trottenberg
    Ms. Trottenberg is currently the Assistant Secretary for 
Transportation Policy at the U.S. Department of Transportation.
    She was previously the Executive Director of Building America's 
Future, a new non-profit organization dedicated to bringing about a new 
era of U.S. investment in infrastructure that enhances our nation's 
prosperity and quality of life. BAF was created by Pennsylvania 
Governor Edward G. Rendell, California Governor Arnold Schwarzenegger 
and New York Mayor Michael R Bloomberg.
    Ms. Trottenberg also worked in the United States Senate for 12 
years, most recently as Deputy Chief of Staff and Legislative Director 
for California Senator Barbara Boxer, Chairman of the Senate 
Environment and Public Works Committee. Ms. Trottenberg also served as 
Legislative Director for New York Senator Charles Schumer and as 
Legislative Assistant to New York.Senator Daniel Patrick Moynihan. She 
has worked extensively on transportation, public works, energy and 
environmental issues during her congressional career.
    Before starting her career on Capitol Hill, Ms. Trottenberg worked 
at the Port Authority of New York and New Jersey, the Massachusetts 
State Senate, and the Massachusetts Port Authority.
    Ms. Trottenberg received her undergraduate degree from Barnard 
College and her Master's in Public Policy from the Kennedy School of 
Government.

    Chairman Wu. Thank you very much, Secretary Trottenberg. 
You have done a great job of squeezing your oral testimony into 
5 minutes. I think you would make a good member of the House 
speaking on the floor.
    Mr. Appel, please proceed.

 STATEMENT OF HON. PETER H. APPEL, ADMINISTRATOR, RESEARCH AND 
                     INNOVATIVE TECHNOLOGY

    Mr. Appel. Chairman Wu, Ranking Member Smith, thank you for 
the opportunity to appear before you today to discuss U.S. 
DOT's multi-modal research. I personally always welcome the 
opportunity to talk about transportation research, and I am 
thrilled by the interest this Committee has in it.
    The Research and Innovative Technology Administration, 
RITA, has a unique role within DOT. We are charged with 
coordinating collaborative multi-modal research and 
development. We look across the modes of transportation and to 
our partners to identify synergies and opportunities for 
collaboration in support of the Department's priorities to help 
make critical investment and policy decisions based on sound 
science and rigorous analysis.
    We do this in a variety of ways. One way is through the 
Research, Development and Technology Planning Team, which is 
chaired by RITA staff, and through the RD&T [Research, 
Development, and Test] Planning Council, which I chair and 
includes the leaders of each of the operating administrations 
of DOT. The team consists of the heads of the research 
organizations of the modes within the Department and meets to 
discuss ongoing research activities, to convene clusters of 
researchers in specific science-based disciplines, and to 
ensure research alignment with DOT priorities.
    The planning team will work to ensure not just that our 
research is aligned with our priorities but that we have a 
clear strategy to facilitate the adoption of these research 
results. We need to consult with stakeholders such as state 
DOTs, transit authorities, private companies, and other key 
transportation players.
    Another way we do this is via the University Transportation 
Center program, the UTC program, which consists of more than 
100 universities nationwide conducting multi-modal research and 
educating the next generation of transportation leaders.
    Our National Transportation Library uses new media tools to 
reach across stakeholder communities. Along with TRB's Research 
in Progress databases, it enhances real-time information 
sharing, helps identify potential needs and collaboration 
opportunities, and makes innovative research products available 
to those who can implement research results.
    Of course, one of the most important components of RITA is 
the Bureau of Transportation Statistics. Good research relies 
on good data. BTS's key data programs support research and 
analysis that will be needed to achieve the President's 
transportation goals. We must and will focus on how to 
continually improve both the effectiveness and the efficiency 
of these programs moving forward.
    Assistant Secretary Trottenberg has laid out Secretary 
LaHood's priorities. Let me give some examples of research that 
relate to those.
    In the area of safety, the Department recently hosted a 
Distracted Driving Summit which has led to a wide array of 
specific actions and a multi-modal research agenda. We have 
participation from every part of the Department recognizing 
that distracted driving is an area of scientific research that 
affects every aspect of transportation.
    The Secretary has recently launched a DOT Safety Council 
which will prioritize cross-modal safety research, and RITA is 
taking the lead in supporting the Secretary on that effort.
    The Strategic Highway Research Program 2, SHRP 2, is 
performing the largest naturalistic driving study ever 
conducted, which will evaluate the causes and consequences of 
crashes and near-crashes, including those where distracted 
driving was a factor.
    Our ITS [Intelligent Transportation Systems] Program's 
IntelliDrive initiative is laying the groundwork for a future 
highly connected and safe environment for vehicles and our 
infrastructure.
    In the area of livable communities, our partnership with 
HUD and EPA helps us to develop a research agenda and 
performance metrics for our livable communities efforts. These 
should also include safety metrics and research to improve 
pedestrian and bicyclist safety, which are critical to the 
advancement of livable communities.
    DOT is evaluating a pilot program in four communities to 
demonstrate the contributions of non-motorized transportation 
toward achieving health, environmental, and energy goals.
    In the area of environmental sustainability, the FRA, 
Federal Railroad Administration, has partnered with industry to 
launch fuel cell and bio-diesel locomotives, aiming at zero 
emissions. The Federal Transit Administration is demonstrating 
hybrid bus technologies and continues the national Fuel Cell 
Bus Program. Green research is being conducted at some of our 
UTCs. For example, the University of Wisconsin is analyzing 
consumer adoption and grid impact for plug-in hybrids. The FAA 
[Federal Aviation Administration] is supporting aviation 
climate research in coordination with NASA [National 
Aeronautics and Space Administration] and NOAA [National 
Oceanic and Atmospheric Administration] and making progress on 
renewable fuels.
    In the area of economic competitiveness, the Next 
Generation Air Transportation System, NextGen, uses 21st-
century technologies to ensure future safety, capacity and 
environmental needs are met. Through the Small Business 
Innovation Research program, SBIR, DOT is stimulating 
technological innovation in areas such as green transit, 
traffic signal analysis and human factors associated with 
NextGen deployment.
    In the area of state of good repair, our expanding research 
to develop new materials that provide greater durability and 
reliability, provide enhanced tools for asset condition 
inspection, and deliver more environmentally-friendly 
construction techniques. The Highway Administration is also 
looking at materials such as high-performance composites to 
reduce cracking, water penetration, and premature deterioration 
of structures.
    So we are continuing to look and explore ways to not only 
enhance this research but pursue broad dissemination of this 
knowledge and these products. Many of our colleagues at this 
table are partners in the effort to get this out to the people 
that really use this technology and research.
    I thank you, and I look forward to answering your 
questions.
    [The prepared statement of Hon. Appel follows:]
               Prepared Statement of Hon. Peter H. Appel
    Chairman Wu, Ranking Member Smith, and Members of the Subcommittee, 
thank you for the opportunity to appear before you today to discuss 
U.S. DOT's multimodal research.
    The Research and Innovative Technology Administration (RITA) has a 
unique role within DOT--we are charged with coordinating collaborative 
multi-modal research and development. We look across the modes and to 
our partners to identify synergies and opportunities for collaboration 
in support of the Department's priorities to help make critical 
investment and policy decisions based on sound science and rigorous 
analysis. We do this in a variety of ways.
    One way is through the Research, Development and Technology (RD&T) 
Planning Team, which is chaired by RITA staff and through the RD&T 
Planning Council, which I chair. The Team consists of the heads of the 
research organizations of the modes within the Department and meets to 
discuss ongoing research activities, to convene clusters of researchers 
in specific science-based disciplines, and to ensure research alignment 
with DOT priorities.
    The Planning Team will work to ensure not just that our research is 
aligned with our priorities, but that we have a clear strategy to 
facilitate the adoption of these research results. We need to consult 
with stakeholders such as state DOTs, transit authorities, private 
companies, and other key transportation players.
    Another way is via the University Transportation Center (UTC) 
program, which consists of more than 100 universities nationwide 
conducting multi-modal research and educating the next generation of 
transportation leaders.
    Our National Transportation Library uses new media tools to reach 
across stakeholder communities. Along with TRB's Research in Progress 
database, it enhances real-time information sharing, helps identify 
areas of potential need and collaboration, and makes innovative 
research products available to those who can implement research 
results.
    Of course, one of the most important components of RITA is the 
Bureau of Transportation Statistics. Good research relies on good data. 
BTS' key data program support research and analysis that will be needed 
to achieve the President's transportation goals. We must and will focus 
on how to continually improve these programs moving forward.
    Assistant Secretary Trottenberg has laid out Secretary LaHood's 
priorities. Let me give some examples:

    Safety:

        <bullet>  The Department recently hosted a Distracted Driving 
        Summit which has led to a wide array of specific actions and a 
        multimodal research agenda.

        <bullet>  The Secretary has recently launched a DOT Safety 
        Council which will prioritize cross-modal safety research.

        <bullet>  The Strategic Highway Research Program 2 (SHRP 2) is 
        performing the largest naturalistic driving study ever 
        conducted, which will evaluate the causes and consequences of 
        crashes and near-crashes, including those where distracted 
        driving was a factor.

        <bullet>  Our Intellidrive initiative is laying the groundwork 
        for a future highly connected and safe environment for vehicles 
        and our infrastructure.

    Livable communities:

        <bullet>  Our partnerships with HUD and EPA help us to develop 
        a research agenda and performance metrics for our livable 
        communities efforts. These should also include safety metrics 
        and research to improve pedestrian and bicyclist safety, which 
        are critical to the advancement of livable communities.

        <bullet>  DOT is evaluating a pilot program in four communities 
        to demonstrate the contributions of non-motorized 
        transportation toward achieving health, environmental, and 
        energy goals.

    Environmental sustainability:

        <bullet>  The Federal Railroad Administration (FRA) has 
        partnered with industry to launch fuel cell and bio-diesel 
        locomotives, aiming toward zero emissions. The Federal Transit 
        Administration (FTA) is demonstrating hybrid bus technologies 
        and continues the national Fuel Cell Bus Program.

        <bullet>  `Green' research is being conducted at some of our 
        UTCs. For example, the University of Wisconsin is analyzing 
        consumer adoption and grid impact for plug-in hybrids.

        <bullet>  The FAA is supporting aviation climate research in 
        coordination with NASA and NOAA, and making progress on 
        renewable fuels.

    Economic competitiveness:

        <bullet>  The Next Generation Air Transportation System 
        (NextGen) uses 21st century technologies to ensure future 
        safety, capacity and environmental needs are met.

        <bullet>  Through the Small Business Innovation Research (SBIR) 
        program, DOT is stimulating technological innovation. Through 
        topics as varied as crash avoidance monitoring systems for road 
        and rail; green transit; expert systems for traffic signal 
        analysis; and human factors tools for NextGen deployment.

        <bullet>  Economic competitiveness depends on an effective 
        freight transportation system, and data from the Commodity Flow 
        Survey and other BTS programs are important to measuring and 
        advancing that effectiveness.

    State of good repair:

        <bullet>  Our expanding research to develop new materials that 
        provide greater durability and reliability, provide enhanced 
        tools for asset condition inspection, and deliver more 
        environmentally-friendly construction techniques.

        <bullet>  The FHWA is sponsoring research on new materials, 
        such as developing high-performance composites to reduce 
        cracking, water penetration, and premature deterioration of 
        structures.

    RITA will continue to identify and explore ways to not only enhance 
research, innovation, and technology but also to pursue rapid and broad 
dissemination of the knowledge and products being generated as we work 
collaboratively towards solutions for our transportation system.
    Thank you. I look forward to answering your questions.

                   Biography for Hon. Peter H. Appel

RITA Administrator

    Peter H. Appel was confirmed by the U.S. Senate as Administrator of 
the Research and Innovative Technology Administration on April 29, 
2009. Before joining RITA, Mr. Appel was with the global management 
consulting firm of A.T. Kearney, Inc. He has led business improvement 
initiatives for clients in the private and public sectors, with a focus 
on Transportation and Infrastructure.
    Mr. Appel has over 20 years of experience in Transportation, and 
has supported organizations in the railroad, trucking, airline, and 
ocean shipping
    industries with growth strategy, supply chain improvement, post-
merger integration, public-private partnerships, and other key business 
and policy issues. Previously, he served as the Special Assistant to 
the Administrator of the Federal Aviation Administration, and as 
Assistant Director for Pricing and Yield Management at Amtrak. Mr. 
Appel earned his bachelor's degree from Brandeis University in 
Economics and Computer Science with Highest Honors, and received his 
Master of Science in Transportation from the Massachusetts Institute of 
Technology.

    Chairman Wu. Mr. Pedersen.

 STATEMENT OF NEIL J. PEDERSEN, P.E., ADMINISTRATOR, MARYLAND 
                  STATE HIGHWAY ADMINISTRATION

    Mr. Pedersen. Thank you, Mr. Chairman, Ranking Member 
Smith. It is a pleasure to be here today on behalf of the 
American Association of State Highway Transportation Officials, 
otherwise known as AASHTO.
    On behalf of AASHTO, I want to express my appreciation for 
your focus on transportation research needs in the United 
States.
    In my testimony today and in my written testimony, there 
are four main points that I would like to cover. One, it is 
critical that we retain the current, multi-tier transportation 
research structure that has worked very well for us. Number 
two, U.S. DOT should take the lead in conducting national 
policy-level research in support of the emphasis areas of the 
Administration. Current research activities conducted by 
states, universities and Transportation Research Board can 
complement and support this research. Third, AASHTO 
representing state DOTs has identified a number of research 
needs in each of U.S. DOT's four priority areas that are 
contained in my written testimony, and I will cover a few 
examples. And fourth, it is critical to ensure that the 
discoveries made through the research are communicated and 
transferred into practice.
    First, on our current research structure, there are 
numerous levels and layers to the current research structure 
funded by federal, state and local dollars. From ongoing policy 
research at U.S. DOT, the technical research carried out by the 
Transportation Research Board and the states to research and 
training conducted by our universities, there is substantial 
cooperation, collaboration and communication regarding 
research. These multi-layered and integrated structures worked 
well in delivering strategic research that responds to the 
needs of our transportation industry.
    The relatively small amount that we spend on research helps 
to leverage the rest of the transportation program by providing 
us with solutions that improve the quality and efficiency of 
our investments. Thus, in any considerations of future federal 
transportation research programs, this multi-layered approach 
should be continued and supplemented.
    Second, the secretary has articulated four areas of policy 
emphasis that we have heard about. It is an appropriate role 
for the U.S. DOT to undertake strategic research in support of 
these policy areas. Through the existing multi-layered research 
structure, others, including TRB in the states can support and 
complement the strategic research with their own research 
efforts.
    It is also very important that U.S. DOT has the broadest 
level of flexibility in undertaking research priorities it has 
identified in support of its policy emphasis areas.
    Third, regarding four areas of policy focus, I would like 
to highlight a few examples of needed research. In the area of 
safety, key research on understanding the myriad of reasons why 
crashes occur will be invaluable in our efforts to cut traffic 
fatalities in half over the next two decades. We also need 
better evaluation data on effectiveness of countermeasures, 
particularly those targeted at driver behavioral issues. 
Ninety-three percent of crashes are estimated to be attributed 
to driver error.
    In the area of sustainability, I will offer the following 
definition which is a slight modification of one state DOT's 
definition. Sustainability is the provision of safe, effective 
and efficient access and mobility into the long-term future 
while sustaining the long-term economic, social and 
environmental viability, the so-called triple bottom-line. 
Sustainability requires that we change our frame of reference 
for decisions, to think about their implications 80 to 100 
years into the future or even longer.
    Research focusing on life cycle costs and long-term 
environmental impacts and benefits would be very helpful to the 
state DOTs as we attempt to incorporate sustainability 
considerations into our everyday decision-making.
    Livability is a term that means different things to 
different people. We consider it to be a critical element of 
the social component of the triple bottom-line. It is essential 
that any definition developed for livability be broad enough 
and flexible enough to reflect the needs of all of our 
communities from rural to suburban and urban areas. Human 
behavioral research will assist us in understanding why people 
choose to live where they do and why they choose to travel the 
way they do.
    In the area of economic competitiveness, AASHTO urges that 
research focus on defining a national freight transportation 
system, how to define public benefits of investments and public 
dollars in privately owned freight facilities, and how to 
address multi-state planning and investments in the freight 
system.
    Finally, but certainly not least, is the importance of 
transferring the findings of our research to transportation 
planners, engineers, designers and contractors. U.S. DOT should 
embrace the latest methods to assist technology transfer and 
implementation and be provided with the funding needed to share 
this information. Web-based technologies including webinars and 
interactive web pages, on-line training and other mechanisms 
can ensure that new research ideas get out to practitioners and 
be implemented more quickly.
    We already know that research properly transferred into 
practice can make a difference in the way Americans and their 
goods move about the country. State DOTs stand ready to 
collaborate with you on this crucial effort.
    Again, thank you for this opportunity to testify before you 
today, and I will be happy to answer questions as well.
    [The prepared statement of Mr. Pedersen follows:]
              Prepared Statement of Neil J. Pedersen, P.E.

Introduction

    Mr. Chairman and distinguished members of the Committee, my name is 
Neil Pedersen and I am the Administrator for the Maryland State Highway 
Administration. I am also the Vice Chair of the Standing Committee on 
Highways of the American Association of State Highway and 
Transportation Officials (AASHTO), and I am a registered Professional 
Engineer in the State of Virginia. On behalf of AASHTO, I want to 
express my appreciation for your focus on transportation research needs 
in the United States.

Overview of the Current Transportation Research Program in the U.S.

    State transportation agencies share a mission to deliver safe, 
long-lasting highways and bridges, as well as rail, transit, and 
maritime facilities, for passengers and freight customers alike. To 
accomplish this mission, especially in today's fiscally challenging 
circumstances, state DOTs turn to research for solutions to their 
toughest problems.
    However, by any measure--across industries or countries--the U.S. 
transportation community invests very modest resources in research and 
innovation. Nevertheless, we have gained tremendous benefits in terms 
of lives saved, more durable infrastructure, and improved operations. 
But we are continually challenged by growing passenger and freight 
vehicle-miles of travel (VMT), changing demographics of system users, 
shifting economies, and the anticipated effects of global climate 
change. Meeting these challenges will require new and better ways of 
doing business. It will also require many resources: financial, 
political, and human. One of our best investments is in research and 
technology.
    As you are likely aware, there are several components to our 
national transportation research effort that are supported with federal 
surface transportation funds.

          1. The most obvious component is the federal research carried 
        out directly by U.S. DOT, including research directed by the 
        Policy Office, as well as by agencies such as the Federal 
        Highway Administration (FHWA), Federal Transit Administration 
        (FTA), National Highway Traffic Safety Administration (NHTSA), 
        Federal Motor Carrier Safety Administration (FMCSA), Federal 
        Railroad Administration (FRA), and the Research and Innovative 
        Technology Administration (RITA).

          2. The second component is research conducted by each State 
        DOT, managed by the individual members of AASHTO's Research 
        Advisory Committee and coordinated with national research 
        programs. The majority of this funding comes from the 
        federally-sponsored State Planning and Research (SPR) program, 
        which will be discussed in more detail later.

          3. The third component consists of the various cooperative 
        research programs managed by the Transportation Research Board 
        (TRB), such as the National Highway Cooperative Research 
        Program (NCHRP), Transit Cooperative Research Program (TCRP), 
        the Freight Cooperative Research Program (FCRP), and the Hazmat 
        Cooperative Research Program. Most of these programs determine 
        their research agenda on an annual basis. The largest of these 
        programs--NCHRP--is funded through an annual voluntary 
        contribution of state SPR funds and has been carried out since 
        the early 1960s.

          4. A fourth component is policy research carried out by TRB.

          5. A fifth component consists of special research authorized 
        by Congress, such as the Strategic Highway Research Program 2 
        (SHRP2), which is focusing on four critical issues in 
        transportation--safety, infrastructure renewal, travel-time 
        reliability, and capacity needs.

          6. A sixth component is the research carried out by the 70 or 
        so University Transportation Research Centers housed in 
        individual universities, or in consortia of universities, 
        across the country.

    Each of these components plays a vital role in the overall research 
effort and, while the efforts are independent, there is considerable 
collaboration and communication that exists between these research 
programs to ensure the development of cohesive, complementary, and 
significant research.
    Each program, in its own way, can and will make contributions to 
the four goals outlined by the Secretary. However, I believe that the 
research carried out by the federal modal agencies and the U.S. DOT 
Policy Office would be the logical place to address the four priority 
areas of safety, environmental sustainability, livable communities, and 
economic competitiveness, since the research could be conducted under 
the direction of the Secretary. In addition, research such as this that 
is more strategic in nature--and on a more national scale--is typically 
more expensive than can be accomplished by the states on their own; 
thus, federal leadership is needed.

The Federal Research Program

    Throughout its history, a core element of U.S. DOT's mission has 
been to promote innovation and improvement in American's transportation 
system. Over the course of the last few decades, this critical mission 
element has developed into a broad array of research and technology 
activities covering the spectrum of advanced research, applied 
research, technology transfer, and implementation. To maximize the 
effectiveness of these research and technology (R&T) activities, U.S. 
DOT also carries out or funds a host of activities necessary to support 
a vibrant R&T program, including research administration, 
communication, coordination, conferences, and partnerships with other 
national and international organizations.
    Over the course of the last few authorization cycles, FHWA's R&T 
funding has been increasingly earmarked and designated until, under 
SAFETEA-LU, not a single discretionary R&T dollar was left to the 
agency. Because Congress authorized all the funds for R&T to be spent 
on particular projects or research areas (often earmarking the funds to 
particular universities), U.S. DOT was unable to fund a number of 
mission-related activities that the states depend upon. For example, 
there was no funding available for policy research, including 
infrastructure condition assessment; for updates to the Manual of 
Uniform Traffic Control Devices; for TRB core support; and for a host 
of other ``orphaned programs.''
    In addition, the lack of flexibility prevents U.S. DOT from 
responding to changing national needs and crises--for example, the 
increased need for transportation security since September 11, 2001.
    U.S. DOT needs to have the resources to carry out appropriate 
research to achieve their mission--including the four priority areas of 
safety, livability, sustainability and economic competitiveness--and 
the flexibility to carry it out in a responsive manner. The states and 
others can complement U.S. DOT's research program through the research 
we are conducting in our ongoing programs.

The States' Research Program

    As I mentioned earlier, one of our best investments has been and 
continues to be in research and technology. The relatively few dollars 
we spend on research leverage the rest of the highway program by 
providing us with solutions that improve the quality and efficiency of 
diverse agency activities.
    For decades, federal-aid funding has been a key resource for 
research, with the states and federal government jointly investing in 
innovation. Each state receives federal-aid funding through the State 
Planning and Research (SPR) program to address the transportation needs 
that they deem the most critical, including, among others: engineering 
and economic surveys; planning and financing of future highway 
programs; studies on the economy, safety, and convenience of surface 
transportation systems; and research, development, and technology 
transfer activities. The variety of activities carried out and products 
produced by this program is crucial to the advancement of the 
transportation system in our country.
    SPR funds are made available to the states by formula and consist 
of two percent (2%) of each states federal apportionment for the six 
core highway programs. Since this program is dependent upon the 
organization of the core programs for its funding, any changes to the 
current structure could have a tremendous effect on the states' 
research programs and, subsequently, what can be accomplished.
    States are required to expend at least one-fourth of the total SPR 
funding specifically on research, development, and technology transfer 
activities, including training. This research component of SPR can 
include highways, public transportation, and intermodal transportation 
systems; infrastructure renewal (including pavement, structures and 
asset management); activities relating to safety, operations and 
maintenance; environmental and real estate planning; and management, 
policy analysis, and systems monitoring.
    The states' transportation needs and critical issues are unique and 
constantly changing, and the SPR program affords states the opportunity 
and flexibility to address those research and technology needs that are 
most vital to maintaining and improving their transportation systems, 
including emerging transportation research needs. States give high 
priority to applied research to address state and regional challenges, 
to the transfer of technology from researcher to user, and to research 
that supports the development of standards and specifications.
    The State DOTs also collaborate on research projects with other 
federal, state, regional, and local transportation agencies, academic 
institutions, foundations, and private firms through the Transportation 
Pooled Fund program. The Federal Highway Administration administers 
this program and approves the projects that are selected. The program 
allows groups to combine resources to support the project, which may 
consist of research, planning, and/or technology transfer activities.
    In addition, states co-fund the National Cooperative Highway 
Research Program through the Transportation Research Board of the 
National Academy of Sciences. Support for this program is voluntary and 
funds are drawn from the states' SPR funds. Projects are selected 
annually by the AASHTO Standing Committee on Research, and the funds 
can be spent only for research projects approved by at least two-thirds 
of the states. Each states allocation amounts to 5\1/2\ percent of its 
SPR apportionment.
    As noted above, the States' research efforts are decentralized, 
with priorities determined by experts in their fields, i.e., the 
stakeholder and user groups who deal directly with transportation 
issues day-in and day-out. Its flexibility allows the states to deal 
with new and emerging needs that bubble up from those on the front 
lines of the transportation industry. Research can be conducted by a 
single state, pooled among several states with a common need or 
concern, or conducted through a national program such as NCHRP.
    Frequently, key research efforts start in one or more states--
through the SPR program--and other states and/or U.S. DOT expand upon 
that research and it becomes more national in perspective. Advanced 
searchable databases such as the Transportation Research Information 
Service (TRIS) and the Research in Progress (RIP) database help to 
ensure that overlap and redundancy do not occur by allowing researchers 
to determine what has been accomplished thus far and what may be 
underway related to their topic of interest. This decentralized 
organization of research programs has been working well for many years 
and should be continued in its present form to ensure that ongoing 
research continues and that the flexibility exists to meet new demands.

Technology Transfer and Implementation

    The final, and possibly most important, steps in the research 
process consist of technology transfer and implementation. Technology 
transfer and implementation can be explained best by a fishing analogy: 
technology transfer provides the information on what pole to buy and 
where to find the lures; implementation involves showing someone how to 
fish.
    Research is useless if it sits on a shelf. Thus, the need for 
effective and continual technology transfer and implementation cannot 
be overemphasized. For most people, and by extension most agencies, 
change is difficult. New ideas may get nods of approval but may not get 
implemented without assistance, such as champions to get the ball 
rolling, presentations and webinars to get the message out, and pilot 
projects to show practitioners how the new ideas can be incorporated 
into the current business model.
    Programs such as the Local Technical Assistance Program, which 
provides information and training to local governments and agencies 
across the country; the National Highway Institute and National Transit 
Institute, which provide training, education, and information 
clearinghouse services; and the National Transportation Library, which 
maintains a robust transportation knowledge base for researchers and 
practitioners; provide critical assistance in ensuring that research 
becomes reality.

Research Needs Within U.S. DOT's Four Priority Areas

    It is important to note that the potential scope of the research 
that could be done in each of the four priority areas is immense. To be 
effective, U.S. DOT needs to coordinate efforts with the transportation 
community to ensure that their research agenda is focused on the facets 
of these four goals that they consider the most urgent priorities, and 
that the various research programs complement, as opposed to overlap, 
each other.
Safety
    For safety, we know what the goal is--reducing deaths and injuries 
on our nation's transportation system--but we do not necessarily know 
how effective we have been in achieving that goal because we don't have 
much-needed data to tell us what works and what doesn't. Data is an 
extremely important part of the research effort that is often 
overlooked, but research is only as good as the data it is based upon. 
Some individual states, such as Iowa, have extensive safety databases, 
but to address key national challenges, we need more national-level 
data beyond what is currently available.
    Key safety research needs are focused on developing a better 
understanding of the factors contributing to crashes, developing new 
strategies for addressing highway safety, and evaluating the 
effectiveness of strategies currently in use. Examples include the 
following:

        <bullet>  Understanding Crash Causation. Human factors play a 
        part in the occurrence of crashes and need to be better 
        understood in order to develop appropriate countermeasures. Two 
        specific contributing factors for which additional research is 
        needed are distracted driving and drugged driving. While 
        distracted driving has received significant attention recently 
        and is a growing highway safety concern, some of the details 
        are not clear. In the instance of cell phone use, for example, 
        it has not been shown that there is less risk associated with 
        hands-free use than with hands-on use. Also, drunk driving has 
        been studied extensively, but additional information is needed 
        on driving under the influence of drugs. A recent NHTSA report 
        showed that 16 percent of nighttime drivers in a roadside 
        survey tested positive for one of a variety of legal or illegal 
        drugs. Since drugs are absorbed by and act on the body 
        differently from alcohol, additional research is needed to 
        determine which drugs impair driving, and the dosage levels 
        that are associated with impaired driving and a higher crash 
        risk.

        <bullet>  Countermeasure Development. New and promising 
        strategies are needed to address highway safety from the 
        engineering, enforcement, education, and emergency medical 
        response perspectives. Reducing roadway departure and vehicle 
        collisions, improving the effectiveness of enforcement 
        activities, strengthening public information campaigns, and 
        reducing emergency response times will contribute to the 
        reduction of highway fatalities. New countermeasures could 
        include infrastructure improvements related to better signing 
        and marking, work zone safety improvements, and median barrier 
        improvements; vehicle technologies such as crash avoidance, 
        rollover avoidance, and occupant protection; and communication 
        technologies that allow vehicle-to-vehicle and vehicle-to-
        infrastructure communication as well automated communication of 
        crashes to emergency responders.

        <bullet>  Evaluation. State, local, and federal agencies with 
        responsibilities for addressing highway safety are continuously 
        implementing strategies and programs, but additional 
        information on the effectiveness of these countermeasures is 
        needed to enable highway agencies to better direct their 
        limited funds. The National Cooperative Highway Research 
        Program (NCHRP) has published a series of over 20 guides that 
        provide detailed information on a wide range of highway safety 
        strategies, but the effectiveness of many of these 
        infrastructure and driver behavioral strategies in unknown. The 
        effectiveness of behavioral programs, such as public 
        information and education campaigns, is especially difficult to 
        evaluate, and methodologies for performing these evaluations 
        need to be developed. Legislation, such as hand-held cell phone 
        bans and ignition interlock requirements for first time drunk/
        drugged driving offenders, need to be evaluated for 
        effectiveness in changing the behaviors--in the short and long 
        term--that are contributing to serious crashes.

        <bullet>  Data and Data Collection Technologies. Without 
        comprehensive and high quality data, it is difficult to 
        determine the nature of our highway safety problems, where the 
        problems are, how to best to treat the problems, and how 
        successful treatments have been. Extensive roadway networks, 
        interaction of and communication between the various highway 
        agencies with jurisdiction in the states, and limited resources 
        for collecting data are the main challenges related to 
        obtaining data for highway safety analyses. With the increased 
        focus on new highway safety analysis tools and on the need for 
        measuring performance, data are constantly becoming more of a 
        limitation and data improvements are becoming more of a crucial 
        need. Technologies are needed that automate data collection on 
        all public roads, including lesser traveled and rural roads, 
        and to significantly reduce the time needed to transfer data to 
        a database and make it available to users.

Environmentally Sustainable Transportation/Sustainability

    Sustainability means different things to different people. One 
State DOT defines sustainable transportation as ``the provision of 
safe, effective, and efficient access and mobility into the future 
while considering the economic, social, and environmental needs of 
society.'' The transportation network must meet the needs of a growing 
population and an expanding economy while simultaneously reducing the 
environmental footprint of the system.
    Sustainability has also been defined as:

        <bullet>  An overarching conceptual framework that describes a 
        desirable, healthy, and dynamic balance between human and 
        natural systems.

        <bullet>  A system of policies, beliefs, and best practices 
        that will protect the diversity and richness of the planet's 
        ecosystems, foster economic vitality and opportunity, and 
        create a high quality of life for people.

        <bullet>  A vision describing a future that anyone would want 
        to inhabit.

    Central to these definitions is sustainability's applicability to 
three elements of life: economic and/or financial considerations, 
environmental protection and stewardship, and community and individual 
human well-being--the ``triple bottom line'' of sustainability. This 
means improving the economic and social quality of life while limiting 
impacts on the environment. In this framework, ideal solutions to any 
type of challenge will generate long-term benefits in all three areas.
    Today, the transportation sector's mission goes beyond ensuring 
mobility to achieving the larger societal goal of economic, social, and 
environmental sustainability. Approaches such as context sensitive 
solutions and integrated planning provide transportation agencies with 
the tools to consider economic, social, and environmental factors as 
they develop transportation solutions. A few examples of research that 
will help us achieve the goal of a sustainable transportation system 
include the following:

        <bullet>  Life Cycle Cost Analysis Techniques. New and enhanced 
        economic tools hold the promise of helping transportation 
        agencies choose the most cost-effective project alternatives 
        and communicate the value of those choices to the public. These 
        agencies could benefit from the identification, development and 
        enhancement of life cycle cost methods to estimate and evaluate 
        the full costs of transportation investments over a long period 
        of time such as 80 to 100 years.

        <bullet>  Long Term Environmental Impacts and Benefits. Related 
        to life cycle cost analyses, evaluation of transportation 
        alternatives could be enhanced with additional information and 
        research regarding long term impacts (beyond 20 years) and 
        benefits of various transportation investments and strategies.

        <bullet>  Transportation Pricing. Proponents promise that 
        pricing can deliver smarter use of existing capacity, reduce 
        congestion, and avoid costly expansion needs while expanding 
        the menu of options for raising money to pay for system 
        preservation and capacity improvements. Research is needed to 
        objectively evaluate the case for economic, environmental, and 
        social sustainability benefits of road pricing--in other words, 
        what level of fees would be required to alter driver behavior 
        and generate substantive benefits from an environmental, 
        economic, and social context.

        <bullet>  New Structural Systems. The use of ``greener'' 
        structural systems to meet environmental stewardship objectives 
        is an intriguing possibility. Materials such as recycled steel, 
        or concrete with recycled aggregated and other recycled 
        materials to replace the cement, could be used to meet the 
        objectives of using recycled materials and reducing carbon 
        emissions. In addition, using composite structural components 
        (such as concrete filled tubes or walls) to replace traditional 
        structural steel or reinforced concrete components greatly 
        reduces the labor and material needed, thereby meeting the 
        objective of accelerated bridge construction that is so 
        important in today's marketplace. A research program 
        investigating the use of these components in highway 
        construction would require experimental testing of the 
        material, components, and connections. The experimental results 
        could be used to develop robust design methods, and analytical 
        modeling would be required to develop engineering expressions 
        appropriate for bridge designers. Finally, a complementary 
        life-cycle assessment would be required.

        <bullet>  Management Tools. Many existing tools might also be 
        applied to help determine or enhance the ``sustainability'' of 
        a project or program. For example, life-cycle analysis could be 
        used as a tool to assess long-term sustainability; optimization 
        could be used to assess and balance trade-offs for maximizing 
        sustainability; and infrastructure preservation and asset 
        management strategies could be applied to promote longer-life 
        facilities, which is an important aspect of sustainable 
        transportation.

        <bullet>  Climate Change and Adaptation. The threats that 
        climate change may pose to transportation systems, including 
        for example, flooding, changes in average temperatures, and 
        extreme weather events, are well documented. The impacts on 
        transportation systems may include, for example, accelerated 
        pavement deterioration; flooded roadways; bridge damage; 
        increased maintenance; and increased storm water and drainage 
        issues. Research to assist state transportation agencies in 
        planning for adaptation and to assist in the states' developing 
        guidelines for design, construction and maintenance is 
        necessary.

Livable Communities/Livability
    Livability is another term that means different things to different 
people. For AASHTO, the notion of livable communities consists of more 
than development patterns and promoting non-motorized transportation--
it is a broader idea that includes providing mobility and access to 
opportunities and social services. Livability can be thought of as the 
``social'' aspect of AASHTO's definition of ``sustainability.''
    In addition, there appears to be a strong correlation between the 
idea of fostering a ``livable community'' and the transportation 
project development process known as Context Sensitive Solutions, or 
CSS. CSS is a process for developing transportation solutions by and 
for communities, where the community itself defines what is needed to 
solve its transportation challenges. Individual communities define what 
is a ``livable community'' to them by developing a vision and goals for 
their future, and then the community-defined vision and goals drive the 
appropriate transportation solutions.
    Washington State DOT is one transportation agency that has 
developed a Livable Communities Policy. Their model suggests that a 
balance of the three key societal goals leads to livability: a vibrant 
community, a vital economy, and a sustainable environment. The two 
desirable outcomes from the Washington State Transportation Plan that 
they feel will indicate that they are contributing to the goal of 
fostering livable communities are ``effective community-based design'' 
and ``collaborative decision making.''
    States such as Oregon, Maryland, and Florida have also incorporated 
``livability'' into their transportation policies. Their general 
``livability'' policy themes include: (1) encouraging balanced 
transportation systems to assure mobility through a mixture of modal 
choices, especially at the community and neighborhood level; (2) 
facilitating locally driven community-based and partnership-based 
projects; and (3) identifying funding sources that transportation 
partners can use to enhance livable communities.
    As indicated by the local involvement promoted within these 
examples, it is clear that a single livability solution does not fit 
all situations. The differences between rural, urban, and suburban 
needs, as well as differences between neighborhoods, need to be 
accounted for individually. Research in this area needs to acknowledge 
that what constitutes a ``livable community'' in one part of the 
country--for example, a high-density northeastern urban area--may be 
very different from what is considered ``livable'' in another area--
such as a rural southwestern community. Any definition of livable 
communities that is developed needs to be broad enough to encompass the 
variety of desires within our nation's communities, and also needs to 
acknowledge the roles and responsibilities of the local community in 
making land use decisions, which contribute to the livability of the 
community and the transportation needs that emerge from those 
decisions.
    Thus, research in the area of livable communities as it relates to 
the transportation system could cover a wide spectrum of topics, 
including:

        <bullet>  Public Policy Studies. Land use and transportation 
        are inextricably tied together in the discussion on livable 
        communities, which adds to the complexity of achieving success. 
        Multiple levels of government with competing objectives can 
        conspire to undo the good that each has accomplished, such as 
        when a municipality allows unrestricted access along an 
        arterial facility meant to move traffic, thus necessitating the 
        construction of another facility to achieve the initial 
        objective. Research can help determine such things as: how to 
        encourage infill development in downtowns and inner suburbs 
        (which would also lead to reduced congestion and increased 
        capacity); what is the appropriate use of mixed-use, transit-
        oriented development; and what modal shifts can be achieved 
        through the use of parking design, policy, and pricing.

        <bullet>  Human Behavioral Research. How people respond when 
        given a multitude of options is an area of continual evolution 
        and transformation. The American Dream for most of the country 
        is still the single-family house with the two-car garage. 
        Additional research is needed to investigate the values people 
        hold near-and-dear to their hearts and determine how they make 
        decisions regarding where they live and how they travel.

        <bullet>  Hard-side Engineering Research. In addition to public 
        policy and behavioral research, engineers need tools to help 
        ensure that the reality lives up to expectation and that the 
        infrastructure they design and construct produces the intended 
        results. Turning abstract thoughts into a reality is a 
        tremendous challenge, and some of the tools planners and 
        engineers will need include: guidance on street and transit 
        designs that contribute to biking, walking, and the success of 
        transit service; model policies for land use and transportation 
        interactions that encourage local trips to be made on local 
        streets, thus preserving capacity on arterials for longer-
        distance trips; and best practices for incorporating community-
        based design into the transportation planning and design 
        process.

Economic Competitiveness
    One important thing to note is that these priority areas are not 
mutually exclusive. There are research needs specifically related to 
economic competitiveness, but there are others that are directly 
connected with the priority areas of sustainability, livability, and 
safety.
    The range of projects underway as part of the National Cooperative 
Freight Research Program (NCFRP) at the Transportation Research Board 
demonstrates the interrelation between these areas. NCFRP was 
established through SAFETEA-LU to develop a ``national research agenda 
addressing freight transportation and for implementation of a multi-
year strategic plan to achieve it.'' Projects currently underway that 
relate to the other priority areas include:

        <bullet>  Representing Freight in Air Quality and Greenhouse 
        Gas Models (Sustainability)

        <bullet>  Promoting Environmental Goals in Freight 
        Transportation through Industry Benchmarking (Sustainability)

        <bullet>  Separation of Vehicles--CMV Only Lanes (Safety)

        <bullet>  Understanding Urban Goods Movements (Livability)

        <bullet>  Truck Idling Scoping Study (Livability)

    Projects focused more specifically on Economic Competitiveness 
include:

        <bullet>  Freight-Demand Modeling to Support Public-Sector 
        Decision Making

        <bullet>  Identifying and Using Low-Cost and Quickly 
        Implementable Ways to Address Freight-System Mobility 
        Constraints

        <bullet>  Framework and Tools for Estimating Benefits of 
        Specific Freight Network Investment Needs

    AASHTO has developed recommendations for the next surface 
transportation authorization that support continuation and increased 
funding for the NCFRP. These AASHTO proposals also include freight 
policy and program recommendations that need additional research as a 
foundation for effective implementation. AASHTO's proposals are 
consistent with those made by the Freight Stakeholders Coalition, which 
is comprised of the national associations representing the major 
elements of the freight transportation industry, including both 
carriers and shippers.
    The following are several research priorities related to AASHTO's 
authorization recommendations that are important for transportation's 
contribution to economic competitiveness:

        <bullet>  Defining the National Freight Transportation System. 
        There is consensus, but not unanimity, on the importance of 
        investing in the national freight transportation system in 
        support of economic competitiveness. Unfortunately, there is 
        not consensus on a definition or description of that system as 
        a guide for productive investment. We must have a firm 
        foundation of research and analysis to guide a freight 
        investment program that is intended to generate economic 
        competitiveness benefits for the nation.

        <bullet>  Freight Chokepoints. We know the freight chokepoints 
        on the interstate system that are the most costly. However, we 
        do not know how to translate that into a program of 
        improvements that results in improved system performance that 
        is feasible and cost effective.

        <bullet>  Calculating Public Benefits. It is important to 
        justify all public investments made in transportation in terms 
        of public benefits. It is especially important for freight 
        transportation investments where there may be private profit on 
        the same balance sheet and where we want to document regional 
        and national benefits, as well as local. Currently there is no 
        standard, widely-accepted approach for doing this.

        <bullet>  Measuring Performance. Knowing where to invest and 
        whether or not the investment has been productive requires 
        performance measurement. What you can't measure, you can't 
        manage. AASHTO has invested considerable effort to advance this 
        objective, but more analysis is required to know not only what 
        the appropriate measures are, but how to apply them for policy, 
        program, and project purposes.

        <bullet>  Financing. At present we do not have the funding 
        necessary to simply maintain our core freight transportation 
        systems. We will not get that funding from the traditional 
        sources. We need to figure out how to generate new revenues for 
        this purpose--directly or indirectly--from the beneficiaries of 
        freight improvements that do not have adverse consequences for 
        specific industries, modes, or regions.

        <bullet>  Multi-State Planning and Investment. Freight moves 
        across state lines, but for the most part our processes for 
        planning and financing do not. There are projects important for 
        economic competitiveness for which benefits are widespread but 
        costs are concentrated. These projects cannot be realized, 
        without immense effort, because our institutions or planning 
        and financing are not organized for this purpose. We need to 
        know how to build on the strength of our existing institutions 
        to develop mechanisms for doing these projects.

    Without research in these areas, we cannot hope to have a 
transportation program that meets the nation's economic competitiveness 
needs.
    There is another important category of research that often gets 
lost in the high-level policy, sometimes abstract, discussions related 
economic competitiveness. This research is related to simply making 
sure that the condition, performance, and capacity of the basic 
transportation systems are adequate to meet the need. Virtually all 
freight moves on systems that are shared with passengers--road, rail, 
and water. Continuing research that addresses basic elements of these 
systems is essential
    And, even more specifically. there are many operational objectives 
for State DOTs that are important for economic competitiveness for 
which we do not currently have well-grounded standard practices. These 
include:

        <bullet>  Incorporating freight factors into the project 
        selection process

        <bullet>  Assessing the adequacy of secondary freight routes 
        for large truck traffic

        <bullet>  Experience with highway improvements to support 
        intermodal terminals

        <bullet>  Guidelines for adequacy of connector roads to 
        seaports

        <bullet>  Translating highway engineering and construction 
        experience into the rail arena

        <bullet>  Engineering issues related to truck-only lanes

        <bullet>  Procedures for managing a rail-crossing program to 
        maximize efficiency on rail and road

        <bullet>  Standardizing bridge analysis among the states 
        relative to vehicle weight

Summary of Recommendations

    As you know, the focus of U.S. DOT's programs shifts over time as 
administrations change and new secretaries take charge. This shift in 
focus is necessary and advantageous as the agency realigns itself with 
the emerging challenges in the transportation arena.
    Thus, to pursue the four additional priority areas that the 
Secretary has proposed, AASHTO recommends that the Secretary first 
align U.S. DOT's research program to focus in these areas. The States 
can then help U.S. DOT achieve its vision by determining where there 
are opportunities within our research programs to complement these 
focus areas. For example, an existing research effort that could 
contribute to the sustainability focus area is the climate change 
mitigation and adaptation research that is ongoing.
    We also recommend expanding the total funding for research so that 
additional complementary research can be accomplished. As discussed in 
AASHTO's Authorization Recommendations, U.S. DOT must have sufficient, 
flexible funding to carry out its core program in support of its 
national mission in research and technology. If Congress chooses to 
authorize additional research programs of a national priority, these 
should be funded over and above the core funding for the R&T program, 
which we recommend at $200 million per year for FHWA. Strategic 
national R&T programs, such as SHRP 2 and cooperative research 
programs, should also be funded over and above the core R&T program.
    Within that funding, the full range of R&T activities comprising 
the innovation cycle need to be eligible, including advanced research, 
applied research, technology transfer, research administration, 
communication and coordination, international outreach, and other R&T 
support activities. The support of ongoing training, data, and 
knowledge-related activities, such as the Bureau of Transportation 
Statistics, the National Highway Institute, the Local Technical 
Assistance Program, the National Transportation Library, and others, 
increases the overall effectiveness of core R&T activities.
    A critical part of the research equation that is sometimes 
overlooked is the transfer of information to transportation planners, 
engineers, designers, and contractors who can actually implement the 
results. AASHTO recommends that U.S. DOT be provided with needed 
funding to invest in the further development and increased use of web-
based technologies, such as webinars, interactive web pages, online 
training, and discussion forums, to ensure that information and 
education on new research ideas gets out to practitioners in the field 
where it can be deployed more quickly than with traditional technology 
transfer methods, such as brochures and presentations.
    Finally, we strongly recommend against earmarking existing research 
funding, such as SPR, specifically to the four priority areas, as this 
will shortchange our ongoing research efforts in areas such as 
structures, pavements, planning, environment, policy, operations, 
safety, and research and innovation support.

Conclusion

    Ultimately, AASHTO cannot stress enough the importance of research 
implementation, transfer of research into practice, and technology 
transfer. Multiple and varied efforts are underway to move research 
into practice, and the variety of methods to do this are dependent on 
the actual results and specific solutions.
    To use a potentially overused phrase, ``it takes a village'' to 
accomplish all of the research objectives within transportation, 
including developing the data, establishing the needs, conducting the 
research, sharing the results, and implementing the best ideas. And 
through coordination and collaboration, leveraging time and money, 
utilizing the combined knowledge and expertise, our village is making 
significant contributions to the advancement of our nation's 
transportation system.

                  Biography for Neil J. Pedersen, P.E.
    Administrator of the Maryland State Highway Administration since 
January 2003, Neil J. Pedersen is responsible for an agency that 
maintains and operates nearly 17,000 lane miles of roadway and 2,500 
bridges; employs more than 3,200 professionals in a variety of 
disciplines; and is responsible for an annual budget of $1.7 billion. 
In that position, he also serves as the Governor's Highway Safety 
Representative and Chair of the Maryland State Roads Commission. A 
registered professional engineer, he previously served for two and a 
half years as SHA's Deputy Administrator/Chief Engineer for Planning 
and Engineering--a position that oversees all of the agency's planning, 
design, environmental, and real estate functions. Prior to that, he was 
SHA's Director of Planning and Preliminary Engineering for 16 years. 
Mr. Pedersen led SHA in the delivery of two mega projects: the $2.4 
billion Woodrow Wilson Bridge, which is nearing completion, and the 
$2.5 billion Intercounty Connector, which has begun construction.
    Mr. Pedersen believes in working with other transportation 
professionals to advance the practice of both engineering and, public 
administration. His involvement with the American Association of State 
Highway and Transportation Officials includes being Vice Chair of the 
Standing Committee on Highways, being a member of the Standing 
Committees on Research; and being on its Board of Advisors for the 
Center on Environmental Excellence. He is also a member of the 
Executive Committee of the Transportation Research Board and chairs the 
Executive Committee of the I-95 Corridor Coalition, a consortium of 
transportation organizations from sixteen states along the eastern 
seaboard. He also serves on the Board of Visitors of the University of 
Maryland's Department of Civil and Environmental Engineering.
    Mr. Pedersen has received numerous awards for his service, 
including most recently the 2007 Thomas H. MacDonald Memorial award 
from AASHTO and the 2006 George S. Bartlett award, which is given by 
the Transportation Research Board, AASHTO and ARTBA.
    A native of Massachusetts, Mr. Pedersen holds two undergraduate 
degrees from Bucknell University and a Master's degree in Civil 
Engineering from Northwestern University. He lives in Silver Spring, 
Maryland with his wife, Barbara.

    Chairman Wu. Thank you, Mr. Pedersen. Ms. Flemer, please 
proceed.

  STATEMENT OF ANN FLEMER, DEPUTY EXECUTIVE DIRECTOR, POLICY, 
          METROPOLITAN TRANSPORTATION COMMISSION (MTC)

    Ms. Flemer. Good morning. Chairman Wu, Ranking Member 
Smith, and distinguished Members of the Subcommittee, I am 
honored to be here today. My name is Ann Flemer. I am the 
Deputy Executive Director for Policy at the Metropolitan 
Transportation Commission which is a metropolitan planning 
organization for the San Francisco Bay Area. I also serve as 
the board chair of the ITS America which is an association of 
public- and private-sector entities that are brought together 
by a common vision for advancing, development and deployment of 
intelligent transportation systems to improve safety, mobility 
and the environment.
    You are all very well aware of the challenges facing our 
Nation's transportation system. In past decades we focused on 
building infrastructure to alleviate the increasing traffic in 
our communities, but today we need to utilize that 
infrastructure more effectively and make better use of 
technologies to actively manage our transportation system, both 
to reduce congestion and emissions, make our roads safer, and 
provide the traveling public with better transportation 
options.
    At ITS America we believe the key to a sustainable 
transportation future lies in transitioning into a more 
performance-based approach to managing our transportation 
investments, including better use of technology to measure and 
improve system performance.
    We also believe that national performance goals can and 
should be established to encourage states and MPOs 
[Metropolitan Planning Organizations] to set the short- and 
long-range, mode-neutral performance targets for transportation 
investments.
    So our first recommendation is that the U.S. DOT identify a 
set of performance measures related to the four priority 
strategic goals of safety, livable communities, economic 
competitiveness and environmental sustainability. This would 
include the difficult task of reaching consensus on appropriate 
national performance goals but as well an effective process for 
measuring progress toward these goals at the state and 
metropolitan level.
    By way of an example, I have included in my testimony a 
list of specific performance measures that my agency has most 
recently used in the development of our long-range plan.
    The second recommendation for priority for the research 
agenda is to address the challenge of collecting quality data 
needed to establish baseline performance levels to set 
meaningful performance targets and to measure changes in 
performance over time. There are technologies already being 
used today to collect real-time data, but these technologies 
are not typically deployed consistently on a state-by-state or 
a metro-by-metro area basis. And there is no national program 
for gathering and disseminating this data in a form that is 
useful to the practitioners. Such a system was authorized in 
Section 1201 of SAFETEA-LU [Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users] but 
has yet to be implemented.
    The third priority for the U.S. DOT research program should 
be to identify and if possible quantify the environmental 
benefits of developing and deploying the transportation 
strategies and technologies that can cost-effectively reduce 
greenhouse gas emissions. The Department should broadly 
disseminate research and data to state and local agencies on 
how to accurately measure emission levels and the costs, 
benefits, challenges and best practices associated with 
deploying technologies to achieve an absolute reduction in 
emissions and fuel consumption.
    The fourth area of research would be to implement a two-
pronged strategy that both encourages more rapid deployment of 
existing transportation technologies that can improve safety in 
driver awareness, reduce the number and severity of traffic 
crashes and improve emergency response. But that should happen 
at the same time as we accelerate efforts to advance the 
research and development of future safety solutions that are 
well within reach. The U.S. DOT-sponsored IntelliDrive program 
does hold significant promise for reducing traffic accidents by 
providing high-speed wireless connectivity and sensing 
capability between moving vehicles and between vehicles, 
intersections and other roadside sensors.
    A significant co-benefit of that work is that this smart 
network would also provide traffic managers with real-time 
information to operate their systems more efficiently, also 
give state and local officials comprehensive data to measure 
system performance, and enable innovative financing options 
should we move in that direction as a Nation.
    The ITS JPO [Joint Program Office] has provided tremendous 
leadership in the development and testing of IntelliDrive 
technologies and now proposes to conduct the policy, 
institutional and operational research necessary to accelerate 
its deployment. We think the federal research program should 
provide sufficient resources to complete this work.
    In order to advance the real-world deployment of 
transportation technologies and encourage more aggressive 
investment by the public and private sectors, we do recommend 
that there be a large-scale testing and model deployment 
program focusing on smart cities and communities. This would 
have the dual purpose of providing the public with tangible 
safety, mobility, and environmental benefits while also 
generating real-world data on costs, benefits, challenges and 
lessons learned. Each model city or community would establish 
clear multi-modal performance objectives and provide real-time 
information to travelers for smart travel decisions. It would 
also define performance measures and rigorous data collection 
and analysis methodologies in order to report out their 
results.
    I note that an approach similar to this has provided the 
foundation for the widespread implementation of the 511 
Traveler Information System throughout the country.
    And finally, in conjunction with the smart cities and 
communities initiative, at least one city or community should 
include a test of user fee-based pricing programs that could 
vary by time of day, by zone, by congestion levels and other 
factors that would be interoperable with other tolling, pricing 
and transportation systems. This conduct of complementary 
research and development program would help address challenges 
associated with any deployment of a user fee-pricing system. 
Specific additional recommendations are included in my written 
testimony.
    I thank you for inviting me to join you today, and I will 
be happy to answer questions.
    [The prepared statement of Ms. Flemer follows:]
                    Prepared Statement of Ann Flemer
    Chairman Wu, Ranking Member Smith, and distinguished Members of the 
Subcommittee, I am honored to join you today to examine the role of 
research and development in supporting the priorities of the U.S. 
Department of Transportation (DOT).
    My name is Ann Flemer, and I am Deputy Executive Director for 
Policy at the Metropolitan Transportation Commission (MTC). MTC is the 
metropolitan planning organization for the San Francisco Bay Area, 
which includes the cities of San Francisco, San Jose and Oakland. With 
a combined population of 7.3 million people residing in 101 cities and 
9 counties, the Bay Area ranks as the 6th-largest metropolitan area in 
the United States. Our region's $487-billion economy has long benefited 
from the technological leadership of Silicon Valley; if the Bay Area 
were its own nation, we would rank as the world's 22nd-largest economy.
    MTC allocates more than $1 billion a year to help fund the 
operation, maintenance and expansion of the Bay Area's diverse 
transportation system. MTC also serves as the Bay Area Toll Authority 
(BATA), which is responsible for allocating all toll revenue from the 
seven stateowned toll bridges that span the Bay. BATA has issued over 
$5 billion in toll revenue bonds to finance bridge, highway and transit 
construction projects.
    I also serve as vice chair of the board of directors at the 
Intelligent Transportation Society of America (ITS America). ITS 
America is a 501(c)(3) nonprofit association which represents several 
hundred member organizations--including state and local transportation, 
transit and planning agencies, research institutions, and private 
sector firms from the automotive, transit and commercial vehicle 
sectors to information and communications technology manufacturers and 
providers--who are all working to advance the development and 
deployment of intelligent transportation systems to improve safety, 
mobility and the environment.

The Challenges

    When President Eisenhower launched the Interstate Highway System in 
1956, he opened up a new era of commerce and mobility that enabled 
rapid economic expansion and solidified our nation as the land of 
opportunity and prosperity.
    But today, that opportunity and prosperity are at risk. Traffic is 
grinding our communities to a halt for hours each day, stifling 
commerce, polluting our environment, wasting fuel and taking away 
precious time that we could be spending with family and friends. The 
economic cost of congestion in our major metro areas exceeds $87 
billion per year, including 4.2 billion hours of delay and 2.8 billion 
gallons of wasted fuel. Some estimates place the total cost closer to 
$200 billion. And who can put a price tag on the personal toll to our 
families and our quality of life from spending a full work week sitting 
in traffic each year?
    Before the day is over more than 100 people will die in traffic 
crashes, the equivalent of five fully-loaded 737 airplanes crashing 
every week. The human tragedy of this epidemic is beyond calculation, 
but we know that the economic cost alone from traffic fatalities and 
injuries exceeds $230 billion each year. The combined cost of traffic 
crashes and congested roadways--which leads to many of these 
accidents--totals more than $1 billion per day!
    In addition, the transportation sector contributes nearly a third 
of our nation's human-caused CO<INF>2</INF> emissions and generates 
other pollutants that harm health and quality of life in cities and 
communities across the country. This is a growing problem that cannot 
be ignored.
    In past decades we built more transportation infrastructure to 
alleviate the increasing traffic in our communities. But today, with 
budget shortfalls, a shrinking Highway Trust Fund, limited room for 
additional roads and bridges, and growing public demand for cleaner and 
more convenient transportation alternatives, we can no longer simply 
continue to build our way into a cleaner, safer and more efficient 
transportation future.
    Today, we need to utilize our existing capacity more effectively 
and make better use of smart technologies to actively manage our 
transportation system to reduce congestion and emissions, make our 
roads safer, and provide the traveling public with better 
transportation options. The good news is that with bold policies, new 
technologies and smart investments, we can overcome these challenges. 
But this will not happen if we continue business as usual.

Performance-Based Planning and Investment

    The key to a sustainable transportation future lies in 
transitioning to a more aggressive, performance-based approach to 
managing and investing in our transportation system, including better 
use of intelligent transportation systems (ITS) that are vital for 
measuring and improving system performance and reducing traffic 
congestion, emissions, and vehicle fatalities and injuries. We are 
excited that your committee has taken a strong interest in advancing 
research and technology programs to help make these goals a reality.

San Francisco Bav Area--A Performance Management Case Study

    In the San Francisco Bay Area, at the Metropolitan Transportation 
Commission, we have several years' experience in performance-based 
planning and in deploying intelligent technologies to improve system 
management and performance. (See Attachment A: T-2035 Performance 
Assessment) Simply stated, a performance-based planning approach 
focuses on the measurable outcomes of potential investments and the 
degree to which they support stated policies. It provides a decision 
support tool to evaluate both transportation policies and investments 
relative to desired outcomes. Performance-based planning is systematic 
and analytic in that it:

        <bullet>  expresses policy in terms of quantifiable objectives;

        <bullet>  relies on analytic methods to predict the impacts of 
        different types of investments on system performance;

        <bullet>  sets up an analytic framework for periodic monitoring 
        of system performance; and

        <bullet>  assesses performance trends and provides the 
        opportunity to make adjustments in either the performance 
        measure or the investment priority when needed.

    Using this process, MTC evaluated the cost-effectiveness of 
potential investments with respect to specific performance objectives 
and measured the degree to which our financially constrained program of 
investments contributed toward these objectives in our long-range 
transportation plan. The key was to focus on specific quantitative and 
qualitative measures that were readily understandable to the public, 
were able to be evaluated using reasonably available data, and provided 
a baseline for continuous and accurate measurement over time. Our 
experience may be useful to the U.S. DOT's efforts to achieve national 
strategic goals of safety, livable communities, economic 
competitiveness, and environmentally sustainable transportation.

Federal Research Priority: Establish National Performance Goals and 
                    Measures

    At ITS America, we believe that national performance goals can and 
should be established that align state and metropolitan planning, and 
that the U.S. DOT should support a state and metropolitan performance 
management process that sets short- and long-range mode-neutral 
performance targets for transportation programs. Based on our work in 
the San Francisco Bay Area, Attachment A sets forth possible measures 
that the U.S. DOT could use to further define a research agenda related 
to measuring the performance of the nation's transportation system 
related to safety, efficient freight movement, metropolitan mobility 
and congestion relief, transportation asset management, environmental 
quality and energy conservation.
    However, establishing performance goals and measures is easier said 
than done, which is why the federal research program is so important. 
The first challenge is to reach consensus on appropriate national 
performance goals and an effective process for measuring progress 
toward these goals at the state and metropolitan level.

Federal Research Priority: Cost-Effective Data Collection

    The second and perhaps more difficult challenge is in collecting 
the uniform, accurate and userfriendly data needed to establish 
baseline performance levels, set meaningful performance targets, and 
measure changes in performance categories over time. Intelligent 
transportation systems--including fixed sensors, GPS-enabled devices 
such as cell phones and navigational systems, electronic toll tags, 
cameras, and vehicle probe data--are being used today to collect real-
time data to determine congestion levels, average speeds and travel 
times, incident duration, and other environmental, mobility and safety 
measures. But these technologies are not typically deployed 
consistently on a state-by-state and metro-by-metro basis, and there is 
no national program for gathering system performance data from agencies 
that have available data or to assist other state and local agencies to 
collect data that does not exist today.
    Programs like the Research and Innovative Technology 
Administration's (RITA) SafeTrip-21 partnerships with Caltrans and the 
I-95 Corridor Coalition are leveraging private sector innovation to 
provide real-time information along parts of the east and west coasts. 
But to be effective on a nationwide scale, the U.S. DOT needs to 
determine how best to gather the data through a robust real-time 
information system that would provide uniform data by which to measure 
and monitor the performance of the entire multimodal transportation 
network. Such a system was authorized in Section 1201 of SAFETEA-LU, 
but has yet to be implemented.
    The same technologies that are needed to gather performance data 
are already in use today. The private sector and state and local 
agencies currently gather real-time information to better manage their 
transportation networks to reduce traffic delays, improve commercial 
transport, reduce emissions and fuel consumption, improve incident 
response, and provide the public with timely information about traffic 
conditions and transportation alternatives. But we are missing the 
opportunity to capture this real-time data and process it for use in 
long range planning, for more informed policy and investment decisions, 
as well as by the general public.
    One option to ensure data uniformity and reduce costs that is well-
suited to the U.S. DOT research agenda would be to create a National 
Surface Transportation Performance Service, in partnership with public 
and private sector data providers, from which state and local agencies, 
private companies, and the public could access national, state, 
regional or local system performance data based on their specific 
needs. The technologies are here today, but we need national leadership 
if we hope to create a performance-based transportation system.
    As U.S. DOT considers performance measures, a key priority of the 
transportation research program should be to provide guidance about 
what performance objectives are measurable and achievable based on the 
state of the art in data collection techniques, as well as technologies 
and strategies that can be used to improve system management and 
performance. Maximum consultation among stakeholders and the private 
sector will be necessary. The research program should also partner with 
state and local agencies and private sector leaders to develop 
standards for real-time data collection that will promote uniformity 
and ensure that the data meets the needs of state, regional and local 
officials in both urban and rural areas. The program should make the 
data publicly accessible, which will unleash private sector innovation 
to meet the public's demand for better and more convenient real-time 
information on traffic, transit and roadway conditions, as well as 
their demands for more accountability in long-range planning and 
decisions affecting investment priorities.

Federal Research Priority: Environmental Data and Technologies

    The U.S. transportation sector contributes an estimated 28 percent 
of our nation's carbon dioxide emissions. Strategies for reducing 
greenhouse gas (GHG) emissions from the transportation sector are often 
thought of as a ``three-legged stool'': (1) improving the fuel economy 
of vehicles; (2) reducing the carbon content in fuels, e.g., the 
reformulated fuel standards and alternative fuels; and (3) improving 
the efficiency of the transportation system, which includes maximizing 
system operations, facilitating mode shifts (i.e., increased transit 
options), changing driver behavior, and system planning. Intelligent 
transportation systems, which are part of the third leg of the stool, 
can play a significant role in reducing emissions in the near term 
because they can be deployed more quickly, and can help improve the 
efficiency and mobility of the transportation system, thereby reducing 
fuel consumption and GHG emissions. Deployment of transportation 
technologies may also strengthen the second leg of the stool by 
supporting creation of the infrastructure for alternative energy 
sources, such as plug-in hybrids or hydrogen fuels.
    As state and local governments--either of their own initiative or 
in response to federal policy changes--work to establish environmental 
performance goals and achieve greater efficiency improvements and 
emissions reductions, a key priority for the federal research program 
should be to identify and, if possible, quantify the environmental 
benefits of developing and broadly deploying a suite of transportation 
technologies that help reduce GHG emissions through efficiency gains in 
system operations, reductions in vehicle miles traveled, and/or use of 
alternative, cleaner fuels. The Department should broadly disseminate 
research and data to state and local agencies on technologies and 
strategies for measuring emissions levels and other environmental 
performance metrics, as well as research and data on the costs, 
benefits, challenges and best practices associated with deploying and 
operating technologies and strategies to improve system efficiency and 
reduce emissions and fuel consumption.
    ITS technologies like synchronized and adaptive traffic signals, 
smart transit and parking systems, active traffic management systems, 
electronic toll collection, weigh-in-motion truck inspections, GPS-
enabled devices, and real-time traffic and transit information are 
creating new opportunities for state and local officials and the public 
to reduce their environmental footprint. In addition to a recommended 
toolkit of technologies and strategies that have proven effective at 
both measuring environmental performance and achieving efficiency 
improvements, state and local officials would benefit from readily 
accessible guidance on how to effectively deploy, operate and maintain 
these systems to achieve optimal results. The program should also 
encourage multimodal and multijurisdictional cooperation to meet system 
performance goals and create more livable, sustainable communities.

Federal Research Priority: Advancing Existing and Next Generation 
                    Safety Technologies

    Traffic accidents take the lives of nearly 40,000 Americans each 
year, leave more than 2 million people injured, and cost our nation an 
estimated $230 billion annually. The problem is particularly acute on 
rural roads, where traffic accidents account for more than half of all 
U.S. traffic fatalities, despite only a quarter of the U.S. population 
living in rural areas.
    As public and private sector leaders and safety advocates seek ways 
to reduce driver distraction and find other solutions to the epidemic 
of traffic accidents on our nation's roads, the ITS Joint Program 
Office (JPO) should work with the public and private sectors to 
encourage more rapid deployment of existing intelligent transportation 
systems that can improve driver awareness, reduce the number and 
severity of traffic crashes, and improve emergency response, while 
redoubling its efforts to advance the research and development of 
future safety solutions.
    As a result of cooperative research efforts and private sector 
innovation, vehicle-based technologies exist today that enable cars and 
trucks to detect other vehicles in their blind spot, warn drivers if 
they are drifting out of their lane or off the road, detect pedestrians 
and even large animals on the side of the road, and assist drivers in 
braking to avoid an accident. Many of these crash avoidance features 
are already being offered on higher end cars and commercial vehicles, 
with additional safety features being offered through aftermarket 
devices that provide drivers with critical real-time information about 
traffic, roadway and weather conditions.
    Additional infrastructure-based safety systems that do not rely on 
in-vehicle sensors are also starting to be deployed across the country, 
including high-tech cameras and sensors at intersections that can 
detect speeding vehicles and other dangerous situations and adjust 
traffic signals or warn drivers to prevent potential collisions. Key 
obstacles to the more widespread deployment of these quick, often low-
cost solutions is the lack of dedicated funding for ITS deployment and 
operations, and the lack of performance-based policies that incentivize 
agencies to improve system management to meet performance goals.
    A system that holds significant promise for reducing traffic 
accidents--IntelliDrive<SUP>SM</SUP>--is the result of cooperative 
research between the U.S. DOT, automotive and other industry leaders, 
state and local officials, and associations like ITS America to develop 
high-speed wireless connectivity and sensing capability between moving 
vehicles, and between vehicles, intersections and other roadside 
sensors. Using spectrum which has been designated for this purpose by 
the Federal Communications Commission, the system would gather 
anonymous traffic data such as vehicle speed, direction and location, 
providing a 360 degree early warning system to help drivers avoid 
crashes, while also reading data from other vehicles and sensors to 
alert drivers to icy patches, accidents or stopped traffic ahead, a 
speeding car about the run the red light, and the fastest or most eco-
friendly route to work based on real-time traffic conditions.
    This smart network would provide traffic managers with real-time 
information to operate their transportation systems more efficiently, 
give state and local officials the comprehensive data they need to 
measure system performance, provide emergency personnel with the tools 
they need to respond more quickly to traffic incidents, and even enable 
innovative financing options like a VMT-based user fee that could vary 
by pricing zone, time of day or congestion level.
    The ITS JPO has provided tremendous leadership in the development 
and testing of vehicle-tovehicle and vehicle-to-infrastructure 
communications capability, and should now focus on conducting the 
research necessary to accelerate the deployment of an 
IntelliDrive<SUP>SM</SUP> network. This includes research into expected 
installation and operational costs, governance structure, privacy 
standards, potential liability issues, regulatory research to support 
possible rulemakings, potential commercial applications, and 
anticipated safety, mobility, environmental benefits.
    While much of the focus of the IntelliDrive<SUP>SM</SUP> program 
has been on collision-avoidance and other advanced safety applications, 
the initiative has been expanded over the past couple of years to 
include mobility applications that have significant near-term potential 
for reducing traffic congestion and providing transportation agencies 
and the public with real-time traffic and multimodal travel 
information. These mobility solutions, which collect and disseminate 
critical traffic-related information using a variety of technologies 
including cell phones and other consumer devices, do not require the 
roadside instrumentation or vehicle-to-infrastructure communications 
systems required for advanced collision avoidance, and as such are 
already beginning to be deployed in places like the San Francisco Bay 
Area. In addition to the mobility benefits, these technologies can 
provide vital information to transportation managers and emergency 
responders to improve system operations and incident response, as well 
as to drivers in order to avoid potentially dangerous traffic 
situations and road and weather conditions.
    The Department should continue working with its public and private 
sector partners to advance the IntelliDrive<SUP>SM</SUP> program, with 
the goal of achieving real-world deployment as soon as possible. In 
addition, as the U.S. DOT, Congress, and many state legislatures are 
considering policies to combat distracted driving, including bans on 
certain electronics devices, the ITS JPO should quickly compile and 
disseminate research results, cost-benefit projections, and other 
relevant data to policymakers about current and emerging technologies 
and devices that impact the driver experience, with a particular focus 
on helping policymakers distinguish between technologies that can 
improve driver awareness, provide vital information and enhance public 
safety, and those devices that cause significant driver distraction but 
do not (and are not anticipated in the future to) have measureable 
safety benefits.

Proposed Safety, Mobility and Environmental Solution: Smart Cities and 
                    Communities

    A critical next step in advancing the real-world deployment of 
smart technologies and encouraging more aggressive investment by the 
automotive, information and communications technology industries, and 
state and local agencies is through a large-scale operational testing 
and model deployment initiative that will begin providing the public 
with safety, mobility and environmental benefits while also generating 
real-world data on deployment costs, benefits, challenges, and lessons 
learned.
    ITS America has been joined by state, city and local 
transportation. officials, industry leaders, university researchers, 
and safety and environmental advocates in proposing a Smart Cities and 
Communities initiative that would aggressively deploy and provide for 
real-world testing of smart infrastructure, connected vehicles, and 
other intelligent technology solutions in several model cities and 
communities.
    Smart Cities and Communities would be selected by U.S. DOT through 
a competitive process to establish clear performance objectives, based 
on multi-modal investments and advanced transportation management 
systems, including systems like IntelliDrives` , to make measurable 
progress toward reducing traffic accidents, congestion and emissions, 
to provide real-time information to travelers for smarter travel 
decisions, to optimize system performance for supporting travel by all 
modes (auto, transit, commercial vehicles, pedestrian, bicycling, 
etc.), and to provide a real-world test bed for innovative financing 
alternatives like VMT-based user fees and congestion pricing.
    This initiative is consistent with the National Surface 
Transportation Infrastructure Financing Commission conclusion that 
using technology to improve how people pay for their transportation 
usage, when integrated with existing ITS technologies and systems like 
IntelliDrive<SUP>SM</SUP>, ``will enable the delivery of a host of 
other benefits, including real-time information to vehicle drivers to 
help reduce congestion, improve safety, and reduce emissions, to 
transit operators to improve the convenience and reliability of public 
transit, and to system managers to better monitor and manage the system 
and improve the allocation of transportation infrastructure 
resources.''
    The Smart Cities and Communities initiative would provide U.S. DOT 
with the opportunity to support the deployment of new technologies and 
operational strategies in real-world settings in order to advance key 
goals such as safety, livability, environmental sustainability and 
economic competitiveness. As part of the program, participating cities 
and communities would be required to perform rigorous data collection 
and analysis, and regularly report back on deployment and operational 
costs, safety, mobility and environmental benefits, challenges and 
lessons learned, and recommendations for future research areas and 
deployment strategies.

Federal Research Priority: Innovative Financing Options

    In conjunction with the Smart Cities and Communities initiative, at 
least one selected city or community should include a model VMT-based 
user fee pricing program that could vary rates by time of day, pricing 
zone, congestion levels and other factors; be interoperable with other 
tolling, pricing, and intelligent transportation systems; and 
accommodate multiple forms of payment including cash, credit and debit 
cards, the Internet, and other integrated payment systems. Smart Cities 
and Communities would also have flexibility to pursue other innovative 
financing options, including congestion pricing systems.
    The U.S. DOT--with leadership from the ITS JPO--should conduct a 
complementary research and development program to address challenges 
associated with deployment of a VMT-based user fee as a potential 
transportation financing mechanism. The research program should work 
closely with the public and private sectors and stakeholder 
associations to explore policy and technical issues and make 
recommendations regarding the best option(s), system design, required 
technologies, implementation plan, and challenges and benefits 
associated with the system. To effectively implement the research 
program, U.S. DOT could utilize the expertise of memberbased research 
and technology organizations like ITS America to explore issues such 
as:

        <bullet>  Necessary protocols and systems to accommodate 
        concerns regarding personal privacy;

        <bullet>  Impacts of such a system on rural drivers who have no 
        choice but to drive long distances;

        <bullet>  Options related to the method and point of collection 
        of a national VMT fee;

        <bullet>  Methods to ensure the feasibility of multiple forms 
        of payment;

        <bullet>  The administrative costs associated with such a 
        national program;

        <bullet>  Whether it is more logical to transition all vehicles 
        simultaneously or some vehicle classes first as early adopters;

        <bullet>  How to ensure individuals are not paying both the gas 
        tax and the VMT fee under any phased-in transition approach;

        <bullet>  Impacts of a voluntary or mandatory use of the 
        system;

        <bullet>  Whether different systems for different vehicle types 
        will be necessary or appropriate, including pilot programs for 
        automobiles and different classes of trucks;

        <bullet>  How to provide the positioning accuracy and 
        availability necessary to support state, local, or private 
        charges based on specific areas or lanes traveled; and

        <bullet>  Other benefits that could be gained through 
        integration of a VMT-based user fee system with other 
        intelligent transportation systems and technologies.

Conclusion

    The goal of the federal research program should be to help solve 
state and local challenges, with a specific focus on supporting 
national goals and informing policy decisions. And if this isn't a 
great enough task, the combined challenges of implementing a 
performance-based system, addressing critical safety, mobility and 
environmental problems, and Ending innovative financing mechanisms, 
calls for strong a federal leadership role and a robust research agenda 
that will work to advance the deployment of intelligent technologies 
and system management tools, improve the availability of quality data 
for performance measurement and investment decisions, and leverage 
private sector innovation to help state and local agencies solve 
critical challenges.
    Thank you again for inviting me to join you today. I will be happy 
to answer any questions that you have regarding these recommendations.

    Attachment A: Performance Measures for the U.S. DOT's Strategic 
                               Priorities

    (Source: Transportation 2035 Plan, Metropolitan Transportation 
                              Commission)

    For illustration purposes, the numbers in parentheses represent the 
2035 performance targets set by MTC against which alternative 
investment strategies were tested in the long range plan.

Maintenance and Safety Measures

        <box>  Reduction in fatalities from motor vehicle collisions 
        (15% reduction from 2008)

        <box>  Reduction in bicycle and pedestrian fatalities 
        attributed to motor vehicle collisions (25% from 2000 levels)

        <box>  Reduction in bicycle and pedestrian injuries 
        attributable to motor vehicle collisions (25% from 2000 levels)

        <box>  Maintain pavement condition index of X or higher (annual 
        index of 75 or better over 25 year period)

        <box>  ``Distressed'' lane miles no more than_% of state 
        highway system (no more than 10%)

        <box>  Average transit asset no more than_% of useful life 
        (average no more than 50%)

        <box>  Average distance between vehicle service calls no less 
        than __miles (minimum 8000 miles between service calls)

Measures for Livable Communities (targets still under discussion) 
                    Transportation Availability and Choices

        <box>  Transit Availability

        <box>  Transit Service Frequency

        <box>  Change in Transit Service Coverage over time

        <box>  Walkability (destinations reachable by walking

        <box>  Auto availability (households with at least one vehicle)

Accessibility


        <box>  Access to essential destinations by 30-minute auto trip


        <box>  Access to essential destinations by 30-minute transit 
        trip

        <box>  Access to essential destinations by 15-minute walk

Mobility


        <box>  Average transit travel time to work vs. auto travel time

Affordability (10% reduction from today of earnings spent on housing 
                    and transportation costs by low and moderately-low 
                    income households)

        <box>  Transportation costs as a percent of household income

        <box>  Housing costs as a percent of household income

        <box>  Households with housing and transportation costs 
        exceeding 50% of income

Environmental


        <box>  Emission density of diesel PM<INF>2.5</INF> from all 
        transportation sources Economic

Competitiveness

        <box>  Reduce congestion as measured by per capita travel time 
        delay (reduce by 20% from 2008)

        <box>  Freight mobility as measured by delay (reduce by 20% 
        from 2008) Environmentally Sustainable

        <box>  Reduce daily per-capita vehicle miles traveled (VMT) _% 
        (reduce by 10% from 2008)

        <box>  Reduce emissions of fine particulates (PM<INF>2.5</INF>) 
        by _% (reduce by 10% from 2008)

        <box>  Reduce emissions of coarse particulates 
        (PM<INF>10</INF>) by _% (reduce by 45% from 2008)
    Reduce carbon dioxide (CO<INF>2</INF>) emissions to _% below 1990 
levels (reduce by 40%)

                        Biography for Ann Flemer
    <bullet>  In July 2009, Ann assumed her current position of Deputy 
Executive Director, Policy for the Metropolitan Transportation 
Commission, the metropolitan planning organization for the San 
Francisco Bay Area. In this position Ann oversees the following agency 
functions:

        <bullet>  Strategic financial planning and MTC's management of 
        federal, state and regional fund sources for transit, highways, 
        roadways and other modes

        <bullet>  State and federal legislative advocacy, and public 
        affairs and community outreach

        <bullet>  Planning, including the long range plan, coordination 
        of transportation and land use; air quality and climate change; 
        and goods movement
        <bullet>  Internal agency administration, human resources and 
        information technology services
                                   +
    <bullet>  From 2001 to 2009, Ann served as MTC's Deputy Executive 
Director, Operations. In this position, Ann oversaw the agency's 
Traveler Coordination and Information Section and Highway and Arterial 
Operations Section, as well as internal administration and information 
technology services for MTC. Key projects under Flemer's direction 
included the TransLink smart card universal fare collection system for 
transit, the 511 traveler information system, the Take Transit regional 
online transit trip planning system, the regional rideshare program, 
freeway system management and operations, regional signal timing, and 
incident management activities in partnership with the California 
Highway Patrol and Caltrans, including the Bay Area's Freeway Service 
Patrol and network of roadside call boxes.

    <bullet>  From 1982 to 2001, Ann worked in public transportation 
planning, policy and finance at MTC, including managing interagency 
programs to improve transit accessibility, service marketing, employee 
development, and fare and schedule coordination, the region's 
transportation program for elderly persons and persons with 
disabilities, the region's welfare to work transportation program, and 
the allocation of regional, state and local funds to local project 
sponsors and transit agencies.

    <bullet>  Ann serves on the Board of the Intelligent Transportation 
Society of America, the Transportation Research Board Committee on 
Transportation Management and Operations and the U.S. DOT ITS Program 
Advisory Committee.

    <bullet>  Ann earned her bachelor's degree in Urban Studies from 
UCLA (1980) and her master's degree in City and Regional Planning from 
UC Berkeley (1983).

    Chairman Wu. Thank you very much, Ms. Flemer. Mr. Pisarski, 
please proceed.

     STATEMENT OF ALAN E. PISARSKI, INDEPENDENT CONSULTANT

    Mr. Pisarski. Good morning, Chairman Wu, Ranking Member 
Smith and distinguished Members. My name is Alan Pisarski. I am 
pleased to testify before you regarding transportation research 
needs.
    Chairman Wu. Mr. Pisarski, is your microphone switched on?
    Mr. Pisarski. Let me check. Thank you. Yes, that seems to 
be working better. I speak as an independent researcher 
representing no organization or interests. I will focus on just 
two aspects of the charge to us, first, the need for research 
on the strategic goals of the DOT, to make them more concrete, 
programmatic guides; and second, the information demands that 
these goals and the other parts of the reauthorization will 
generate.
    In broad summary of this first area, research and policy 
analysis needs to be directed early on so to provide scoping 
and tangibility to the admirable but amorphous DOT strategic 
goals before they can provide the bases for programs or for 
investment. We will need to define their boundaries and their 
content. We will need to define and develop quantifiable means 
of performance measurement. Those performance measures will 
define the goals in ways that can be funded, pursued and 
measured.
    Safety lends itself very directly to performance measures. 
The goals are clear and subscribed to by all. The objectives 
are quantified. The remaining three goals, livability, economic 
competitiveness, sustainability are nowhere near as concise or 
as shared in meaning.
    The objective I would set for transportation in order to 
enhance economic competitiveness, livability and the other 
goals as well would be this: Design the transportation system 
of the future that will serve the needs of a population with a 
value of time double that of today's average traveler, roughly 
$50 an hour, and serving an economy with an average value of 
goods moved double present average values in tons.
    High-value workers and high-value goods movement will 
demand and be able to tolerate the cost of high-value 
transportation services. Transportation congestion angers and 
frustrates our users. Addressing congestion as a major priority 
serves to achieve all the four strategic goals identified. 
Research shows that relieving congestion improves safety, 
environmental damage, greenhouse gas emissions and economic 
competitiveness. Most Americans would certainly associate it 
with improved livability.
    In the affluent society we all expect in the future, the 
value of time will be the ultimate driver of goals and 
activity. Time is the ultimate unrenewable resource.
    Technological changes in fuels and vehicles will dominate 
the issues in surface transportation sustainability. 
Transportation agencies fail to recognize the technological 
opportunities that exist and instead tend to focus on seeking 
to force behavioral change. This has a long record of failure. 
The goal is to reduce greenhouse gas emissions, not to reduce 
vehicle miles of travel. Raising the cost of travel, trying to 
squeeze drivers out of their car, will only harm the lowest 
income groups and minorities, those on the fringes of vehicle 
affordability.
    One of the great research-driven areas of potential success 
in the future, serving very effectively to meet every one of 
the aspirational strategic goals of the DOT, will be the 
increasing automation of highway travel. These technological 
opportunities will enhance safety, energy consumption, 
environmental impacts to effectively improving road capacity, 
traffic management, speed and reliability.
    Turning to my second point about data needs, in SAFETEA-LU, 
Congress directed the DOT to conduct a comprehensive 
transportation information needs assessment. That study was 
never conducted by DOT. So in 2006 the data section of the 
Transportation Research Board, in an all-volunteer effort, 
produced this document as a volunteer effort called 
Transportation Information Assets and Impacts, substituting for 
what DOT was unable or unwilling to do.
    My challenge to the DOT is to take responsibility and 
respond to the SAFETEA-LU request by the Congress. As the 
report calls for, they should assess the status of the data 
assets within their scope, identifying new data sources, new 
and unmet data needs, the expected value and cost of meeting 
those needs, and recommend priorities for enhancing both local 
and national transportation data assets.
    Chairman Oberstar's legislation has 40 sections calling for 
new reporting requirements, performance measures, and 
performance targets. To say that the Department is not up to it 
is almost laughable but neither are the states or the MPOs or 
anyone else. We don't have the content, we don't have the 
methods, we don't have the institutions, and we don't have the 
money.
    I would be happy to take questions. Thank you very much.
    [The prepared statement of Mr. Pisarski follows:]
                 Prepared Statement of Alan E. Pisarski
    Good morning, Chairman Wu, Ranking Member Smith, and members of the 
subcommittee. My name is Alan E. Pisarski. I am pleased to be invited 
to testify before you regarding transportation research needs. I speak 
as an individual researcher representing no organization or interests. 
This is the fourth reauthorization, starting with ISTEA, in which I 
have been asked to assist the Congress in its deliberations. It is a 
privilege that I take most seriously.
    I have chosen to focus on just two aspects of the charge put to us 
in your invitation: the first will specifically address the strategic 
goals of the DOT and the need for research to make them more concrete 
in order to make them effective programmatic guides; and the second 
will address the information demands these goals and the other proposed 
approaches under discussion in the reauthorization legislation will 
place on us. Much of my career's focus has been on designing and 
employing statistical sources to meet transportation policy needs at 
the metropolitan, state and national levels here and abroad.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Of the four strategic goals, Safety, is the one we expect to see 
first--and pertinent to this discussion the most directly 
transportation related and the most tangible of the strategic goals. 
The most telling thing we can say about transportation safety in 
America is that it has been a great success in terms of improvement in 
the total death toll and in the rate of fatalities and crashes--we take 
great pride in that accomplishment--and yet when we examine world 
trends we see that many countries that had far worse records than 
America in past decades began catching us about a decade ago and, 
despite our improvements, have passed us by. Just one small example: 
the US's number of fatalities from 1980 to 2007 declined by almost 20%, 
of which we might feel justifiably proud--until we examine other 
countries and see that France and Germany saw fatality declines by more 
than 60%--about a two-thirds decline in the same period. Had we 
declined at that rate our annual fatalities would be on the order of 
17,000 instead of above 40,000 in 2007. What do they know that we 
don't? What have they done that we can learn from?
    Moreover, a compelling structural definition of the safety goal 
developed by the European Union, EU, bears consideration.
    Every EU citizen has the right to live and work in safety. So, when 
you are walking, cycling, biking or driving a car or a truck you should 
do so with a minimum risk to be hurt or killed. Likewise, other road 
users should not be damaged by your own participation in traffic.
    The Congress will need to assure that the research is done to 
determine where the successful approaches have occurred and then to act 
on the research findings that identify the policies and actions that 
can achieve such life-saving practices. We could find that these 
policies may be more draconian than we have been prepared to enact in 
the past. That trade-off should be made consciously--knowing full 
causes and effects. As we set national goals for safety we will find 
that many states have already surpassed it but others have long ways to 
go. In 2007 our national fatality rate was 1.36/100 million VMT with 
almost exactly half of the states above and below that level. If we set 
a commendable goal of 1.0/100 million VMT nine states would already be 
there and five would be more than double the goal.
    Another point where safety teaches lessons about strategic goals 
and performance-based planning is that safety tends to lend itself most 
directly to performance measures because the goals are so clear and so 
definitely subscribed to by all: If we measure fatalities, crashes and 
crash costs, if we measure rates of these events, we have clearly 
quantified our goals. There are important sub-sets to be addressed--
pedestrians, motorcycles, etc. We know that we get very different 
senses of performance when we measure rates based on measures per 
capita; per vehicle; or per vehicle mile, but the goals are eminently 
clear and international discussions, for example, can proceed with 
common perceptions of identical goals in mind. Could such a discussion 
of Livability occur internationally? The variations on meaning of that 
would make discussion interesting and perhaps even educational but 
certainly not comparable.
    It harks back to a popular phrase of the 60's that went like this: 
``If we can put a man on the moon why can't we . . . the blank might be 
filled by . . . have a good school system; make a prettier city; a 
happier life, a more livable city. The simple answer is we can state 
the goal for men on the moon in one single English declarative 
sentence: ``Place men on the moon in a life support condition and bring 
them home safely.'' Every thing else is engineering. There is no single 
sentence or paragraph that can define these other goals that more than 
a handful of people would subscribe to. Volumes have been written about 
them. They are constructs of each individual and different for each. 
They are human aspirations. Just as the livability goal is merely 
aspirational until given real substance.
    One measure of this is gleaned via review of the work of the 
different Regional Economic Commissions of the UN. Those in Latin 
America, South Asia and Africa barely mention transportation in their 
goals statements about sustainability. Their focus is on sustainable 
food stocks, sustainable water supplies and sustainable health 
conditions. The ECE (Economic Commission for Europe, of which the U.S. 
is a part) addresses transportation more fully.
    I recently conducted a review of sustainability around the world 
for the Institute of Transportation Engineers and discovered references 
to close to 100 definitions of sustainability. In most cases they were 
merely aspirational political statements. The word began to become more 
useful in the European Union, where it was in fact written into the EU 
charter in the Maastricht Treaty of 1992.\1\ In order to give substance 
to the term the statistical arm of the EU, Eurostat, has worked for 
almost two decades to define and refine the scope, the scale, and the 
content of that vision. They have developed measures to examine goal 
sets and subsets and established context measures to guide policy and 
to structure programs. They have a long way to go both programmatically 
and statistically.
---------------------------------------------------------------------------
    \1\ The Union shall set itself the following objectives:

    -  to promote economic and social progress and a high level of 
employment and to achieve balanced and sustainable development, 
(emphasis added) in particular through the creation of an area without 
internal frontiers, through the strengthening of economic and social 
cohesion and through the establishment of economic and monetary union, 
ultimately including a single currency in accordance with the 
provisions of this Treaty, ARTICLE 2 OF THE MAASTRICHT TREATY; 1992
---------------------------------------------------------------------------
    While it may be worth monitoring the continuing efforts of the EU 
and also the OECD (Organization for Economic Cooperation and 
Development) to quantify these concepts, the U.S. must give them far 
greater tangibility than they now contain before considering programs 
or funding in these areas. It will take considerable research effort in 
both time and funding to create a sound programmatic environment. The 
potential for wasted effort and wasted resources is immense.
    Certainly the teem livability will need to be subjected to a far 
more rigorous delineation of its scope and content before tangible 
programs with measureable performance outcomes can be structured. 
Without these steps it would become perhaps the perfect federal 
program: almost anything could be funded under the rubric of 
livability; with such an amorphous goal there would be no real measure 
of success or failure; and funding could go on forever with no real 
accountability.
    The present view seems to use livability as an umbrella term for 
walking, biking and living in access to close-by jobs and other 
opportunities, but most of all for increasing the densities at which we 
live and work. This seems a somewhat idyllic notion--a nostalgia for 
simpler times in the past. My years of research in commuting indicates 
that those goals fit nicely into somewhere about 1960.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 1960 we had fewer than half the workers commuting that we do 
today. The transit share was more than double today's share (close to a 
million more than today in numbers); working at home was almost double 
today's share (lots of farmers then who ``worked at home''); and 
walking to work was close to four times today's share. We didn't think 
that those were halcyon times then. The 1962 Highway Act, that mandated 
the metropolitan planning process, was enacted to address the problems 
of the era.
    Numbers similar in terms of modal shares to 1960 can be seen for 
the population below the poverty line today. A great problem is that 
these heavily idealized visions of walking and working at home dori''t 
often comport with reality. When we think of increasing walking to work 
we have a vision of an executive or software designer leaving her town 
house and strolling to her office. If we recognize that a lot of 
walking is by low income people making trips to distant jobs--picture a 
Black mother walking several miles to town to work in the hospital then 
our benign vision changes. Thus when I see walking declining in numbers 
and share as it has for forty years I see success not failure. That 
means access to transit or access to a van pool and a far greater 
opportunity sphere of potential employment for the low income 
population. This of course is not to suggest that we should not be 
supportive of those who do walk to work (about 2.8%) or bike to work 
(about .6%) and to increasing opportunities for it, but it does say 
that we must carefully measure and monitor what goals we set and their 
implications in the real world. They are certainly not sufficient to 
base the entire program on.
    One of the real conflicts in the livability goal as it is commonly 
used is some of the inherent weaknesses that have trouble standing up 
to the realities of modern life style needs and preferences. Note in 
this chart from the Commuting in America III series the number of 
people who live and work in rural areas is just about identical to 
those who live and work in central cities (about 25 million) yet we 
somehow tend to expend the major part of our focus on those in central 
cities. I would think that the rural population has just as great a 
claim on our interest. In the future when jobs return and skilled 
workers become again a key issue, assuring employers access to a larger 
commuter shed spread over larger and larger areas will be the norm. I 
suggest in that environment work trip lengths will get longer not 
shorter--and that will be a good thing--one of the keys to greater 
economic competitiveness. It will mean workers with greater access to 
more jobs and employers with greater access to potential employees. It 
must be obvious that in our job short environment today with 10% 
unemployed, job seekers will be willing to travel greater distances 
than they might in the past to get the job they want or that they can 
get.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the longer term the prospects for working at home are great--it 
is the only ``mode'' to work that has grown in share each decade since 
1980 along with driving alone, but growth prospects for walking and 
biking will be slimmer. Why?

        <bullet>  Increasing job specialization among the skilled in 
        bigger and bigger metros will require/permit drawing workers 
        from ever larger orbits.

        <bullet>  About 70% of workers live in a household with another 
        worker(s). Whose job will they live next to? Will the average 
        trip length to work improve?

        <bullet>  Job velocity is high--it is highly unlikely that 
        workers will change home locations every time they change 
        jobs--that is economically unrealistic.

        <bullet>  Our work force is aging; unlikely candidates for 
        walking/biking.

        <bullet>  As incomes rise workers choose other things as 
        important beyond optimizing the commute--amenities, safety, 
        schools, etc.

        <bullet>  The commute is a small and declining share of travel 
        (about 20%). Other factors are more important to household 
        interests and to improving their travel situation.

    In short, we don't live outside the factory gate anymore, for good 
reasons. As noted in the last bullet work is not the major travel 
factor it once was. If we consider all the other trips householders 
make, the notion of walking to them does not stand up to inspection. 
Trip purposes that are growing are social recreational travel and 
personal/family business. We see that super markets, shopping centers 
and schools are all getting larger, indicating larger market sheds for 
their customers and longer trip distances as a result. This is a 
natural product of private and public efficiency goals and the growing 
specialization of goods and services the public desires. Consider the 
kinds of milk we buy today--50 or 60 years ago there was just milk--now 
markets will have a dozen kinds of milk, dozens of kinds of lettuce. 
Absolutely the same applies to doctors. In my childhood the three 
generations in our household had the same doctor who was a few blocks 
away. Today people don't have a doctor they have several or many--none 
selected on the basis of how close-by their offices are.
    Conversely, the situation of being dependent on the single store 
you can walk to leads to lack of competition and monopoly-like pricing 
behavior. Research has established that low income neighborhoods often 
pay more for basics because of their immobility. Even the threat of 
being able to leave the neighborhood to reach competitive suppliers 
helps reduce prices.
    Part of this links to the third goal of Economic Competitiveness. 
While competitiveness is again one of the ``soft'' words that is open 
to broad interpretation, it seems easier to attach sufficient 
tangibility to it to make it an effective guiding tool than some of the 
others. There is a tendency to link it strongly to freight movement. 
There is validity in that, but there is much more to it. Businesses and 
nations compete today based as much on their overall logistical 
capabilities as on their products. As products to be moved increase in 
value the demand for speed, control and reliability increase, 
generating greater increases in air freight and trucking. The US, being 
a high labor cost nation, must seek to reduce its disadvantages by more 
effective transportation and logistics services not just in and out of 
ports but throughout the entire logistical chain of production.
    Beyond freight movement there is the movement of persons in 
business travel--which can be a major cost factor for services firms 
with high value personnel. While there are increasingly surrogates for 
travel in new technologies the need for continued travel will be with 
us for a long time. Increasingly effective means of communications may 
substitute for travel in specific occasions, but ultimately increases 
the prospect for travel and face to face interactions. Another element 
in competitiveness is tourism--both domestic and that of foreign 
visitors. Foreign visitation in the nation is a major source of export 
revenues. We have seen in this recession the impact that declines in 
business and leisure travel can have in many areas. Travel and tourism 
is the top industry in three states and in the top ten in all states 
except two--all of it synonymous with long distance travel.
    The objective I would set for transportation in order to enhance 
economic competitiveness and livability and in fact the other two goals 
as well would be this:
    Design the transportation system of the future that will serve the 
needs of a population with a value of time double of that of today 's 
average traveler (say $50 an hour in current dollars) and serving an 
economy with an average value of goods moved double present average 
values per ton.
    High value workers and high value goods movement will demand and be 
able to tolerate the costs of high value transportation services. What 
the economy and the society will not be able to tolerate is lack of 
safety, lack of reliability, environmental damage, and congestion that 
eats time and energy resources. Research is needed on what the economic 
and other impacts would be of the development of a transportation 
system designed to serve a high income/high value society.
    The aspect of transportation that most users express greatest anger 
and frustration about is congestion. It is significant that it is not 
mentioned in the strategic goals. I would like to think it is because 
it is seen as a symptom rather than an objective in itself. But 
addressing congestion as a major priority serves to achieve all the 
four strategic goals identified. Research has shown that relieving 
congestion improves safety, environmental damage, GHG emissions, and 
economic competitiveness. Most Americans would certainly associate it 
with livability as well. In the affluent society we all expect in the 
future, the value of time will be the ultimate driver of goals and 
activities. Time is the ultimate unsustainable resource.
    Failure to invest in the infrastructure and services that can 
support our economic competitiveness will be major detriment to our 
economy if transportation is seen only as a problem to be minimized 
rather than an integral part of our economic competitiveness and 
livability. We need research that demonstrates the connections between 
transportation investment and our economic progress. Great work has 
been done in Europe and confirmed here showing that increases in access 
to jobs within (say) 30 minutes adds immensely to productivity. We need 
more extensive research in these areas. Another area that grows out of 
research funded at TRB on the future of the Interstate system is the 
need for a national inventory of the physical state of the Interstate 
system and what the costs for reconstruction will be in the coming 
decade.
    The strategic goal area of environmentally sustainable 
transportation suffers from a lack of effective research. The OECD in 
its Insights series, states:

          We see the expression ``sustainable development'' everywhere 
        these days, but what does it actually mean? How do production 
        and consumption influence sustainability? Is globalisation of 
        the economy helping or hindering it? Can sustainability be 
        measured using the traditional tools of economic analysis? What 
        can governments, enterprises and citizens do to promote it? \2\
---------------------------------------------------------------------------
    \2\ OECD INSIGHTS-SUSTAINABLE DEVELOPMENT: LINKING ECONOMY, 
SOCIETY, ENVIRONMENT ISBN 978-92-64-055742  OECD 2008
---------------------------------------------------------------------------
    It further makes the important point about sustainability that 
seeking to preserve resources to permit future generations to address 
their needs, requires us to better understand what future perceptions 
of needs might be and what resources and technologies might exist to 
serve those needs. The following chart lays out some of the elements of 
that understanding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It suggests that present technologies lead the way to future 
technologies and that both have immense bearing of what the sense of 
needs in the future might be. In a sense technological possibility 
creates needs. One would expect that the concept of needs in the future 
would grow but technologies would reduce the resources required to meet 
those needs.
    At present there are many assertions about the air quality 
attributes of modes, their GHG characteristics, and their relative 
subsidy costs. All of these areas need more dispassionate, more sound 
and more effective research. The pace of technological change in fuels 
and vehicles will easily dominate these issues in surface 
transportation. There seems to be a failure, research-driven or 
institutional, in which transportation agencies fail to recognize and 
incorporate the technological opportunities that exist, or that are in 
the offing, and instead tend to focus on seeking to encourage or 
mandate behavioral change. This has a long record of failure. If we 
look back at all the improvements in air quality of past decades, they 
occurred almost exclusively due to changes in vehicles and fuels and, 
if anything, behavioral change was a negative influence. With respect 
to GHG emissions, where the technological opportunities are even more 
clear, we should guide our policies accordingly. The goal is to reduce 
GHG emissions not to reduce VMT. Raising the cost of travel, making it 
more onerous, and trying to squeeze drivers out of their cars will only 
force the lowest income groups--those who are on the fringes of vehicle 
affordability out of their cars. The accompanying figure shows the 
dramatic increases in vehicle ownership by African-Americans and 
Hispanics over the past decades.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The percentage of African-American households without vehicles 
dropped from 43% in 1970 to just below 20% in 2008--a great increase in 
opportunities to access jobs and services for that group, but still 
more than twice the level of the rest of the nation. Hispanics enjoyed 
similar gains as seen in the figure. Who can possibly argue that those 
gains were a bad thing and would want to see it arrested? Do we want to 
make the disparities between the overall population and these Racial 
and Ethnic groups permanent?
    Further, there are great low cost and rapidly implementable 
responses to creating environmentally sustainable transportation that 
do not seem to enjoy the public cache' of some others. This includes 
intelligent transportation systems technologies that can increase 
thruput on existing systems, information technologies that can infoun 
travelers of accidents and problems ahead and point out alternative 
routes. Using information to produce predictive traffic information, 
melding data and forecasting using both public and private tools is one 
of the future opportunities that we must be ready to seize.
    One of the great research-driven areas of potential success in the 
future, serving very effectively to meet every one of the aspirational 
strategic goals of the DOT, will be the increasing automation of 
personal vehicle travel as well as buses and trucks. These 
technological opportunities will enhance safety, energy consumption, 
and environmental impacts thru effectively improving road capacity, 
traffic management, speed and reliability. We can develop them here or 
import them later from Asia and Europe.
    A final thought that this committee can champion. In the area of 
intended responses to GHG emissions reductions there is an equity--
efficiency trade-off argument. In this case ``equity'' is portrayed as 
each sector of the economy being responsible for reducing, on an 
equivalent basis, that share of emissions that it produces--
transportation is roughly responsible for 28% of U.S. man-made 
emissions and therefore should be responsible for about the same share 
of reductions. This is a very short-sighted sense of equity. Based on 
efficiency grounds, those areas that lend themselves best to 
improvements in GHG emissions such as electricity generation should be 
the focus of our research and policies--the so-called low hanging fruit 
approach.
    To the extent the issue is petroleum it must be recognized that in 
the last energy crises of the early eighties every sector of the 
economy that could get out of oil did. Only transportation, heavily 
dependent on a portable, high energy per pound, high energy per cubic 
foot fuel, such as petroleum provides, stayed with it. It arguably 
should be one of the last places to look to for reductions. This does 
not mean being complacent--there are many opportunities for efficiency 
improvement that are and should be developed--but it does mean that it 
is reckless to insist on, and invest in, emission reductions that cost 
thousands of dollars per ton removed when reductions can be obtained 
more readily and more immediately at $50 per ton. The Science and 
Technology Committee can champion the scientific approach to this 
challenge by supporting research and analyses that identify cost-
effective trade-offs in the economy. The question ``where will a 
billion dollars spent buy us the most GHG reductions?'' should guide 
the research and the policies.
    In broad summary of this first area, research and policy analyses 
need to be directed early on to provide some sound scope and 
tangibility to the very admirable but soft DOT strategic goals before 
they can provide the basis for programs or investment. We will need to 
define quantifiable means of performance measurement of the goals, 
defining their bounds, their scopes and their content. Those measures 
will in fact define the goals in ways that can be funded, pursued, 
achieved and success or failure measured.

Research Needs--Scopinp the Program and Data Needs

    About a year after the U.S. DOT was formed, the Congress addressed 
a letter to the new Secretary indicating its displeasure with DOT's 
lack of action on developing a statistical program. In response the DOT 
produced ``The Red Book'' a design for the Department's overall 
statistical program. I actually worked on that book. No further action 
was taken by the DOT or Congress. Now, 40 years later and we are not 
much farther ahead.
    Nothing can be more telling about the state of statistical programs 
in DOT than the following: In late 2006 the TRB published a document: 
Transportation Information Assets and Impacts--An Assessment of Needs. 
This began as an effort by the Data Section of TRB in support of the 
congressional mandate in the current reauthorization SAFETEA-LU, 
directing the U.S. Department of Transportation to sponsor a 
comprehensive transportation information needs assessment (TINA). Our 
intent was to contribute to the identification of information needs, 
but the TINA study was never conducted nor funded by DOT, so our work 
broadened to substitute for the DOT failure to respond to Congress. The 
work was based on surveys of TRB committee members to identify data 
needs and examples of productive applications of data and information 
in transportation decision making. This was followed by interviews with 
a small number of decision makers to develop a better understanding of 
the attributes of information that are most useful in the policy 
process.
    Let me point out Mr Chairman that while this was a product of the 
TRB Data Section while I was its chair, the work was the accomplishment 
of the many committee chairs and members of the section all on a 
volunteer basis. I just got to watch some very good people do some very 
good work--out of a sense of professional pride and recognition of the 
importance of the work. The only money spent to my knowledge was that 
TRB absorbed the cost of printing. So this volunteer effort substituted 
for what DOT was unable or unwilling to do. So here we are almost 40 
years after the Red Book and the Department is still unresponsive to 
the Congress and the user community still lacks a sound, sustainable 
transportation information program.
    My challenge now would be for the Department to finally take 
responsibility and respond to the SAFETEA-LU request by the Congress, 
albeit several years late. As the report calls for, I would ask them to 
assess the status of the data assets within their scope, identifying 
new data sources, new and unmet data needs, the expected value and 
costs of meeting those needs, and recommend priorities for enhancing 
local and national transportation data assets.
    I understand that the prospective legislation of Chairman Oberstar 
has on the order of 40 sections calling for new reporting requirements, 
performance measures, and performance targets. To say the Department is 
not up to it is an almost laughable statement; but neither are the 
states, or MPO's, or anyone else. We don't have the content; we don't 
have the methods; we don't have the institutions; and we don't have the 
funding.
    The Department's basic statistical reporting has suffered due to 
losses of skilled people to retirement, inability to recruit and train 
replacements, and the failure of leadership to recognize this area as a 
priority.

        <bullet>  The summary version of the problem: Our statistical 
        capability is relatively good in interstatelinternational 
        freight movements, but weak re the characteristics of local 
        urban goods movement; On the passenger side it is the opposite, 
        we are stronger on local travel, but weak at the national 
        activity level. Our last survey of long distance passenger 
        travel--the kind one would use to evaluate a high speed rail 
        proposal for example--was done in 1995--and done badly.

        <bullet>  When the Census Bureau proposed to cancel the Vehicle 
        Inventory and Use Survey, DOT/BTS was not at the table to 
        protest. This is the only survey of the national vehicle fleet 
        that exists, which could be so valuable today with energy and 
        GHG concerns so great not to mention the clunker program. It 
        was ended by the Census Bureau with no response from the data 
        authorities at DOT. It would probably take up to a maximum of 
        $15 million every five years to restore it.

        <bullet>  One of the flagships of the transportation data 
        program the National Household Travel Survey, NHTS, will soon 
        be available. That's the good news. Its story is symptomatic of 
        our institutional problems. It has been postponed endlessly due 
        to lack of financial commitment at DOT. There were $20 million 
        in state and MPO funds committed to supporting the survey and 
        the DOT could not find the $1.5 million to fund the basic 
        program to get it started. I think we finally embarrassed them 
        into getting going. Unlike previous cycles there was no BTS 
        participation in the survey. This is perhaps the most central 
        statistical program of the Department. It needs to be assured 
        in its periodicity, rather than enacted whenever the funds can 
        be raised by passing the hat. Where it not for the continuance 
        of the authorization we would be deciding the post SAFETEA-LU 
        program with the same data we had before SAFETEA-LU was 
        enacted. The survey system needs methodological improvements as 
        the traditional land line phone survey approach is overwhelmed 
        by technological and societal changes.

        <bullet>  The most positive story, one of few bright spots, was 
        the establishment of an effective national picture of freight 
        transportation by conducting the Commodity Flow Survey every 5 
        years (after a hiatus in the eighties), collecting monthly 
        Transborder Freight Data, and creating the Freight Analysis 
        Framework. The Framework is designed to fill in the missing 
        pieces, provide provisional annual updates, and make forecasts 
        against which policies and investments can be analyzed. The 
        picture of freight is provided as maps and tables in the annual 
        Freight Facts and Figures publication, which is widely cited in 
        policy studies and discussions that have helped inspire the 
        many freight provisions in Chairman Oberstar's bill. This 
        statistical program can be given credit for the real 
        renaissance in thinking about freight in America demonstrating 
        the real power of statistics. But the survey approach was 
        reduced in 2002 and work must begin now in planning for the 
        next 2012 effort. It needs to be expanded not reduced.

          We can not begin to talk about government transportation 
        decisions making a serious contribution to economic 
        competitiveness without recognizing the waste in decision-
        making from weak data systems. The methodologies here are also 
        weak and raise the ire of respondent businesses who are forced 
        to do laborious data recording. We need new methods and new 
        dedication.

    U.S. DOT needs effective institutions and adequate resources to 
meet the growing data needs of performance management, concerns with 
sustainability and livability, and efforts to reinvigorate our economy. 
To continue programs such as the Commodity Flow Survey and bring back 
the Vehicle Inventory and Use Survey as part of the 2012 Economic 
Census, U.S. DOT must begin planning and investing now. If we falter, 
the maps and tables you will be using in the next reauthorization will 
be the same pictures we are using today even though the world they 
measure will have changed dramatically.
    We need to address the data program failure on four levels:

        <bullet>  Content

        <bullet>  Methods

        <bullet>  Institutions

        <bullet>  Funding

    Content  The most directly evident gaps are:

        <bullet>  metropolitan goods movement, truck distribution and 
        local delivery activities are a key question;

        <bullet>  intercity/long distance passenger travel getting at 
        long distance trips for recreation, business, foreign tourism, 
        and family/social purposes by all modes,(perhaps 25% of all 
        transportation Person Miles of Travel);

        <bullet>  inventories of the size and characteristics of the 
        vehicle fleet, for example distinguishing pickups and vans used 
        for business vs personal household use;

        <bullet>  Linkages of travel activity with national economic 
        productivity;

        <bullet>  Linkages of travel activity with access to social 
        services/opportunities;

        <bullet>  Linkages of travel activity with GHG and pollutant 
        generation;

        <bullet>  Linkages of travel activity with land use 
        configurations.

    Methods  There are severe methodological challenges, among which 
are:

        <bullet>  Household travel surveys have shifted from face to 
        face to telephone over the last 30 years. Now the expansion of 
        phone numbers, replacing of land lines in households with cell 
        phones, intolerance by the public to intrusions, severely 
        threatens the utility of such methods;

        <bullet>  Establishment surveys, such as for freight movements 
        can be arduous and time consuming paper-based processes meeting 
        with increasing negative responses from economically challenged 
        businesses;

        <bullet>  Census Bureau disclosure rules force retrenchment of 
        available data due to the power of computers and the internet 
        to mine data and discover linkages between respondents in 
        different data sets. Thus we are paying more and getting less.

        <bullet>  We are perpetually on the cusp of utilizing new data 
        technologies as substitutes for declining capability in our 
        existing methods that promise greater speed and cost-
        effectiveness. The DOT has failed in conducting the research 
        and testing in new methods that is critical to our future 
        capabilities.
    Institutions  The DOT has tried a multitude of arrangements of 
program and staff over the years without success. What has not proven 
sustainable at DOT has been the high level focus of resources on 
information. Maybe our most fundamental weaknesses are here:

        <bullet>  The BTS has failed to take on most of the challenges 
        it faces;

        <bullet>  There do not seem to be any mechanisms for 
        coordination of statistical programs among DOT agencies;

        <bullet>  The FHWA tends to end up as the ultimate resource for 
        data development;

        <bullet>  There is no high level support or impetus to setting 
        data priorities;

        <bullet>  There is no place to which users can go to make their 
        needs known.

    Funding  This is always the ultimate question. Resource restraints 
are severe but not overwhelming in that the relative costs are small 
compared to investment program scale and the scale of the impacts from 
some of the programs. As said in my testimony on Challenges for the 
Future in 2007.\3\
---------------------------------------------------------------------------
    \3\ Testimony Before The Us House Of Representatives; Committee On 
Transportation And Infrastructure, Sub-Committee On Highways And 
Transit: Surface Transportation System: Challenges For The Future, 
January 24, 2007.
---------------------------------------------------------------------------
        The pathetic nature of our data collection programs and 
        analytical capabilities demands Congressional focus. We are 
        effectively naked with respect to our ability to understand and 
        interpret national patterns and trends. Our future decision-
        making must be keyed to performance-based reporting systems. If 
        our future decisions are to be founded on sound understanding 
        of our rapidly changing society and grounded in effective, 
        performance-based, economic justification it will have to be 
        supported by far superior data and analytical capabilities than 
        now exist. The costs are trivial contrasted to the cost of 
        ignorance.

Closing

    We have failed in the original goal to make high quality data 
available to support planning and policy development; and now we are 
talking about taking data requirements to a whole new level--making it 
central to establishing.accountability, transparency, and improved 
performance for ongoing programs throughout transportation. While all 
parts of the transportation community must participate in this endeavor 
it is fundamentally the federal component that must lead.
    In June of last year I again testified before the authorizing 
committee regarding Federal Roles. First on my list of federal roles 
was the following:

        <bullet>  Provide better data and research needed for more 
        effective business and government planning. This is a central, 
        indisputable federal role.\4\
---------------------------------------------------------------------------
    \4\ Testimony before The United States Senate, Committee On 
Environment And Public Works regarding The Future Federal Role For 
Surface Transportation, June 25, 2008.

    Without effectively meeting this federal role to produce better 
data and research the U.S. DOT cannot expect to make significant 
---------------------------------------------------------------------------
progress towards its new strategic goals.

                     Biography for Alan E. Pisarski

Writer, analyst, consultant in the fields of transportation research, 
                    policy and investment.

    At the national level he has been invited frequently to testify in 
both Houses of the United States Congress on many occasions regarding 
economic and demographic factors that define travel demand, 
infrastructure investment requirements and public policy.
    At the state level he has been invited to advise state 
Gubernatorial and Legislative Commissions regarding their economic, 
social, demographic and infrastructure circumstances. (Arizona, 
Washington, Georgia, Oregon, Pennsylvania, Missouri, Kansas, Ohio, 
Wisconsin, Texas, Virginia, and Maryland)
    Internationally he has served the U.S. AID, the World Bank, the 
United Nations, the Organization for Economic Cooperation and 
Development, the European Union, the World Tourism Organization and the 
European Tourism Commission.
    As a writer and consultant in transportation public policy, travel 
behavior analysis and statistics his work related to transportation, 
particularly commuting and travel behavior, has been reviewed, 
discussed and quoted in all of the major national news magazines, and 
newspapers, appearing often on major national radio and television 
network programs, including the ``Today Show'', ``Good Morning 
America,'' NBC, CBS and ABC Nightly News, ``Nightline,'' and ``20/20,'' 
discussing national transportation topics. Last year he completed the 
third in the Commuting in America series; and his latest ``Bottom Line 
Report'' for AASHTO addressing national reauthorization investment 
needs was released earlier this year.

RECENT AWARDS:

    1999, Invited to give the Distinguished Lecture at Transportation 
Research Board of National Academy of Sciences.
    2000, P.D. McLean Award for outstanding contributions to the 
advancement of highway transportation in the public interest.
    2003, Lawrence J. Truitt Award for Public Administration by the 
Section on Transportation Policy of American Society of Public 
Administration.
    2004, named among the top 100 transportation figures in the 20th 
century by the American Road and Transportation Builders Association, 
ARTBA.
    2005, elected to membership in the Cosmos Club based on his 
contributions to science and society.
    2007, received the W.N. Carey Award for Lifetime Distinguished 
Service and Leadership in Transportation Research from the 
Transportation Research Board of the National Academies
    Further activities are visible at the website: alanpisarski.com

    Chairman Wu. Thank you very much, Mr. Pisarski. Mr. 
Skinner, please proceed.

   STATEMENT OF ROBERT E. SKINNER, JR., EXECUTIVE DIRECTOR, 
    TRANSPORTATION RESEARCH BOARD OF THE NATIONAL ACADEMIES

    Mr. Skinner. Good morning, Chairman Wu, Ranking Member 
Smith, and Members of the Subcommittee. My name is Robert E. 
Skinner, Jr., and I am the Executive Director of the 
Transportation Research Board of the National Academies. I am 
pleased to testify about research and innovation directed 
toward the strategic goals of safety, livable communities, 
economic competitiveness and environmental sustainability. My 
comments are based upon the work of committees of experts 
appointed by the National Academies.
    Let me briefly highlight selected recommendations in each 
strategic area. I will start with safety. Although safety is 
important for all modes, 95 percent of the deaths and injuries 
on our transport system occur on roads and highways. As 
Administrator Appel has already noted, the Congressionally 
requested Strategic Highway Research Program 2, or SHRP-2, is 
about to embark on the largest, most sophisticated naturalistic 
driving study ever conducted. It will gather extensive 
information about driving behavior from 3,000 volunteer drivers 
over a two-year period. Its ultimate aim is to gain fundamental 
knowledge about driver behavior that can be used to develop new 
safety measures. But SHRP's immediate mission is to 
successfully conduct the field study and assemble the database.
    U.S. DOT will need future funding to maintain this huge, 
complicated database and to support a significant research 
analysis effort to mine it for effective safety 
countermeasures.
    In the area of large truck safety, several TRB committee 
reports have pointed out the potential efficiency gains of 
permitting longer and heavier trucks to operate on a limited 
number of interstate highways. To avoid increasing risks, 
carefully controlled independently conducted trials are needed 
to test the efficacy of proposed technologies to enhance the 
safety of longer combination vehicles.
    The term livable communities usually refers to development 
patterns that foster travel by non-automobile modes of 
transportation. The recent TRB report on the relationship 
between the built environment and motorized travel finds 
substantial gaps in knowledge about how to best design transit-
oriented development. Research is needed about the density 
thresholds to support different levels of transit service and 
how these thresholds vary for metropolitan areas and 
communities with respect to their size, their employment 
concentrations, and their land use mixes.
    Also needed are more rigorous before-and-after studies of 
efforts to foster compact, mixed-purpose land use and finer 
grained data about employment locations that can support more 
sophisticated public transportation planning.
    Research related to economic competitiveness aims to make 
our transportation system operate more efficiently and more 
cost-effectively. Included in this category are research 
programs related to the construction, operation and maintenance 
of transportation infrastructure. For highways, there are 
opportunities to make these research programs more effective by 
providing greater support for longer-term, higher-risk, 
potentially higher payoff research, building and maintaining 
strong mechanisms for stakeholder involvement, conducting 
aggressive, well-resourced implementation initiatives, and 
increasing the share of research funding awarded through 
competition and merit review.
    Also included in this category are topic areas that are 
either new or, relatively speaking, have been neglected in the 
past. Freight-related research is an example of the latter. 
Among other things, U.S. Department of Transportation needs to 
develop the capability to monitor the performance of the 
freight system and to develop tools that assist transportation 
agencies at all levels in evaluating public-private freight-
related investments, which often occur at inter-modal 
bottlenecks.
    A newer topic concerns how to fund and operate the highway 
system in the most efficient way. As the fuel tax becomes less 
viable, several groups, including a TRB/National Academies 
committee have suggested transitioning to a scheme that charges 
users on a per-mile traveled basis. A recommended R&D program 
to support this effort would likely cost $70 to $100 million 
over a 10- to 12-year period.
    In the area of environmental sustainability, TRB has just 
released a report that recommends research programs to mitigate 
transportation's contribution to climate change and adapt 
transportation infrastructure to the consequences of a changing 
climate.
    Given the uncertainties, a mitigation and adaption research 
program of $250 million over six years is needed to assist 
federal, state and local decision makers in picking the most 
cost-beneficial and cost-effective strategies.
    My written testimony includes more detail about these and 
other topic area recommendations, as well as the processes by 
which research should be carried out and promising results 
implemented.
    Thank you for the opportunity to testify this morning, and 
I look forward to your questions.
    [The prepared statement of Mr. Skinner follows:]
              Prepared Statement of Robert E. Skinner, Jr.
    Good morning, Chairman Wu and members of the subcommittee. My name 
is Robert E. Skinner, Jr. I am the Executive Director of the 
Transportation Research Board (TRB) of the National Academies. I am 
pleased to be invited to testify before you again. TRB is one of the 
five divisions of the National Research Council (NRC), which, in turn, 
is the operating arm of the National Academy of Sciences, National 
Academy of Engineering, and the Institute of Medicine. This complex of 
organizations is collectively referred to as the National Academies. 
The institution operates under the charter given to the National 
Academy of Sciences by Congress in 1863 to advise the government on 
matters of science and technology.
    I was invited to testify about the kinds of research that the U.S. 
Department of Transportation (U.S. DOT) should be conducting to meet 
its strategic goals and on what U.S. DOT could do to facilitate the 
implementation of research and adoption of the results. I would like to 
preface my remarks by noting that I'll be limiting my comments about 
research priorities to previous recommendations made by committees of 
experts who were appointed by the National Academies to provide advice 
to the government. The committees were balanced in terms of expertise 
and perspective, were free of conflicts of interest, and the members 
served without compensation. Although I am pulling together the 
recommendations from many reports, my testimony does not represent a 
comprehensive assessment of what the U.S. DOT's research portfolio 
should contain; we have not been asked to assemble a committee to make 
such an assessment. Although I am able to draw upon pertinent reports 
of committees convened to address specific topics of science and 
technology, my testimony is incomplete on important R&D topics for U.S. 
DOT such as safety, aviation, intelligent transportation systems, and 
environmental topics (other than climate change). This is not because 
these topics are unimportant; rather, it is because TRB has not been 
asked to conduct major projects in these areas in recent years. 
Moreover, some of the committee reports I draw upon were primarily 
tasked to address a policy issue and made supplemental recommendations 
about research, but did not provide recommendations about individual 
projects or estimates of research costs. In addition, my testimony will 
be more focused on highway R&T topics than others because the Federal 
Highway Administration has asked us to review its highway R&T 
activities more regularly than have other modes. FHWA's program is also 
the largest of the surface modes and accounts for about half of the R&D 
funds authorized in the research titles of existing surface 
transportation authorizing legislation.
                        PRIORITY RESEARCH TOPICS
    As per your invitation, this section is organized according to the 
four U.S. DOT strategic goals: safety, livable communities, economic 
competitiveness, and environmentally sustainable transportation.

Safety

    TRB has not conducted a comprehensive assessment of safety research 
for many years, so my advice in this area will be limited to a few key 
topics. Importantly, missing entirely is any discussion about vehicle 
crashworthiness and design of highway appurtenances to absorb crash 
energy; these occupant protection measures have surely been major 
contributors to the long-term trend of improved highway safety.
Driver behavior
    In 1998 Congress asked TRB to convene a committee of experts to 
determine whether a second Strategic Highway Research Program (SHRP) 
should be conducted.\1\ The first SHRP was a time-limited, large-scale 
research initiative designed to find breakthroughs in highway 
materials, paving, and maintenance practices.\2\ It resulted in, among 
other things, major innovations in asphalt paving and winter 
maintenance practices that have been widely adopted by states, 
counties, and many other nations. In response to the 1998 request, the 
committee that prepared TRB Special Report 260 gathered extensive input 
from stakeholders about major problem areas in highway transportation 
and recommended a broad-scaled research program addressing four major 
concerns: safety, travel time reliability, more rapid and efficient 
renewal of infrastructure, and capacity additions in accord with 
environmental and social values. The recommended safety research area 
would address the lack of insight about driver behavior in pre-crash or 
near-miss situations that has hampered vehicle design and evaluation of 
safety countermeasures.
---------------------------------------------------------------------------
    \1\ Special Report 260 Strategic Highway Research: Saving Lives, 
Reducing Congestion, Improving Quality of Life. Transportation Research 
Board of the National Academies. Washington, D.C. 2000.
    \2\ Special Report 202 America's Highways: Accelerating the Search 
for Innovation. Transportation Research Board, National Research 
Council. Washington, D.C. 1984.
---------------------------------------------------------------------------
    In response to Special Report 260, Congress authorized the second 
Strategic Highway Research Program in SAFETEA-LU. SHRP 2 is being 
managed by TRB. The program is about to embark on the largest and most 
sophisticated naturalistic driving study ever conducted. It will gather 
extensive information about driving behavior from 3,000 volunteer 
drivers over a 2-year period, which will include collecting pre-crash, 
crash, and normal driving information about the driver, as well as 
vehicle and roadway conditions. The vehicles of volunteer drivers will 
be extensively instrumented with cameras and sensors that will measure 
a wide array of driver behaviors, vehicle responses, and road 
conditions.
    The aim of the naturalistic driving experiment is to gain 
fundamental knowledge about driver behavior. However, SHRP 2's 
immediate mission is narrower--to successfully conduct the experiment; 
create a comprehensive and accessible database; and develop analysis 
tools for that database. After SHRP 2 is complete, extensive research 
using the database will be required to obtain the knowledge necessary 
to design more effective crash countermeasures. More specifically, 
safety research funding will be required in a number of promising 
areas: for example, to:

        <bullet>  Probe and understand the complex conjunction of 
        events and conditional circumstances that lead to crashes and 
        near-crashes in order to identify and prioritize road safety 
        countermeasures;

        <bullet>  Study how drivers react to different roadway and 
        environmental features and how their reactions affect crash 
        risk in order to evaluate specific potential road design, 
        lighting, signage, and delineation safety countermeasures; and

        <bullet>  Determine the role and causes of driver distraction 
        to inform both vehicle design and driver regulatory safety 
        measures.

    Additionally, some behavioral work planned for SHRP 2 but dropped 
due to funding--a site-based video data collection to observe driver 
behavior at intersections--should be funded. And finally, because of 
the scale and complexity of the databases that will be collected 
through this experiment, support will also be required to house and 
maintain those data, make them accessible to researchers, and provide 
tutorials and training on how to use them, which will be unlike 
anything in scale and complexity that the highway safety research 
community has had to work with before.
Large Truck Safety
    Many TRB committee reports over the years have pointed out the 
potential efficiency gains of permitting longer and heavier trucks to 
operate on a limited number of Interstate highways.\3\ Progress in this 
area has been stymied for years, in large part because of concern about 
the potential risks to safety of permitting larger vehicles to operate. 
Large truck safety is an important area of risk. Although the number of 
large trucks involved in fatal crashes is declining, between 4 and 5 
thousand people are killed each year in crashes involving large 
trucks.\4\
---------------------------------------------------------------------------
    \3\ These recommendations are summarized in Special Report 267 
Regulation of Weights, Lengths, and Widths of Commercial Motor 
Vehicles. Transportation Research Board of the National Academies, 
Washington, D.C. 2002.
    \4\ Traffic Safety Facts: 2008 Data--Large Trucks. National Highway 
Traffic Safety Administration, U.S. Department of Transportation. 
http://www-nrd.nhtsa.dot.gov/Pubs/811158.PDF.
---------------------------------------------------------------------------
    Promising techniques are available for enhancing the safety of 
heavier trucks and longer combination vehicles (LCVs). These techniques 
include vehicle designs for better control and stability, information 
technology applications for control and stability and collision 
avoidance, technology applications designed to improve enforcement, 
improvements in operator certification and training, and changes in 
highway design. However, little is known about the effectiveness of the 
majority of such measures once integrated onto LCVs and in actual use. 
Because of this knowledge gap, as well as a lack of scientific 
understanding about the relation of safety to truck design, road 
features, and other factors influencing risk, it is likely that 
important opportunities to reduce accidents are being missed, while 
resources are being wasted on ineffective actions. The committee that 
prepared TRB Special Report 267 recommended the conduct of carefully 
controlled, independently-conducted trials to test the efficacy of 
improvements in technology and changes in vehicle dimensions to 
determine whether LCVs could operate safely on a limited set of 
Interstates.
Enforcement
    The National Highway Traffic Safety Administration (NHTSA) 
estimates that speeding is a contributing factor in 31 percent of fatal 
crashes resulting in more than 1,000 people being killed each month in 
speed-related crashes.\5\ A TRB committee last examined this issue in a 
1998 report, and some of the research it recommended at that time has 
been conducted by NHTSA, FHWA, and the National Cooperative Highway 
Research Program (NCHRP).\6\ Issues that have not been resolved include 
the safety consequences of differential speed limits for cars and 
trucks, variable speed limits that would be adjusted based on traffic, 
weather, or lighting conditions, and the potential of automated 
enforcement to limit speeding in high-risk areas.
---------------------------------------------------------------------------
    \5\ Traffic Safety Facts: 2007 Data--Speeding. National Highway 
Traffic Safety Administration, U.S. Department of Transportation.
    \6\ Special Report 254 Managing Speed: Review of Current Practice 
for Setting and Enforcing Speed Limits. Transportation Research Board 
of the National Academies. Washington, D.C. 1998.
---------------------------------------------------------------------------
    Although safety is important in all modes, 95 percent of the deaths 
and injuries associated with transportation occur on roads and 
highways. Unfortunately, the United States is no longer the world 
leader in highway traffic safety. Countries such as Australia, Germany, 
Great Britain, and Sweden have lower fatality rates than we do.\7\ Such 
nations have been much more aggressive in enforcing speed limits and 
safety belt use, controlling drug and alcohol-impaired driving, and 
publicizing the importance of safe driving. We have a study under way 
that will be completed in a few months that will identify the measures 
these nations are using that might be applied in the United States and 
the research that may be needed to apply these measures in the United 
States.
---------------------------------------------------------------------------
    \7\ In the last year for which comparable statistics are available 
(2005), the U.S. rate per million kilometers traveled was 9.0, compared 
with 5.9 in Sweden, 6.4 in Great Britain, 7.8 in Germany and 7.9 in 
Australia. Critical Issues in Transportation, 2009 Update. 
Transportation Research Board of the National Academies, http://
www.trb.org/Publications/PubsCriticalIssuesinTransportation.aspx.
---------------------------------------------------------------------------
Incremental High-Speed Rail
    The Obama administration has renewed interest in intercity 
passenger rail by committing $8 billion for high-speed and intercity 
passenger rail in the American Recovery and Reinvestment Act of 2009, 
which is also raising the profile of passenger rail research. For many 
years the Federal Railroad Administration (FRA) has funded a TRB 
committee to provide a peer review of the agency's research, 
development, and demonstration programs. This committee has 
consistently recommended research on positive train control (PTC) as a 
priority for FRA, which the agency has embraced.\8\ Outside of the 
Northeast Corridor, most passenger rail travel occurs on track that is 
shared with freight trains, which poses a safety risk given the 
different operating speeds of passenger and freight trains. FRA 
regulation restricts the speed of passenger rail to 79 mph on shared 
track because of this risk. For the foreseeable future, higher-speed 
intercity rail passenger transportation will continue to rely on shared 
track; FRA regulation would permit speeds over 79 mph on shared track 
only if proven PTC were implemented.\9\ With passage of the Rail Safety 
Improvement Act (RSIA) and the Passenger Rail Investment and 
Improvement Act in 2008, development and deployment of PTC has become a 
priority for FRA. RISA requires implementation of PTC by 2015. The 
committee has also consistently recommended support for the nationwide 
differential GPS system, which is an enabling technology for PTC.\10\ 
Other research priorities recommended by the committee include 
performance-based standards and risk-based analysis; highway-rail grade 
crossing safety; and network capacity analysis.
---------------------------------------------------------------------------
    \8\ See, for example, the committee's most recent letter report of 
April 2009. http://144.171.11.107/Main/Public/Blurbs/161603.aspx.
    \9\ The higher speed allowed depends on the class of track. 
Currently 125 mph is the highest speed that non-electric propulsion 
technologies can attain.
    \10\ Funded in past years through FRA's R&D budget, this budget 
item is now the responsibility of the Research and Innovative 
Technology Administration.
---------------------------------------------------------------------------

Livable Communities

    The term ``livable communities'' is a bit difficult to define, but 
is usually intended to refer to development patterns that foster non-
automobile modes of transportation. Our main report in this area that 
makes recommendations for research was requested in the Energy Policy 
Act of 2005 regarding the effects that smart growth, or transit-
oriented development, might have on vehicle miles traveled (VMT) and 
energy consumption.\11\ In estimating how much compact, mixed-use 
development might reduce passenger vehicle miles of travel, the 
committee that prepared TRB Special Report 298 found substantial gaps 
in knowledge about how to best design transit-oriented development to 
reduce auto trips. The research recommendations from this report are 
incorporated into our report recommending greenhouse gas (GHG) 
emissions mitigation strategies discussed under the sustainability 
goal, so I won't repeat them all here, but one key recommendation 
stands out in terms of advising metropolitan areas responding to 
national climate change and energy conservation goals: we need a much 
better understanding of the density thresholds necessary to support 
different levels of transit (bus, trolley, bus rapid transit, light 
rail, heavy rail) and how they would vary across metropolitan areas of 
different size, employment concentration, and mixes of land use 
(employment, residential, and commercial areas that are intermixed 
rather than separated as is the norm in local zoning regulations). Also 
needed are better data on where jobs are located within metro areas at 
a fine enough level of detail such that they can be linked with transit 
plans and travel forecasts and better before-and-after studies of the 
effects of attempts to foster compact, mixed-use development. Portland, 
Oregon is one of the great successes in managing land use and investing 
in transit, but we do not understand whether communities need to 
replicate all the things that Portland and the state of Oregon have 
done to foster the urban form that Portland has achieved. The list 
includes the states growth management policies; creation of Portland 
Metro, which has an almost unique level of control over land use and 
transportation investments at the metropolitan level; Portland's long-
term and extensive support of data collection and modeling capability; 
the building of political cohesion over decades to support growth 
management and transit investment policies; and others. We also do not 
have good insight about the successes or failures of efforts to 
replicate elements of Portland's strategy in other regions.
---------------------------------------------------------------------------
    \11\ Special Report 298 Driving and the Built Environment: The 
Effects of Compact Development on Motorized Travel, Energy Use, and CO 
Emissions, Transportation Research Board of the National Academies. 
2009.
---------------------------------------------------------------------------

Economic Competitiveness

    Competitiveness is another somewhat difficult term to define. For 
the purpose of this testimony I rely on an economic definition--the 
minimum level of investment required and the appropriate regulatory 
approaches to achieve the efficient movement of people and goods. Of 
particular interest is how to help the freight system support the 
competitiveness of U.S. products in world markets. (The conundrum of 
this policy, however, is that almost everything we do to facilitate the 
export of U.S. goods also facilitates import of foreign goods.) Also of 
particular interest is how to make the construction and operation of 
transportation facilities more cost effective and how to raise the 
funds necessary in the most efficient way to pay for public 
infrastructure.
Infrastructure
    The construction, operation, and maintenance of infrastructure 
represent the largest share of public infrastructure expenditures on 
transportation assets. State and local officials are constantly 
searching for ways to make limited public funds stretch farther. The 
RD&T programs of the Federal Highway Administration (FHWA) have a long 
history of supporting innovations in design, materials, practices, and 
policies of state and local highway agencies. TRB's Research and 
Technology Coordinating Committee (RTCC) provides a program-level peer 
review of the FHWA program. The RTCC's 2008 report recommends restoring 
the funding for FHWA's RD&T programs that were reduced in SAFETEA-LU 
because of the designation and earmarking of more funds than were 
authorized.\12\ Particularly hard hit were FHWA's R&D programs in 
policy and operations, but FHWA's safety and planning and environmental 
RD&T programs were also reduced. The committee also encouraged support 
for infrastructure programs strongly endorsed by stakeholders, such as 
the Long-Term Bridge and Long-Term Pavement Performance Programs.\13\ 
To ensure that FHWA's infrastructure programs are addressing the right 
questions in the right ways, the RTCC recommends that Congress provide 
funding for extensive expert and stakeholder involvement in RD&T 
activities as FHWA has committed to in its Corporate Master Plan for 
Research and Deployment of Technology and Innovation.\14\
---------------------------------------------------------------------------
    \12\ Special Report 295 The Federal Investment in Highway Research 
2006-2009: Strengths and Weaknesses. Transportation Research Board of 
the National Academies. Washington, D.C. 2008.
    \13\ See also the report of the TRB committee that provides an 
ongoing program review of the Long Term Pavement Performance Program, 
Preserving and Maximizing the Utility of the Pavement Performance 
Database. Transportation Research Board of the National Academies. 
Washington, D.C. 2009.
    \14\ http://www.fhwa.dot.gov/legsregs/directives/policy/cmp/
03077.htm.
---------------------------------------------------------------------------
    The states each have highway research programs that are mainly 
funded through the state planning and research (SP&R) provisions of 
Title I of SAFETEA-LU. These programs fund investigation of state-
specific research topics, provide much of the local match for the 
University Transportation Centers Program, fund the collaborative, 
pooled-fund National Cooperative Highway Research Program, and support 
technology transfer and adoption of innovation. The RTCC urged that the 
SP&R provisions be continued.
Public Investment in Freight Facilities
    The efficiency of the U.S. freight system is an important 
contributor to the international competitiveness of the United States. 
This system is largely private, but truck, barge, and ship operators 
depend upon public infrastructure and are subject to public safety and 
environmental regulation. In addition, there is a growing public role 
in investing in intermodal freight facilities to encourage more 
efficient intermodal transportation. A recent TRB committee report on 
funding options for freight transportation projects recommends that 
U.S. DOT develop the ability to monitor the performance of the freight 
system to identify sources of inefficiency.\15\ This function would 
depend upon the collection of more extensive data about system 
performance, and research would be required to develop the components 
of such a monitoring system. An earlier committee recommended the 
development of a system of measuring the performance for the national 
Maritime Transportation System, which would also require research to 
develop and implement such a program.\16\
---------------------------------------------------------------------------
    \15\ Special Report 297 Funding Options for Freight Transportation 
Projects. Transportation Research Board of the National Academies, 
Washington, D.C. 2009.
    \16\ Special Report 279 The Marine Transportation System and the 
Federal Role: Measuring Performance, Targeting Improvement. 
Transportation Research Board of the National Academies. Washington, 
D.C. 2004.
---------------------------------------------------------------------------
    TRB Special Report 297 and previous reports by TRB committees have 
recommended that U.S. DOT assist transportation departments at all 
levels of government in developing the capacity to rigorously analyze 
public-private investments in transportation projects in order to 
protect the public interest.\17\ This would include developing 
standardized methods of evaluation, including accounting for external 
costs to improve benefit-cost analysis, and guidance about how the 
public and private shares of benefits and costs should affect the 
public share of co-funded projects.
---------------------------------------------------------------------------
    \17\ See Special Report 297, Special Report 271 Freight Capacity 
for the 21st Century, Transportation Research Board of the National 
Academies, Washington, D.C. 2002, and Special Report 252 Policy Options 
for Intermodal Freight Transportation. Transportation Research Board of 
the National Academies, Washington, D.C. 1998.
---------------------------------------------------------------------------
Substitute for the Fuel Tax
    The federal fuel tax raises most of the user fee revenues for the 
federal highway and transit programs, about $28 billion annually, but 
the federal tax has not been raised since 1993. The buying power of 
federal tax revenues has declined 33% since the tax was last raised, 
even as demand on the system has increased 31%. In SAFETEA-LU, Congress 
created two commissions to examine alternative mechanisms for charging 
users.\18\ Both of these commissions recommended carrying out an 
accelerated development and testing program to determine the 
feasibility of charging users on a per-mile-traveled basis, also 
referred to as a VMT fee or mileage tax. In 2006 a TRB committee 
charged with evaluating the long-term viability of the fuel tax 
concluded that transitioning from a fuel-tax based user fee to one 
based on mileage traveled would be good public policy, and it made the 
same recommendation to test the feasibility of this approach through 
demonstrations.\19\ There are important questions about the political 
and technical feasibility and cost of a VMT fee system that could be 
resolved through a large-scale demonstration program. This concept is 
also linked to energy conservation and climate change mitigation 
strategies, because a VMT fee could be easily adjusted to charge a 
premium for fuel-inefficient vehicles. The committee that prepared TRB 
Special Report 299 (discussed in more detail in the next section) 
commissioned a paper by the architects of Oregon's previous 6-year 
pilot program in this area, which was completed in 2007.\20\ Based on 
their analysis, the committee estimates that a 10-12 year demonstration 
program would probably cost $70 to $100 million.\21\ TRB's National 
Cooperative Highway Research Program recently published an analysis by 
RAND researchers on the feasibility of implementing simplified VMT 
charging systems on a more rapid timescale; these researchers concluded 
that it would be premature to move toward implementation of these 
systems without carrying out a demonstration and test program.\22\
---------------------------------------------------------------------------
    \18\ The National Transportation Policy and Revenue Study 
Commission and the National Surface Transportation Infrastructure 
Finance Commission.
    \19\ Special Report 285 The Fuel Tax and Alternatives for 
Transportation Funding. Transportation Research Board of the National 
Academies. Washington, D.C. 2006.
    \20\ Special Report 299 A Transportation Research Program for 
Mitigating and Adapting to Climate Change and Conserving Energy. 
Transportation Research Board of the National Academies. Washington, 
D.C. October 2009.
    \21\ See Appendix A of Special Report 299.
    \22\ Sorenson, et al. 2009. Implementable Strategies for Shifting 
to Direct Useage-Based Charges for Transportation Funding. NCHRP Web-
Only Document 143. http://trb.org/Publications/Blurbs/
Implementable_Strategies_for_Shifting_to_Direct_Us_162252.aspx.
---------------------------------------------------------------------------

Environmentally Sustainable Transportation

    Addressing climate change and our nation's reliance on energy are 
high priorities for the administration and Congress. Transportation 
accounts for 28 percent of U.S. GHG emissions and is almost totally 
dependent on petroleum for fuels. Transportation consumes about twice 
as much petroleum annually as the United States produces, which results 
in our dependence on foreign sources. Just three weeks ago TRB released 
a committee's report that recommends the authorization of research 
programs to help mitigate transportation's contribution to climate 
change and adapt transportation infrastructure to climate change.\23\ 
These topics have received relatively little attention in U.S. DOT's 
R&D programs in the past, so the gaps are considerable. Mitigation 
topics, in particular, will become much more important if climate 
change legislation is enacted that contains provisions in Waxman-Markey 
and Kerry-Boxer bills that require additional measures for the 
transportation sector. These measures include having EPA set targets 
for GHG emissions reductions and would require states and metropolitan 
areas to analyze options, plan for, and implement GHG emissions 
reduction strategies, with federal oversight of these activities.
---------------------------------------------------------------------------
    \23\ Special Report 299 A Transportation Research Program for 
Mitigating and Adapting to Climate Change and Conserving Energy. 
Transportation Research Board of the National Academies. Washington, 
D.C. October 2009.
---------------------------------------------------------------------------
    TRB Special Report 299 recommends a mitigation research program 
that would total $190 million over six years. This report does not 
address research on vehicles and fuels that the Department of Energy 
might fund. Rather, it makes recommendations for U.S. DOT research. The 
committee's report identifies both key topics of research and initial 
projects to undertake.\24\ The latter would focus on providing policy 
and technical guidance based on available information and expert 
judgment to the tens of thousands of federal, state, and local 
officials who make decisions about infrastructure and land use. This 
area of policy and technical guidance is estimated to cost $60 million 
of the recommended $190 million mitigation research program. To 
highlight just some of the mitigation topics identified in that report, 
I'll mention (a) the importance of providing state and local officials 
with better guidance about the benefits, costs, and cost-effectiveness, 
of different mitigation strategies that they might employ, and (b) 
improving the technical tools that states and metropolitan areas will 
rely upon to evaluate alternative policies and infrastructure 
investments. A previous TRB committee identified key shortcomings of 
the travel forecasting models that are central to this analysis process 
and recommended both research and technology transfer to improve the 
state of the practice.\25\ In addition, a report TRB released in August 
of this year identifies the potential benefits of combined land use and 
transit investment strategies in terms of reduced travel and CO<INF>2</INF> 
emissions.\26\ The research recommendations from these reports are 
incorporated into the recommendations made in Special Report 299.
---------------------------------------------------------------------------
    \24\ See chapter 3 of Special Report 299.
    \25\ Special Report 288 Metropolitan Travel Forecasting: Current 
Practice and Future Direction, Transportation Research Board of the 
National Academies. Washington, D.C. 2007.
    \26\ Special Report 298 Driving and the Built Environment: The 
Effects of Compact Development on Motorized Travel, Energy Use, and 
CO<INF>2</INF> Emissions. Transportation Research Board of the National 
Academies. Washington, D.C. 2009.
---------------------------------------------------------------------------
    The committee that prepared this report proposes that the initial 
emphasis be on guidance to officials, but, because of uncertainties in 
a number of areas, it also recommends a fundamental research program 
that would be modeled on the processes followed by the National Science 
Foundation. The committee's report identifies major areas of 
uncertainty that the program should address, including: the total GHG 
emissions associated with the construction, operation, and maintenance 
of infrastructure for different modes over their full life-cycle; 
improved quantification of external costs; research on travel behavior 
to improve model design and calibration; improvements to the state of 
the practice in travel models; incorporation of full social cost and 
benefits estimates in the evaluation of alternatives; infrastructure 
system management and operations; and others. This $130 million 
component of the recommended mitigation program would convene scholars 
and experts to identify the most promising areas of research, issue 
Broad Agency Announcements inviting proposals, and engage scholars and 
experts in merit review of proposals and peer review.
    Special Report 299 also recommends an adaptation research program 
that would total $90 million over 6 years and identifies specific 
research topics to pursue that would provide guidance on identifying 
vulnerable assets and develop decision tools to help public officials 
weigh the risks and benefits of different strategies.\27\ The research 
recommendations of Special Report 299 build upon the recommendations of 
a 2008 TRB committee report that argued for the importance of beginning 
to adapt vulnerable assets to protect people and infrastructure against 
floods, storm surges, and heavy precipitation.\28\ Roughly half of the 
U.S. population resides in coastal counties, so a substantial share of 
the population and transportation infrastructure is at risk. The 
priorities for adaptation research are to develop a process to help 
states and counties identify at-risk infrastructure and to develop 
decision tools to help officials weigh the uncertainties of climate 
impacts and the costs and benefits of taking protective measures.
---------------------------------------------------------------------------
    \27\ See Chapter 4 of Special Report 299.
    \28\ Special Report 290 Potential Impacts of Climate Change on U.S. 
Transportation. Transportation Research Board of the National 
Academies. Washington, D.C. 2008.
---------------------------------------------------------------------------
    Although the committee that prepared Special Report 299 includes 
many specific research topics in its report, it also stresses the 
importance of engaging officials, experts, and practitioners in the 
prioritization of the individual projects that should be pursued, in 
merit review of proposals to conduct the research, and in peer review 
of the completed research. If Congress decides to authorize the 
recommended research program, it should also require that these 
processes be incorporated in the program.

Data Collection

    Data collection is necessary to support research in all the goals 
listed above. Data collection is among the activities supported through 
U.S. DOT R&D budgets, but many of our committees have found major gaps 
and problems with available data. These problems will become more acute 
if, as expected, the next surface transportation authorization requires 
performance-based reporting on the results of expenditures of federal 
funds. In addition, if climate change legislation provisions were to be 
enacted such as those in the Waxman-Markey bill or the proposal of 
Chairman Boxer and Senator Kerry, then states and metropolitan areas 
would be required to conduct analyses of mitigation strategies that 
would demand much more extensive information about travel and land use 
at the neighborhood level.\29\ States and every metropolitan area would 
require much more accurate and extensive measures of vehicle miles of 
travel (VMT) by road and vehicle type--including average speeds and 
speed distributions by time of day--to establish baselines from which 
to subsequently monitor the effects of different mitigation strategies 
on greenhouse gas (GHG) emissions.
---------------------------------------------------------------------------
    \29\ See Special Report 299, Appendix B.
---------------------------------------------------------------------------
    TRB committees have consistently recommended support for and 
enhancement of two critically important surveys of U.S. DOT: the 
National Household Travel Survey (NHTS) and the Commodity Flow Survey 
(CFS).\30\ The committees that prepared Special Reports 299 and 277 
also recommended research on ways to improve data collection through 
reliance on new and emerging technologies. Given the cost of surveys 
and problems with response rates to surveys that rely on compilation of 
travel diaries, development of these alternatives is becoming a 
necessity. We are just embarking on a study to identify key passenger 
and freight travel data and to recommend data collection and funding 
strategies to obtain these data. As important as they are, the NHTS and 
CFS are not the only important surveys, nor would funding them 
adequately cover all the gaps, especially if Congress requires 
extensive reporting on performance measures as part of reauthorization.
---------------------------------------------------------------------------
    \30\ Special Report 295 and Special Report 277 Measuring Personal 
Travel and Goods Movement: A Review of the Bureau of Transportation 
Statistics' Survey Programs. National Research Council of the National 
Academies. Washington, D.C.
---------------------------------------------------------------------------

Conclusion

    In principle, a comprehensive surface transportation research 
agenda should exist that, for a particular moment in time, relates 
research initiatives to specific goals and details those initiatives in 
terms of projects and project budgets. In practice, such a 
comprehensive, U.S.-wide agenda is almost never available because of 
the scale and difficulty of the task, the multiplicity of institutions 
and stakeholders involved, and the constantly shifting set of research 
needs, opportunities, and priorities. TRB's experience with managing 
two strategic highway research programs has been that moving from the 
level of defining the goals that research should achieve to the level 
of specifying which projects should be carried out to meet these goals 
requires concerted intellectual and planning effort by experts and 
stakeholders. Following both of the TRB special reports that led to 
SHRP 1 and SHRP 2, AASHTO, U.S. DOT, and industry invested thousands of 
person-hours of effort by federal, state, and private officials and 
researchers and invested millions of dollars to develop detailed 
research program plans and scopes of work for individual projects. 
Similar effort has gone into FHWA research road maps developed by 
FHWA's safety, operations, infrastructure, and RD&T offices, as well as 
in the development of FTA's research program plans to implement its R&D 
strategic plan and the development of FRA's R&D agenda. The next 
section describes the processes that need to be put in place so that 
when Congress authorizes funding to meet certain goals it can be 
assured that the capability exists to execute a program to meet those 
goals.
                   HOW RESEARCH SHOULD BE CARRIED OUT
    Although the content of U.S. DOT's research program is of great 
interest to our committees and other stakeholders, we should equally 
emphasize the importance of the process of strategic R&D planning, 
agenda setting, merit review by peers of competitively solicited 
proposals, peer review of completed research, and extensive involvement 
of stakeholders in all of these steps. If the processes are right, we 
can have higher confidence that the research will address the right 
questions, produce results that are useful, and have greater 
probability of being implemented.
    In transportation infrastructure and regulatory matters, which 
often involve multiple levels of government in the development and 
delivery of public infrastructure, the process matters just as much as 
the content. Requiring such processes may be the best mechanism 
available through legislation to ensure that the research is relevant, 
meets the highest standards of science, and maximizes the success of 
technology transfer programs. In this regard, I encourage you to 
consider requiring the organization of U.S. DOT research programs 
according to the principles for research that were articulated in the 
preamble of Title V of SAFETEA-LU, as slightly reorganized by the 
RTCC.\31\ In a nutshell, these principles are:
---------------------------------------------------------------------------
    \31\ See Special Report 295, pg. 87.

        <bullet>  1. Federal support of the full innovation cycle from 
---------------------------------------------------------------------------
        agenda setting through to implementation and evaluation;

        <bullet>  2. Limiting federal support to research activities of 
        national significance, public benefit and inadequate private 
        investment, or as the best means to further federal goals;

        <bullet>  3. Content of the federal program should include 
        fundamental research, filling significant gaps, and policy and 
        planning;

        <bullet>  4. Extensive stakeholder involvement in the 
        development and execution of R&D plans and technology transfer;

        <bullet>  5. Most awards made on the basis of competition and 
        merit review;

        <bullet>  6. Program-level evaluation; and

        <bullet>  7. Consistency with the U.S. DOT R&D strategic plan.

    If I'm not mistaken, these principles resulted from the 
contributions of this subcommittee to Title V of SAFETEA-LU and have 
affected U.S. DOT programs. FHWA, for instance, has committed itself to 
these principles in its Corporate Master Plan for Research and 
Deployment of Technology and Innovation and is organizing its 
activities accordingly.

Full Innovation Cycle

    Much, if not most, of the R&D supported by U.S. DOT is for 
activities almost wholly within the public sector. This is why support 
for the full innovation cycle is so important. It is not as if U.S. DOT 
can simply conduct precompetitive research and then expect the private 
sector to turn this into products. In most cases, public owners of 
highway, transit, and intercity rail are the customers of the research, 
which requires support for activities to help ensure that useful 
products are implemented, as described in more detail in the next 
section on the innovation deployment process.

Federal Support

    Private R&D funding is typically minimal in the transportation 
infrastructure sector because of the lack of incentives and 
opportunities for profit (see ``barriers to innovation'' discussion in 
the next section). Moreover, federal investment in research is often 
the best way to advance public understanding about potentially 
important topics that may not be understood or accepted by the public. 
For example, the authorization of pilot programs for congestion pricing 
over previous surface transportation bills, as recommended by one of 
our study committees,\32\ has led to the adoption of High-Occupancy 
Toll Lanes in several metropolitan areas. Federal support for 
investigating the potential for VMT fees could lead to an acceptable 
alternative method for taxing road and highway use.
---------------------------------------------------------------------------
    \32\ Special Report 242. Curbing Gridlock: Peak Period Fees to 
Relieve Traffic Congestion. Transportation Research Board, National 
Research Council, Washington, D.C. 1994.
---------------------------------------------------------------------------

Content

    The RTCC has consistently recommended that FHWA allocate a larger 
share of its research to higher-risk, longer-term research.\33\ The 
federal government is the only source of such research in surface 
transportation--it is usually not being done in state programs or in 
the private sector and is too applied for NSF. Such investment is 
necessary to bridge the gap between basic and applied research. In TRB 
Special Report 261, the RTCC suggested that at least 25 percent of 
FHWA's portfolio be allocated to higher-risk, longer-term research; 50 
percent should be allocated to fill gaps in research not being covered 
by other programs and on emerging issues of importance, and 25 percent 
for mission-oriented research on policy and regulation, technology 
transfer, and training. These proportions may differ over time and 
across agencies depending on the agency's mission and stakeholders, but 
this portfolio approach is a useful way to analyze the strengths and 
weaknesses of U.S. DOT R&D programs.
---------------------------------------------------------------------------
    \33\ Special Report 295 and Special Report 261 The Federal Role in 
Highway Research and Technology, Transportation Research Board of the 
National Academies, Washington, D.C.
---------------------------------------------------------------------------

Stakeholder Involvement

    In many cases, the processes for carrying out research are 
inseparable from the content and the customers of the research. 
Stakeholder involvement is particularly critical in FHWA's RD&T because 
much of what FHWA does is produce technology, tools, and products that 
will be implemented by the states and local governments that own, 
operate, and maintain the nation's roads and highways. Thus, the topics 
that FHWA pursues and the products that are developed need to be 
closely aligned with its state and local partners. Although FRA's and 
FTA's research programs have somewhat different orientations, TRB 
committees that review these programs have consistently commented on 
the importance of ensuring that there is a customer for the results of 
their projects and that these stakeholders have been consulted in the 
selection of projects to be pursued.\34\
---------------------------------------------------------------------------
    \34\ Committee for the Review of the FRA R&D Program, Letter Report 
of April 29, 2008. http://onlinepubs.trb.org/onlinepubs/reports/
frar&d_April_2008.pdf and Transit Research Analysis Committee, Letter 
Report of May 4, 2007. http://onlinepubs.trb.org/onlinepubs/reports/
trac_may_2007.pdf.
---------------------------------------------------------------------------
    The committee that prepared Special Report 299 recommends different 
kinds of stakeholder processes appropriate for the applied and 
fundamental research programs it recommends.\35\ The more applied 
mitigation and adaptation research topics should be steered by the 
concerns and needs of policy makers and practitioners, while the 
fundamental research topics should be organized along the NSF model in 
which scholars and experts are guiding the decisions about which 
projects are likely to be most promising. Within FHWA's program, the 
RTCC recommends a different kind of stakeholder involvement for the 
Exploratory Advanced Research Program than for FHWA's applied RD&T.\36\ 
The former requires strategic direction on priorities by policy makers 
and technical guidance on promising research to meet those priorities 
by experts, who should also be involved in merit and peer review. The 
latter requires stakeholder and expert involvement in problem 
identification, merit review, and peer review.
---------------------------------------------------------------------------
    \35\ See Chapter 5 of Special Report 299.
    \36\ Special Report 295, pg. 90.
---------------------------------------------------------------------------
    As you may know, one of TRB's main services to the transportation 
community is to manage research programs for others. TRB currently 
manages cooperative research programs for state departments of 
transportation (DOTs), transit agencies, airport operators, programs in 
the fields of freight transportation and hazardous materials for 
diverse constituencies, and we also manage the special purpose, 
limited-duration Strategic Highway Research Program (SHRP) 2. SHRP 2 
was requested by state DOTs, authorized by Congress in SAFETEA-LU, and 
is funded as a take-down on state capital programs in Title I. We 
believe that the processes of stakeholder involvement we follow have 
been critical for the successes of these programs. The National 
Cooperative Highway Research Program is a pooled-fund program of the 
states that has been in existence for more than 45 years and has had 
virtually 100% participation by the states over that period. This 
voluntary program, which depends on annual contributions by the states, 
would not have survived for so long had the states not found it of 
value.

Competition and Merit Review

    TRB committees reviewing federal programs and recommending research 
programs have consistently supported the principles that proposals be 
solicited through open competition and that decisions about awards be 
based on merit review by peers.\37\ Research earmarking is a serious 
threat to the efficacy of transportation research, as it is in other 
fields of science and engineering. The more that your committee can do 
to assure that the programs are competitive, the more likely they are 
to be successful.
---------------------------------------------------------------------------
    \37\ See Special Reports 295 and 299 as examples.
---------------------------------------------------------------------------

Program-level Evaluation

    U.S. DOT does support healthy program-level review of its RD&T 
activities. TRB is currently convening independent committees of 
experts to review FHWA's overall program (the RTCC) as well as 
particular FHWA R&D initiatives (the Long-Term Pavement Performance 
Program and the agency's pavement research and deployment activities), 
and additional reviews are under discussion. Committees are also 
reviewing the R&D programs of FRA and FTA. From time to time in the 
past, Congress has asked for reviews of specific U.S. DOT programs and 
special R&D initiatives.\38\
---------------------------------------------------------------------------
    \38\ See, for examples, Estimating Demand for the National Advanced 
Driving Simulator, TRB, National Research Council, Washington, D.C. 
1995 and Special Report 253: National Automated Highway Research 
Program: A Review. Transportation Research Board of the National 
Academies, Washington, D.C. 1998.
---------------------------------------------------------------------------

R&D Strategic Planning

    Strategic planning for R&D can be a useful exercise if done right 
and with appropriate expectations. It is clearly beneficial to align 
R&D programs with strategic goals set by Congress and the 
administration, and some proportion of the federal program should be 
strictly focused on these priorities. However, many of the R&D 
activities of FHWA and, to a lesser extent, FTA are addressing RD&T 
topics in support of stakeholders in the highway and transit 
communities who have the responsibility to deliver technology to 
customers. Much of FRA's R&D supports FRA's safety regulatory mission 
and individual rulemakings that have often been years in the making. 
Hence, we should expect that a significant part of U.S. DOT R&D will be 
driven as much by a ``bottoms up'' as by a ``top down'' 
perspective.\39\ This is appropriate in my view because support of the 
innovation process by states, counties, and transit authorities through 
RD&T is an important way to further federal goals of efficient use of 
resources, safety, mobility, and environmental conservation. Research 
results are much more likely to be implemented if the people and 
organizations that will have to implement them are involved in the 
shaping of the research agenda and in oversight of the conduct of the 
research. In addition, it is very difficult for any one person or group 
to understand the nature and extent of the problems being faced by 
agencies delivering transportation to citizens or to know which 
potential solutions might work. For all these reasons, stakeholder 
involvement is critical to selecting the right research and ensuring 
adoption of research results.
---------------------------------------------------------------------------
    \39\ Research and Technology Coordinating Committee, Letter Report 
of August 2, 2009. http://onlinepubs.trb.org/onlinepubs/reports/RTCC-
_letterreport_usdotrd&t.pdf.
---------------------------------------------------------------------------
                         DELIVERY OF INNOVATION

Impediments

    Adoption of innovation is a challenge in the public sector 
generally, and there are particular impediments in transportation 
infrastructure. Brookings' scholar Anthony Downs observed decades ago 
that the public sector fails to reward success but severely punishes 
failure; hence administrators of public facilities have few incentives 
to take risks and many to avoid them.\40\ Transportation infrastructure 
managers are also inherently conservative about change because (a) 
public safety is uppermost in their minds and (b) they are often making 
decisions about committing tens of millions of dollars to build and 
maintain assets that are expected to be very long-lived. This problem 
is compounded in the administration of highway and transit programs 
because almost all roads and transit facilities are publicly owned and 
operated and must abide by public procurement policies.\41\ Although 
these policies have gone a long way toward promoting open competition 
and avoiding graft, they have a downside as well. Most goods and 
services must be purchased in a low-bid environment that tends to focus 
on initial costs rather than life-cycle costs. In an effort to ensure 
minimum levels of quality, procurements often include highly detailed 
specifications and require strict adherence to formally-adopted 
standards. These practices have important benefits, but also tend to 
stifle innovation. Moreover, public laws and regulations make it very 
difficult for public agencies to purchase innovative proprietary 
products, which discourages the private sector from investing in the 
R&D needed to develop innovations for the highway and transit goods and 
services markets. For these reasons and others, innovation in 
transportation infrastructure can rarely rely on market incentives to 
encourage adoption of new products and services.
---------------------------------------------------------------------------
    \40\ Anthony Downs. 1957. An Economic Theory of Democracy. Harper 
Books, NY.
    \41\ This discussion draws from Building Momentum for Change: 
Creating a Strategic Forum for Innovation in Highway Infrastructure. 
Transportation Research Board, National Research Council, 1996, pg. 14, 
Special Report 261 The Federal Role in Highway Research and Technology, 
Transportation Research Board of the National Academies, Washington, 
D.C. 2001, and Special Report 296 Implementing the Results of the 
Second Strategic Highway Research Program: Saving Lives, Reducing 
Congestion, Improving Quality of Life, Transportation Research Board of 
the National Academies, Washington, D.C. 2009, pp. 95-97.
---------------------------------------------------------------------------

Elements of Successful Strategies

    The committee that prepared TRB Special Report 296 recommends 
important principles and strategies for implementation of the expected 
products from the second Strategic Highway Research Program (SHRP 2). 
Several of these principles and strategies emerged from the experience 
with implementing the first SHRP and can provide a framework for 
implementation of transportation research in general. First, the 
committee acknowledged that implementation is resource intensive: it 
can cost at least as much, and perhaps several times more, to implement 
research results as to conduct the research itself. Moreover, in a 
large, complex, decentralized community such as highways or other 
transportation modes, it can take a long time for innovations to spread 
and become standard practice. Approaches recommended by the committee 
to foster the adoption of research findings include the following:

        <bullet>  Engage the full array of stakeholders throughout the 
        process: different innovations have different user groups, as 
        well as groups that may feel threatened by innovation; each 
        needs to be engaged and their issues and needs addressed; 
        ideally, this process should start when research objectives are 
        being identified and continue through the conduct of research 
        so that users are ready to implement the results they asked 
        researchers to produce.

        <bullet>  Communicate ceaselessly: communication is not all 
        there is to implementation, but the large number of potential 
        users, the highly decentralized nature of the highway industry, 
        and the time it can take for innovations to spread mean that it 
        can never be taken for granted that everyone already knows 
        about research results and how to implement them.

        <bullet>  Choose the right implementation strategies: there are 
        many potentially effective implementation strategies, but not 
        every strategy is appropriate for every product or user 
        audience; research products and potential users should be 
        carefully studied to determine which strategies are most likely 
        to be effective in each case.

        <bullet>  Take advantage of implementation mechanisms that are 
        proven to be effective: these include, from the first SHRP's 
        implementation efforts, strategic packaging and branding of 
        related products, technical assistance for users, follow-on 
        research, testing, and evaluation, lead state programs, 
        demonstration projects, training, curriculum development, use 
        of Local Technical Assistance Programs (LTAP), and partnership 
        with standards-setting organizations and entities that develop 
        standard design guidelines, such as the AASHTO Policy on 
        Geometric Design of Highways and Streets (the ``Green Book''), 
        the Highway Safety Manual, the Manual of Uniform Traffic 
        Control Devices, and the Highway Capacity Manual.

        <bullet>  Develop new or special implementation mechanisms 
        where needed: as more ``non-traditional'' research is performed 
        (in environmental, economic, and human factors areas, for 
        example) the stakeholder groups may differ and new 
        implementation mechanisms may be needed to effectively reach 
        these potential users and support their implementation of 
        research results.

        <bullet>  Provide for long-term stewardship of products such as 
        databases, software, and web tools: increasingly, research 
        results are taking the form of or are accompanied by electronic 
        products that require long-term maintenance, updating, quality 
        control, and user support; these activities must be budgeted 
        for and not be in competition with proposals for new research 
        and implementation efforts.\42\
---------------------------------------------------------------------------
    \42\ The committee that prepared Preserving and Maximizing the 
Utility of the Pavement Performance Database (TRB 2009) concluded that 
it is critical for FHWA to organize itself to sustain and make 
accessible the massive and complex LTPP database so that it can be 
mined for improved pavement designs and pavement design guidance.

    In addition to recommending very similar steps as those recommended 
above in Special Report 296, the RTCC has noted that overcoming the 
risk of some high-cost projects using new materials or processes may 
require incentives to help states overcome the risk of premature 
failure.\43\ The RTCC also recommended monitoring and learning from 
efforts to implement research results. Our committees have observed 
elements of all these strategies at work in individual FHWA projects 
and programs, and many successful examples could be cited, such as the 
new Safety Analyst and Interactive Highway Safety Design Module 
projects developed by FHWA in conjunction with state DOTs and highway 
safety researchers. What has been lacking are the necessary resources 
to organize and carry out a program on the scale of that recommended in 
Special Report 296; the committee for that study estimated that a 6-
year effort to support implementation of all the products expected to 
come out of SHRP 2 would cost $400 million.
---------------------------------------------------------------------------
    \43\ Special Report 256 Managing Technology Transfer: A Strategy 
for the Federal Highway Administration. Transportation Research Board, 
National Research Council, Washington, D.C. 1999.
---------------------------------------------------------------------------
    The committee that prepared Special Report 296 also identified 
knowledge management as key to facilitating the translation of research 
results into successful implementation. It is a broad concept that 
encompasses access to and sharing of information, networking and 
collaboration, and stewardship and archiving of data and information. 
It is dynamic and responsive and includes repositories of written 
information, as well as the collective knowledge of individuals, 
together with methods for accessing the information. Knowledge 
management is supported by and carried out through an array of methods 
and technologies. Information technology can significantly increase the 
scope, scale, integration, and timeliness of these methods; such 
technologies include online searchable databases and libraries, use of 
the Internet to communicate with colleagues around the world, on-line 
conferencing tools, backboards, and wikis. In 2006 a TRB committee 
recommended the development of a transportation knowledge network to 
address declining transportation library and information resources at 
the state and federal level; its recommended program of activity could 
provide for much of the needed information technology and access to 
technical materials for the highway field.\44\ The committee 
recommended federal funding to support this effort, through RITA's 
National Transportation Library, that would range between $3 and $5 
million in the first three years and $5 to $8 million in subsequent 
years (with local matching funds the total effort would range from $7.5 
to $13 million).
---------------------------------------------------------------------------
    \44\ Special Report 284 Transportation Knowledge Networks: A 
Management Strategy for the 21st Century. Transportation Research Board 
of the National Academies. Washington, D.C. 2006.
---------------------------------------------------------------------------
    As you may know, our precursor organization, the Highway Research 
Board, was created in the 1920s to serve as an intermediary between the 
federal government and states and among the states to share information 
about ongoing research, avoid duplication in research, and to encourage 
the implementation of research by bringing together researchers with 
practitioners. In 1974, the name of the Highway Research Board was 
formally changed to the Transportation Research Board to acknowledge 
the expansion of our activities into other modes and all disciplines 
engaged in the field of transportation. Today TRB's core programs 
support 200 standing committees involving more than 4,000 researchers, 
consultants, and practitioners from states, transit agencies, airports, 
seaports, metropolitan planning organizations, and private industry. In 
response to requests from sponsors, TRB hosts 40 to 50 specialty 
conferences and workshops annually, largely for the purpose of 
exchanging technical information. The TRB Annual Meeting draws 10,000 
participants to participate in hundreds of sessions and review 
thousands of technical papers. These events draw the leading 
researchers and administrators in our field along with numerous 
practitioners seeking guidance. In addition to reviewing and presenting 
papers, the members and guests of standing committees participate in 
meetings devoted to sharing information and identifying research needs. 
With support from our federal, state, and private sponsors, we also 
provide a free online database of ongoing research projects (with 7,000 
records) and, in collaboration with RITA, offer a free online 
bibliographic database with more than 735,000 records of completed 
research citations and abstracts. These databases are accessed millions 
of times annually. Through both formal and informal mechanisms, TRB 
provides a way for knowledge about new research findings to reach our 
sponsors, their staffs, and the public at large. It also provides 
opportunities for federal, state, and local agency staff to get to know 
each other and to collaborate on the ongoing process of innovation.

                  Biography for Robert E. Skinner, Jr.
    Robert Skinner has been the Executive Director of the 
Transportation Research Board (TRB) of the National Academies since 
1994. TRB is a non-profit organization that promotes transportation 
innovation by sponsoring professional meetings and publications, 
administering applied research programs, and conducting policy studies. 
It serves as an independent adviser to the federal government and 
others on scientific and technical questions of national importance.
    Prior to becoming executive director, Mr. Skinner directed TRB's 
policy study activities. Before joining TRB in 1983, Mr. Skinner was a 
Vice President of Alan M. Voorhees and Associates, a transportation 
consulting firm.
    Mr. Skinner recently served on the Metrolink (Los Angeles) Commuter 
Rail Safety Review Panel and chaired the Special Advisory Panel for the 
Stem-to-Stern Safety Review of the Boston Central Artery/Tunnel 
Project. In addition it serves on a number of university and research 
advisory groups including the Board of Trustees for the School of 
Engineering and Applied Sciences at the University of Virginia, the 
Advisory Board for the Center for Urban Transportation Research at the 
University of South Florida, the External Review Committee for the MIT-
Portugal Project, and the Advisory Board for the School of Public 
Policy at George Mason University.
    Mr. Skinner earned his bachelor's degree in civil engineering from 
the University of Virginia and received a master's degree in civil 
engineering from the Massachusetts Institute of Technology. A 
registered professional engineer, Mr. Skinner received the James Laurie 
Prize from the American Society of Civil Engineers in 2003.

    Chairman Wu. Thank you very much, Mr. Skinner, and thanks 
to the entire panel. We will now open for our first round of 
questions, and the Chair recognizes himself.
    Sort of slightly different from what I always do of 
focusing immediately on brief questions, I want to let the 
panel know that over the course of three hearings, it has 
become increasingly apparent to me that the research enterprise 
at Transportation seems to be fundamentally different from the 
relationship that research has to departments such as Defense 
or Energy. And as I try to get my arms more fully around this, 
whether it be beneficial to encourage the restructuring the 
national research enterprise, it seems that some significant 
drivers toward this vulcanized and very--well, something that 
is very tied to immediacy and something that is broken up over 
many different pieces, one problem is Congress itself in that 
there are no discretionary research funds for DOT. Your 
research dollars in SAFETEA-LU were fully earmarked, and that 
is something to examine and perhaps to change.
    In terms of sheer quantity, the SPR [State, Planning, and 
Research] funds at the state level, it is two percent. And Mr. 
Pedersen, I believe in your testimony it is two percent and 
only one-quarter of that is really allocable to research 
functions, and that is used for training purposes also.
    So I think at the large-picture scale, we want to examine 
whether this scale of the research enterprise and its 
relationship to operating programs is appropriate going 
forward. It is like we have decided that roads have been built 
since Roman times, and we are not going to look that much, 
except for ITS, into vastly different ways of delivering 
transportation. At least that is an early assessment based on 
this series of hearings, and I suspect we will investigate this 
further in and out of hearings.
    And any of you who choose to address this can come back to 
it. But first, Mr. Appel, and Assistant Secretary Trottenberg, 
the relationship between DOT research programs and other 
programs, whether in the academic community or in state 
organizations, there are other federal agencies, such as the 
National Science Foundation [NSF] and NIH [National Institutes 
of Health] which have formal programs for bringing people 
around the country, people who are expert in their fields, to 
spend some time at NSF or at NIH, and it is something that is 
valuable to the agency in bringing expertise to the agency, and 
it is valuable to the rest of the country in disseminating 
whatever is happening at the central agency and also helping 
folks around the country understand what is going on in 
Washington and the processes here which are relevant to what 
they are doing. What are the analogous programs at RITA and at 
the Department, the analogous programs to what is going on at 
NSF and NIH where it is an integral part of what they do and it 
is also viewed as an important career step for other folks, 
whether folks are coming from academia, university 
transportation centers or state departments?
    Mr. Appel. Well, I agree that this is a very important way 
to get new thinking and collaboration into the Department.
    At the outset, I would say in the past we haven't done 
enough of it at DOT, and I am very happy to see the steps we 
are taking in that direction. There is a UTC director from 
Wisconsin that is on sabbatical now working in Assistant 
Secretary Trottenberg's office. Myself and my Deputy 
Administrator Rob Bertini have already put the word out to 
university transportation center directors across the country 
and their faculty that we are exploring opportunities for 
sabbatical programs at RITA and at DOT as a whole, and we have 
reached out to our colleagues in the Department.
    So in a sense, while there hasn't been enough of it, we 
have got the wheels in motion to bring more outside talent in 
for fixed periods of time. We are talking to other government 
agencies about detail programs to get scientific and research 
experts into RITA, and I would hope to be able to say six 
months and a year from now that we have moved that forward. And 
I fully intend to be able to do that because as someone that 
has worked a lot more outside of DOT and transportation 
research than I have worked inside DOT, I see a lot of 
opportunity to pull that in. And in all the conversations and 
meetings I have with my colleagues at this table, I know there 
is great talent out there. So bottom line, we are moving that 
forward.
    Chairman Wu. Would it be helpful to have additional 
statutory authority?
    Mr. Appel. I think that is something that we need to talk 
about. I work pretty closely with the Assistant Secretary on 
what our thoughts are for authorization and what systems work 
and what we can do within the existing statutes, what might 
need to change. I welcome any comments you have.
    Ms. Trottenberg. I think that is something we would very 
much like to explore. I think we are, as Peter said, trying to 
get more scholars into DOT, more research and some scientists. 
I think DOT has not traditionally had an NSF-type focus, 
particularly because a lot of our programs that we have 
mentioned have previously been formula-driven. I think there 
hasn't been the research and innovation behind them that I 
think we now want to try and achieve. So moving forward, that 
is something I certainly think we want to look at in 
reauthorization.
    Chairman Wu. Thank you very much. Mr. Smith?
    Mr. Smith. Thank you, Mr. Chairman, and again I thank the 
witnesses.
    Assistant Secretary Trottenberg, if you wouldn't mind, you 
touched a little bit on urban livability and rural livability. 
Could you expand on rural livability?
    Ms. Trottenberg. As Mr. Pisarski said, there are a lot of 
definitions of livability out there because it is a pretty 
complicated and new concept, and I know that can be 
frustrating. It is not as simple to explain as achieving a 
state of good repair or safety. But I think the simplest for us 
may be to put it in the transportation context which, at DOT, 
we view as providing affordable transportation choices. It is 
not foisting a lifestyle or a particular type of transportation 
on anyone. We see it as meeting a demand that we see all over 
the country. Obviously, it is different in different parts of 
the country, but for example, in rural areas, there is a huge 
demand for bike paths, pedestrian ways, ways kids can get to 
school without having to be driven. They can walk and hop on 
their bikes. There is a growing demand, as the population ages 
in some rural areas, for seniors to have mobility that doesn't 
necessarily involve an automobile. The issue is, and you know 
this, in rural America, sometimes the issues of access to jobs 
and healthcare and services are more acute than they are in 
urban areas. In urban areas, truthfully, there are usually a 
lot of good transportation options.
    So we actually think livability is a concept that has 
tremendous applicability everywhere. It is not going to be big 
transit systems in a rural area, but it might be a van service. 
It might be a bike path. It might be solutions that will 
provide an option, not that people are giving up their cars, 
but that they will have another way to go if they don't want to 
drive.
    Mr. Smith. Thank you. I know that a lot of these decisions 
are going to be tough. I mean, if you don't mind my walking 
down memory lane here, when I was on city council I know we had 
a residential intersection where one resident complained that 
there was too much noise because there was a dip in the street. 
So the city council said, well, you want a stop sign? No, 
emissions from a stop sign and the related impact. So I mean, 
these are tough decisions, and you know, the bicycle issue I 
think is one--I find it a bit ironic that here in Washington, 
D.C., I don't find the downtown area to be really at all 
bicycle friendly. I am also not advocating tying up a lane of 
traffic in that effort.
    But again, the decisions are difficult. On the CAFE 
standards versus safety, I mean, we have data from the 1970s 
and '80s. The 2001 National Academy of Sciences Report showed 
that probably 1,300 to 2,600 traffic fatalities occurred per 
year additionally because of CAFE standards. President Obama 
did announce that he wants to increase CAFE standards even 
higher from 27-1/2 miles per gallon to 35-1/2 miles per gallon 
by 2016, and there are going to be some tradeoffs there. And I 
don't think that is an intended effect, obviously, but would 
you care to comment on that?
    Ms. Trottenberg. We have many panelists here who are 
experts on technology, particularly in terms of automobile 
components. There are wonderful technologies moving forwarding, 
including building parts of an automobile that can be much 
lighter but just as strong and crash-proof.
    I am hoping that we won't have to have a trade-off between 
safety and emissions standards, that in fact you can really 
achieve both.
    Mr. Smith. I can appreciate that, but when we have a CAFE 
standard that is nearly stand-alone in terms of raising that 
number from 27-1/2 to 35-1/2, not considering other issues for 
all intents and purposes here, I hope that we can move some 
other things along.
    I mean, I remember in high school I drove a vehicle that 
got nearly 50 miles to the gallon, and I am still here to--I 
lived to tell about it. And yet, that was based on a consumer 
choice, really, rather than so many other things. But the last 
thing I want is the American people blaming the government on a 
spike in traffic fatalities when perhaps some decisions weren't 
as consumer-based as they could have been or should have been.
    Mr. Skinner, I did want to ask a bit on the VMT study. Or 
did you say it would be a study and you mentioned the cost. 
What was that cost again?
    Mr. Skinner. That cost I think I said was $70 to $100 
million.
    Mr. Smith. And that is just for the study?
    Mr. Skinner. That is for the study. And that was over a 
considerable period of time. My personal view is that if we 
seriously want to move toward that kind of a system and do the 
research that is necessary to not only plan and consider 
options but to design a system, this is a very big deal. It 
will cost a lot of money. It will many years to do it, and it 
is going to require some kind of special governance structure 
because of the policy and political dimensions of this that 
will have to be addressed at some point.
    Mr. Smith. Right.
    Mr. Skinner. The research program that tackles this issue 
will be making decisions throughout that have policy 
implications downstream.
    Mr. Smith. Obviously rural Americans aren't really excited 
about such an approach for obvious reasons. I know the 
objective, do you see any way to accommodate the concerns of 
some in rural America that, you know, they would feel that that 
is an affront?
    Mr. Skinner. First, again speaking personally, it is not 
clear to me that rural Americans, once they understand the 
options available to us, would object to such a scheme. There 
is a lot of issues that have to be decided. There would be the 
capability to price in a variety of different ways, but there 
would also be the capability to have very simple pricing 
strategies that look similar to what we have today.
    Mr. Smith. How far off do you see a workable VMT?
    Mr. Skinner. There was a recent study sponsored by the 
National Cooperative Highway Research Program that was 
performed by the Rand Institute that thought we might be able 
to start transitioning by as early as 2015. My personal view is 
that that is optimistic. I think that we are going to have to 
have, and all the studies have called for this, large-scale 
pilots, large-scale demonstrations of which Chairman Wu's home 
state is pioneer, before we are at a stage ready to implement 
something on a nationwide basis.
    Mr. Smith. Okay. Thank you. I will wait for the next round.
    Chairman Wu. Thank you very much, Mr. Smith. Just to follow 
up on one of your inquiries and sort of independent line of 
inquiry also, Mr. Pisarski, you cited in your written testimony 
that we have achieved in the United States a commendable 20 
percent decrease in fatalities, sort of the one crisp metric. 
The Germans and French have, over the same period of time, 
achieved a 60 percent reduction in fatalities. What has 
permitted then to reduce their fatalities by a greater 
percentage and also have they been able to achieve this while 
also achieving better energy efficiencies in their vehicles?
    Mr. Pisarski. I really don't have the answer for you, Mr. 
Chairman. In fact, it is, I think, one of the areas of research 
where we really need to do. What do they know that we don't 
know? What are they doing that we are not doing, some of the 
things that I have asked the question often and I can tell you 
some of the answers I have gotten. One of the questions I have 
asked is what percent of fatalities are caused by the road 
condition itself, the physical design and shape of the road? 
And the Europeans will say to me, that is the wrong question. 
The question is how can we design the roads and the condition 
so that they will not ever contribute, in fact, will solve the 
problems caused by other things, drunk drivers, et cetera? So I 
think that is an area where I am very impressed with what they 
are saying.
    But I think in the second level, there is a willingness, 
there may be a willingness there to be more draconian in their 
policies that perhaps we have not yet been quite willing to get 
to.
    Chairman Wu. One or two examples?
    Mr. Pisarski. Drunk drivers, $1,000 fines, license taken 
away, holding people who serve the alcohol responsibly. So if 
you have a party at your house and somebody has an accident, 
you better have everybody sleep at your house because they are 
going to be charged if there is an accident. Very low speed 
limits in local neighborhoods because of the small villages. 
Neil knows much better than I do about this. But the difference 
between 25 miles an hour and 17 miles an hour in a local 
neighborhood where children are playing is dramatic in terms of 
its impact. And there is a whole array of these things that I 
think are going on that I just would love to know much more 
about, and as proud as we can be at our success, I think there 
is a lot more important things happening in other countries 
that we can learn from.
    Chairman Wu. Mr. Skinner, you wanted to pitch in also?
    Mr. Skinner. I just want to mention that we have a National 
Academies study that is just beginning the review process that 
is specifically looking at the experience of other highly 
developed countries that are surpassing us in terms of their 
improvement in highway safety. And that report should be out 
probably within two months. And it is almost certainly going to 
address the sort of things that Alan Pisarski has mentioned, 
more stringent measures against drivers who are intoxicated. 
They are more likely to have roadside stops, more rigorous 
speed enforcement, more use of automated speed enforcement, and 
interestingly, just a greater national awareness of the problem 
and a systems approach to the management of highway safety.
    Chairman Wu. We will look forward to the report, Mr. 
Skinner.
    Mr. Pedersen you indicated you have something to add here.
    Mr. Pedersen. I certainly agree with Mr. Pisarski that more 
research is needed in terms of what has been effective in other 
nations, but I in fact just had a cousin from Norway visiting 
me over the weekend, and we were talking about some of the 
differences. They have had some of the similar reductions. They 
have a blood alcohol content limit of .02, rather than .08 
which we have. As Mr. Pisarski said, the fines are far, far 
higher. Their judicial system basically does not let anyone off 
that is caught for drunk driving. We have defense attorneys who 
have made a living out of getting drunk drivers through the 
court system and off.
    Speed limits in urbanized areas, particularly in small 
towns, are not only set low, they are very strictly enforced 
with very high fines. I remember when I visited him in Norway 
we would be on these arterial roadways that had 100 kilometer 
per hour speed limit. We would go into town. We would go down 
to 30 to 40 kilometers per hour. And I was following him. He 
was driving. And he never went one kilometer over the speed 
limit. No tolerance at all in terms of giving as we do in the 
United States a 10-mile-per-hour break on speed limits.
    It is also a cultural issue. They are in countries like 
Australia, willing to do random testing of drivers to see if 
they have been drinking. That is not something we do under our 
Constitution. But it is what it has taken in some other 
countries to be effective in terms of getting the drunk drivers 
off of the roadway. And that is one of the biggest contributing 
sources that we have in the United States to our fatality rate.
    Chairman Wu. Thank you very much. We are going to move on, 
back to Mr. Smith, but offline I think we will have some 
inquiries about the distracted driving studies and also both 
drug and alcohol and their influence on problems on the road 
and fatalities.
    Mr. Smith?
    Mr. Smith. Assistant Secretary, can you say whether or not 
the vehicle miles traveled [VMT] concept is on the table with 
the Department?
    Ms. Trottenberg. You mean the VMT fees?
    Mr. Smith. Yes.
    Ms. Trottenberg. Publically, that is not something we are 
not looking at right now. I mean, after saying that, obviously 
there is a lot of interest in research in the transportation 
community about it, and obviously we are following that and 
talking with folks. But I think at the moment, you know, the 
White House has made pretty clear that that is not something 
that we are pursuing.
    Mr. Smith. Okay. So obviously you may not agree that 
perhaps there is just a misunderstanding of the VMT in rural 
areas and that if people really knew more about it, they would 
support it?
    Ms. Trottenberg. Well, I have actually looked at a lot of 
polling about the different ways that you could raise revenue 
to pay for our transportation needs going forward, and there 
often seems to be a link with comfortableness and understanding 
of something and how much support there is.
    VMT fees is a very new and fairly complicated concept, and 
with concepts like that people tend to be suspicious of them. I 
mean, I got to visit Oregon and see the experiment there, and 
it was really quite fascinating. The receipts at the gas 
station printed out how much you would have paid in gas taxes 
and how much you were paying in VMT fees. And it was very 
transparent. It enabled you to take a look and see what the 
difference was in terms of price. And potentially, if you can 
see what you are paying and link that to what kind of 
transportation improvements you might be getting for the money, 
there might be more public acceptance of it. Just like now, the 
highest public acceptance of ways to pay is tolls because 
people generally perceive, I pay a toll on the bridge, I get to 
use the bridge.
    There are also a lot of very interesting ideas about how 
you could perhaps for rural drivers who drive long distances 
adjust the VMT. Here is one idea. I am not endorsing it, just 
saying it is an idea out there. You could have a flat rate for 
a VMT fee, and for rural drivers that drive a lot over that 
amount, you could just cap them at the flat rate. Those that 
drive way under that, who are using bikes or transit, perhaps, 
if they wanted to, they could apply for a refund. And that way 
you are not excessively penalizing rural drivers but you also 
perhaps are giving a reward to those that are really reducing.
    So I think there are potentially creative approaches going 
forward.
    Mr. Smith. Thank you. I appreciate your elaboration. I know 
that we talked about livability and communities and standard of 
living, quality of life, conditions and so forth. From what I 
can tell, both critics and advocates have characterized the 
livability initiative as primarily focusing on increasing the 
population density of metropolitan city centers. Would you 
concur with that, that that is an objective of the livability 
issue?
    Ms. Trottenberg. No, I wouldn't say that the objective of 
livability is to increase density in urban areas, but I do 
think, and again, sort of broadening it from transportation to 
its larger concept, one way I like to describe it sometimes is 
co-locating, housing, commercial activities and transportation 
choices. Now, that can apply in a rural area, as well as a 
suburban area, as well as an urban area. It usually is an 
effort to try and change the way, in a broader sense, we have 
often done local zoning in the United States. It is looking at 
saying housing, transportation and commercial space should all 
be separated, sometimes we might co-locate them. And the market 
is showing a big demand for that, not everywhere in the country 
but we are certainly seeing in DOT a lot of communities are 
interested in saying, look, if you build a transit stop instead 
of down-zoning around it, why don't we zone for commercial and 
housing? There is a demand for that. And again, it is in places 
where the demand exists. It is not trying to foist it on areas 
where people want to live in a more low-density environment.
    Mr. Smith. I like the terminology of foisting, to use your 
own words. I appreciate your reflection on that. I think it 
speaks to the larger issue, and for my involvement at the local 
government level to here in Congress, I always try to look for 
a win-win situation, win-win result where we can meet the needs 
and desires of an economy and the marketplace and consumers and 
individuals and freedoms and associated issues and still meet 
other needs as well.
    So thank you, Mr. Chairman.
    Chairman Wu. Thank you, Mr. Smith. I think just about all 
of you referred to the need for improved data collection. Could 
you talk a little bit further about problems with DOT and state 
collection of data and what you would recommend to buff things 
up? Mr. Pisarski, I think you had some particularly sharp 
things to say about that. But whoever wants to go first. Ms. 
Flemer?
    Ms. Flemer. I think the conundrum we are really operating 
under is that there is a lot of data collected by different 
managers or operators of a transportation system, whether it is 
by local traffic engineers, the public safety folks, or highway 
traffic operations. It doesn't really get collected in a manner 
that would help us jointly deliver a better system of 
transportation. For example, what if we knew through the 
collection of data all of the different conflicts that might 
occur on city streets relative to walkability for schools, 
conflicts at signalized intersections, the emissions reduction 
opportunities that may occur at certain signalized 
intersections, which is an issue in terms of urban life? Part 
of it is really just getting it all in one place.
    The issue that I think is important for us is not to say 
that more and more data needs to be collected out of whole 
cloth. The ability to reach out and see what is being collected 
today and how we can make it more useful to decision-making, 
that is the connection that I would make. There is one concern, 
of course, in terms of coverage for major data collection 
efforts such as real-time information, and the coverage we have 
on our Nation's highways and arterial systems is probably 
insufficient to manage the system as well as to measure its 
performance. And I do think that moving forward to cover more 
of our system with data collection is an important piece.
    I do believe that local governments have a very difficult 
time adding that component into their day-to-day work because 
of their own economic and budgetary limits related to that. So 
to the degree that there can be sub-regional or state-level 
efforts to then roll up to a more federal program of data 
collection I think would be more helpful in the long run.
    Mr. Pedersen. I have many different aspects that I could 
address in this, but I would like to specifically address the 
issue of performance management and performance measures as 
related to data issues.
    AASHTO has been doing a lot of thinking about national-
level performance measures associated with authorization, and 
as we have gotten into addressing the potential performance 
measures, the inconsistency of definitions, the inconsistency 
of data collection methods makes it very difficult in terms of 
trying to develop national-level performance measures.
    I will give you the example that almost everyone thinks 
should be the easiest and that is pavement conditions. And the 
methods by which pavement condition data is collected is 50 
different states have 50 different ways of doing it. What the 
condition data of pavements are in Maryland using the same 
performance measure ends up being very inconsistent with our 
neighboring states and very inconsistent with what people would 
experience in driving between those states as well. It becomes 
far more complicated when you get into some of the softer 
performance measures, whether they be environmental measures or 
freight-related measures. So focusing on the data issues 
associated with a national performance management approach is 
one of the greatest challenges that I would say we have.
    Chairman Wu. And that uniformity function is either for a 
national association or for the Federal Government.
    Mr. Pedersen. It would be a challenge for both of us, yes.
    Chairman Wu. Mr. Pisarski?
    Mr. Pisarski. Yes, Mr. Chairman. I am and have been very 
critical of our state of information. I actually ran the 
Department's statistical program in its early days and over the 
years have seen it go, come, change institutions, 
organizations, always with kind of a lack of funding and a lack 
of great degree of interest.
    What has happened over the years is that it has kind of 
waxed and waned as some people were supportive or less 
supportive. The whole process has been very limited. If you go 
and look at the National Household Travel Survey which is 
fundamental to our national understanding of what travel 
behaviors are all about, all you have to do is look at the 
years in which it was conducted and you can see that it was 
conducted whenever we could pass the hat and find the money to 
do the survey. We did one that goes back to 1969. We did one in 
'95, and I said, well, good because we are living here in 1995. 
In 2000 there was no money, so we got around to it in 2001. In 
2005 there was no money. There was $20 million in state funds, 
in MPO funds, put up to support that program, to supplement it 
at the state and the MPO level, and the DOT couldn't find $1.5 
million to make the base work happen. And so it was delayed and 
delayed and delayed, and it is now becoming available finally. 
So in effect, we are going through this reauthorization with 
the same data we have from the last one.
    Chairman Wu. Mr. Pisarski, would you say that the data 
needs or the data deficiencies suffer from the same problem, 
the overall research enterprise does that? That there is no 
systematic consistent effort that is episodic, if it occurs at 
all?
    Mr. Pisarski. Yeah, I think that is a great way to describe 
it. We tried to get some of the things stabilized, like the 
commodity flow survey which looks at national trade flows, and 
that has done relatively well. But it also has had its 
weaknesses and it has been cut over time. On the intercity 
passenger side, we know almost nothing. Our last survey was 
1995. It was rather poorly done. And so if we are looking at 
things like high-speed rail, we know very little about it.
    Urban goods movement is another great area of weakness. It 
is just a matter of focus and a matter of funding and having 
the institutions in place to support the program.
    Chairman Wu. Thank you very much, Mr. Pisarski. My time has 
expired, and I want to recognize Mr. Akin for five minutes of 
questions.
    Mr. Akin. Thank you, Mr. Chairman. Just before the bell 
here, in May of this year, Secretary LaHood said that the 
Administration's livability initiative was an effort to coerce 
people out of their cars and that we can change people's 
behavior, that is, with respect to how they travel.
    What aspects of the livability initiative involve potential 
coercion or government rules or regulations, either imposed 
directly at the Federal level or incentivize at the local level 
with Federal funding?
    Ms. Trottenberg. I think I won't grab that quote. I will 
just mention, Congressman Akin, before you------
    Mr. Akin. I just want to know if you stopped beating your 
husband, too, you know. It is kind of a hard question, but I 
think it is a pointed question.
    Ms. Trottenberg. Right, and I was just discussing with the 
Ranking Member that the way we would probably prefer to cast 
livability is in its transportation context, providing 
transportation choices, and meeting a demand which we are 
seeing all over the country. And the demand is different in 
different parts of the country. In a more urban setting, it 
might be for mass transit. In a more rural setting, it might be 
for bike lanes and a van pool. But it is giving people 
transportation options. I think ultimately, hopefully, it is 
not really a coercion. It is meeting a demand that we are 
seeing all over the country. For example, in the Discretionary 
TIGER [Transportation Investment Generating Economic Recovery] 
Grant Program that we are conducting that you all gave us in 
the Recovery Act, we have gotten 1,400 applications from all 
over the country from the smallest communities to the biggest 
cities with a whole variety of projects that you would really 
consider livability projects, which are taking neighborhoods, 
streets and turning what is perhaps just a road with traffic 
going pretty quickly into one that can accommodate bikes, 
pedestrians, buses, whatever the local community is interested 
in having.
    Ms. Flemer. Maybe I can speak to this also. I am Ann Flemer 
with MTC, a metropolitan planning organization in the San 
Francisco Bay Area.
    We are looking at livability more as an opportunity to 
express in measurable terms the likelihood that people will 
want to live in a more transit-oriented development. We have 
been undertaking a number of initiatives, talking to people 
about what does it take? What the choice is that people are 
making in terms of their location in order so that we aren't 
looking at a coercive approach to dealing with livability. But 
what we found is that in identifying some measurement criteria 
with the community, such as whether it is access to transit, 
how long does it take to get to central services and 
destinations and the like, that we were able to show community 
by community how we are doing on a scorecard of livability and 
know wheter we are really putting our investment in the right 
place relative to the improvements that would make current 
occupants of a livable community or a transit-oriented type 
development community as well as attracting more people to that 
choice.
    So I do think that the issues of livability do not have to 
be related to the coercion or the densification of urban areas. 
I would add that there is one element to this, though, that 
with more and more focus and choice toward more densification, 
we are also going to have some an other co-benefit which is a 
very important element of our planning, and that has to do with 
emissions reduction. Because if we are able to connect more 
communities through alternative transportation modes, we will 
do a better job in that regard as well.
    Mr. Akin. Do you think that just the way people spend their 
money to some degree or the way they choose to do something in 
a way is a scorecard in and of itself? For instance, I mean, 
you could put in mass transit in some communities, maybe people 
wouldn't use it.
    Ms. Flemer. That is right.
    Mr. Akin. Well, in a way they are voting with their feet. 
And they are just saying, well, whatever you did, you didn't do 
it the right way or it just doesn't provide the extra value 
that I need relative to some other alternative. So do you ever 
consider that or is this pretty much more of a sort of a 
government planning model?
    Ms. Flemer. No, it is very much tied to choice, and that 
does very much tie to how well our urban transit systems are 
being used. We are actually doing some evaluation now in 
certain of our counties to identify where transit is most 
competitive relative to being inviting to people's use and 
mapping that against where we deliver transit today. And you 
will start seeing some disconnects, and by virtue of those 
disconnects, we find we are not doing as good a job of getting 
an effective use of an investment.
    So those kinds of tools and data collection and dealing 
with livability questions, I think, will go a long way toward 
making some different investment decisions.
    Mr. Akin. Thank you. Thank you, Mr. Chairman.
    Chairman Wu. Thank you very much, Mr. Akin. Mr. Carnahan, 
five minutes.
    Mr. Carnahan. Thank you, Mr. Chairman, and I thank all the 
panel. Given the time, I think I am going to focus my questions 
to Ms. Flemer, and thank you for being here.
    Congestion is clearly one of the greatest challenges that 
we are facing in our service transportation system, and we 
clearly can't just build our way out of that issue. What do you 
think are really the greatest inhibitors to communities relying 
more greatly on ITS solutions to really deploy technology 
better?
    Ms. Flemer. I think one of the biggest inhibitors is a lack 
of resources to dedicate to the technology when there is an 
opportunity to install technology or to evaluate whether 
technology makes sense for a certain investment at a local 
level. It is often in tradeoff with other very fundamental 
needs of a city or county, having to deal with pavement 
management, or improve pavement condition and other safety 
concerns.
    What we have done quite a bit of in our region, as a bit of 
our own experience, we have 100 cities and nine counties, all 
of which have some level of traffic engineering expertise, and 
some of which are doing far better in the realm of intelligent 
transportation systems or the use of technology. We do quite a 
bit of peer-to-peer work among all of the cities to help each 
other out making those decisions so we don't replicate mistakes 
and also to get as much benefit as we can. We used some of our 
federal funding at MTC to actually create a panel of experts 
who are assisting from a technical basis, local traffic 
engineers, to make decisions on technology in order for them to 
be able to make those decisions more cost-effectively.
    But I do think that the fundamental issue is the resource 
question.
    Mr. Carnahan. The cost is the biggest driver. Obviously you 
can make the case for safety, you can make the case for 
reducing congestion. You think cost is still the biggest drive?
    Ms. Flemer. Well, cost and being able to quantify the 
relative benefit to the cost spent. Another example, in our 
region--we just evaluated major corridors, 12 of them in our 
region, as to what would be the best investment to improve the 
capacity and the operation of the freeways. We looked at 
everything from infrastructure expansion, but what came out to 
be the most cost effective was moving toward more technology 
for ramp metering. I mean, fundamental things. This is not new, 
cutting-edge technology. But the fact that we have not been 
able to evaluate the cost and benefit and bring that into a 
public discussion of investment choice was really an inhibition 
up to now.
    Mr. Carnahan. So getting that real-world data to make those 
decisions, what do we need to do to get that data in the hands 
of those decision-makers?
    Ms. Flemer. Well, what we have--I think speaking just from 
the metropolitan level and our own commission, getting it in 
the hands of decision-makers was to collect it from what is 
already being collected today, rather from the state 
Departments of Transportation, managers of major arterials in 
our area. The data collection, though, is driven quite a bit, 
the opportunity for better data collection, from the technology 
that is imbedded, sensors, traffic signals, cameras and the 
like, in order for us to process in real-time data that is 
already being collected, and therefore can be used for making 
investment decision as well as real-time operational 
improvements.
    Mr. Carnahan. I saved my easiest question for last, and 
that is, in our need to move away from strict reliance on the 
gas tax, how we can use technology to really, as we see more 
and more alternative fuel vehicles, whether it is biofuels, 
hybrids, plug-in electric, hydrogen, to be sure that we have a 
fair system, that it is fair, it is perceived to be fair, but 
that all users are paying their fair share to support our 
system. How do you see technology being used to get us to that 
point?
    Ms. Flemer. Well, there is technology that is available 
today that we use for toll collection and for the type of 
pricing mechanisms that are related to the usage of the system, 
not necessarily a flat-rate VMT-based system, but one that 
charges according to the use of a particular portion of the 
network. An example for us today in the Bay Area is the 
development of high-occupancy toll lanes which would use 
technology that is already in place for our toll collection for 
bridges and to start a process of being able to invite people 
in to use the capacity, the existing capacity of the system, in 
the HOV [High-Occupancy Vehicle]lanes and to charge them if 
they are using that system as a single-occupant vehicle.
    Moving to VMT, I believe there are technologies that are 
already being developed within vehicles to calculate and to 
disseminate information relative to how much usage on any given 
time period or in a certain part of the metropolitan area. If 
we were to do some kind of congestion or zone-based charging, 
that technology is well in place. And I think what we are 
really going to have to see, and I know there was a timeframe 
mentioned earlier about a 10- to 12-year period, I think that 
has to do as much with the development and the turnover of the 
auto fleet that will make that technology more available within 
the vehicles as well.
    Mr. Carnahan. Thank you, and thank all the panel and I want 
to thank the Chairman for letting me visit this Subcommittee. I 
serve on the Transportation Committee, and so I am very 
interested in what you are doing here. Thank you.
    Chairman Wu. We are under five minutes, but we still have a 
few hundred Members of Congress who have not voted on the 
Floor, so we will not return to the topic of coercion versus 
choice in terms of livability, but I think that that is going 
to be a topic of long-term discussion as we go forward in 
reauthorization.
    And as we do go forward in a long-term reauthorization, 
last question I think we have time for is what would each of 
you recommend to be at the top of the priority list in terms of 
inclusion in the R&D title for the transportation bill? And I 
will ask you to be brief in your testimony today, but this is 
something of course that we are very, very interested in in 
this Subcommittee and I am going to ask you to submit 
additional comments in writing. If anyone would like to address 
this topic now?
    Mr. Pisarski. Mr. Chairman, I think I can start by saying I 
would focus on the information requirements that I have already 
mentioned and particularly having the U.S. DOT conduct what was 
called the TINA, the Transportation Information Needs 
Assessment. And looking at where we are going, the fact that we 
have I think pretty much been a failure at trying to use data 
better for planning and policy purposes and now we are talking 
about stepping to a next level of using it for performance 
evaluation, using it for transparency, and areas where we are 
not I think prepared, I think that is where that assessment 
needs to occur.
    Mr. Pedersen. One of the things that AASHTO is very 
concerned about is the percentage of money that goes to the 
core programs continues to decrease. The amount of money 
available particularly for SPR programs is threatened. So 
protecting the amount of money that goes to research would 
probably be our first and highest priority.
    You did make reference before to 25 percent of SPR being 
set aside for research. That is a minimum in terms of what can 
go to research. I will cite Maryland's experience, but I think 
it is common to other states. Much of the remaining three-
quarters of the money actually goes to data collection that 
supports both planning activities and is also critical for 
research as well, and I think we talked before about the 
importance of data. It is very critical that we have that money 
available for data as well.
    And then the final point that I would make which is really 
the first one that I made in my testimony, we do believe that 
multi-layered research structure that we have in place today 
does serve us very well, and we would want it to continue.
    Chairman Wu. Yeah, it seems to me that the research 
component is not the only component that needs to be beefed up. 
Data collection or the feedback loop is also a little bit weak.
    Anyone else?
    Mr. Appel. I just think overall it is important to continue 
to recognize that there are many different stakeholders and 
components of U.S. transportation research. Some of them are at 
DOT, others are out in states and local communities and that a 
solid research program really contains combination and a 
collaboration between all of those, and it doesn't necessarily 
need to be centered all in one place.
    Chairman Wu. Thank you very much, Mr. Appel. I think, Mr. 
Skinner, you are going to have to have the last word here from 
the witnesses.
    Mr. Skinner. Thank you, Mr. Chair. I think it is important 
that the research program be respectful of the decentralized 
character of the transportation system, and the SP&R program 
that has been mentioned is an example of that. And it is 
important that that program exists and continues, that we need 
to have a program at the U.S. Department of Transportation that 
has greater discretion and flexibility, and I think in terms of 
topic areas, there are some new topic areas that need more 
attention, responding to climate change, both mitigation and 
adaptation is on the table, and depending on which policy 
direction we should take in future user fee mechanisms should 
be on the table.
    Chairman Wu. Thank you very much, and I want to thank all 
of the witnesses for appearing this morning. The record will 
remain open for two weeks for additional statements from 
members and for answers to any follow-up questions which the 
Committee and staff may have of the witnesses. And we will have 
additional questions.
    I want to thank you all for appearing. The hearing is 
adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Hon. Polly Trottenberg, Assistant Secretary for 
        Transportation Policy, U.S. Department of Transportation; and 
        Hon. Peter H. Appel, Administrator, Research and Innovative 
        Technology Administration

Questions submitted by Chairman David Wu

Questions for Hon. Polly Trottenberg and Hon. Peter H. Appel

Q1.  I Performance Metrics. In Mr. Pisarski's testimony, he stressed 
the importance of giving terms such as ``sustainability'' and 
``livability'' tangible definitions before considering programs or 
funding in those areas. How will DOT reach a consensus on definitions 
for the terms sustainability, community livability, and economic 
competitiveness? When will these definitions be completed?

A1. The first action of the Partnership for Sustainable Communities was 
to agree to six principles: provide more transportation choices; 
promote equitable, affordable housing; enhance economic 
competitiveness; support existing communities; coordinate policies and 
leverage investment; and value communities and neighborhoods. These 
principles effectively define a livable community. Additionally, there 
have been general criteria for these terms used in the context of 
certain DOT programs, such as the discretionary TIGER grant program. 
These criteria can be found in the Federal Register, 74 FR 28755 (2009-
06-17), and will likely be retained in the next round of TIGER grants.
    Economic competitiveness is advanced by the transportation system 
when we reduce transportation costs to American shippers and travelers. 
This is achieved through policies and projects that: (i) improve the 
efficiency and reliability of the transportation system in the movement 
both of people and goods, or (ii) make improvements that encourage net 
new investments in the productive capacity of the economy.

Q1a.  How will the DOT reach a consensus on performance metrics to 
support the goals above? When will these metrics be available?

A1a. The Partnership on Sustainable Communities is developing a list of 
performance metrics that will be available within the next year to help 
support the definition of a livable community and measurement of 
actions. In developing criteria for evaluation of TIGER grant 
applications, DOT sought to identify what to look for in a project to 
qualify as ``livable,'' ``sustainable,'' and ``economically 
competitive,'' which are all related concepts, and these criteria will 
help shape the performance metrics that we use.
    Additionally, complete representation of transportation in the 
National Income and Product Accounts is a key part of understanding 
transportation's contribution to economic competitiveness. Since the 
accounts are normally limited to for-hire transportation, the Bureau of 
Transportation Statistics worked closely with the Bureau of Economic 
Analysis to develop a ``Transportation Satellite Account'' to add the 
contribution of private trucking and other forms of shipper-owned 
transportation. Updates to the Transportation Satellite Account are 
hampered by the loss of the Census Bureau's Vehicle Inventory and Use 
Survey after 2002.

Q2.  Improved Data Collection. All of the witnesses stressed the need 
to improve data collection in their testimonies. From DOT's point of 
view, what are the problems with current data collection efforts? How 
should data be shared among all of the Nation's transportation 
agencies?

A2. Data should be made available and shared among all transportation 
agencies to the maximum extent practicable. One mechanism to facilitate 
data sharing is the Research and Innovative Technology Administration 
(RITA)/National Transportation Library (NTL) which serves as a central 
clearinghouse for transportation research, selected data, and related 
information. The NTL is a vehicle by which transportation agencies 
across the Nation can access and submit relevant research findings and 
data. DOT also participates in the Administration's Open Government 
Initiative which directs agencies to expand the availability of their 
datasets and analysis tools through Data.gov.
    DOT is working to improve its data on passenger travel. The current 
data collection portfolio does not adequately address passenger long 
distance travel patterns. Data on passenger travel behavior is 
necessary for transportation decisions makers, planners, and 
researchers to effectively analyze travel patterns, identify 
infrastructure needs, and allocate resources to meet the Nation's 
passenger transportation demands.
    DOT is also working to improve the Commodity Flow Survey (CFS). The 
CFS is a shipper survey that focuses on freight transportation. It 
includes manufacturing, wholesale, and mining shipments and reports 
attributes such as value, weight, mode, and origin and destination. 
Public policy analysts use the CFS for transportation planning and 
decision making. For example, CFS data are a component in any decision 
making concerning major freight projects that could improve economic 
competitiveness. DOT is working to increase the sample size in the next 
CFS survey in 2012 to improve the data for several commodity 
categories, such as crude petroleum and shipments from farms, service 
industries, trans-border shipments, and imports (until the shipment 
reaches the first domestic shipper).
    DOT supports the wide availability and sharing of data among all 
the nation's transportation agencies and stakeholders, subject to 
standard confidentiality requirements to protect respondent privacy.
    To better serve the many customers who use data and analytical 
results from the Bureau of Transportation Statistics (BTS), RITA is in 
the process of holding listening sessions with various stakeholders who 
routinely use BTS data. RITA is assessing the current strengths and 
weaknesses of BTS data and analysis efforts, to determine how BTS can 
best be relevant to the needs of those who use their data, and to 
discover how to better leverage resources.

Q2a.  Mr. Pisarski noted that the DOT did not perform the 
Transportation Data Needs Assessment called for by SAFETEA-LU. Why was 
this not done? He also identified a number of weaknesses with DOT data 
collection activities, such as the lack of high-level support for 
setting data priorities an the fact that there is no coordination for 
statistical programs among DOT agencies. Could you please comment on 
Mr. Pisatski's assessments? How does the DOT plan on improving the 
current system?

A2a. U.S. DOT recognizes the importance of the Information Needs 
Assessment as a tool for identifying the data needs which are critical 
for transportation decision-making at the Federal, State and local 
level. The Information Needs Assessment was one of several mandates for 
Bureau of Transportation Statistics (BTS) as part of SAFETEA-LU. Given 
resource constraints, we were unable to reach agreement with the 
National Research Council to carry out the Assessment.
    However, RITA/BTS supported an effort by the Standing Committees of 
the Transportation Research Board (TRB) to address data and information 
needs. Approximately 140 out of 200 Standing Committees identified more 
than 600 information needs, and a task force produced a white paper. 
The white paper emphasized the importance of understanding decision-
maker needs in the development of data and analysis programs; 
underscored the value of reliable and sustainable national 
transportation databases; reminded us that, like any asset, data 
require investment of resources to produce a return of value; 
illustrated the efficiencies of sharing data across regions and 
agencies; and stressed the importance of the timely availability of 
data to support decisions.
    On December 10, 2009, TRB convened the first meeting of the 
Committee on Strategies for Improved Passenger and Freight Data. Alan 
Pisarski is a member of the panel and RITAIBTS is a sponsor. The 
Committee's work will address issues called for in the TRB white paper. 
Specifically, the study will assess the state of passenger and freight 
data at the federal, state, and local levels and develop a practical, 
achievable, and affordable strategy for collecting and funding 
essential passenger and freight information. The study will also 
recommend new data collection strategies as well as funding approaches, 
targeted to administrators of major surveys and data collection 
programs in the U.S. Department of Transportation and to policy makers 
who fund these programs.
    Regarding Mr. Pisarski's assessment of data collection activities, 
several ongoing DOT cross-modal efforts serve to coordinate statistical 
program activities. For example, the Traffic Records Coordinating 
Committee (TRCC) consists of representatives from the Federal Highway 
Administration (FHWA), National Highway Transportation Safety 
Administration (NHTSA), Federal Motor Carrier Safety Administration 
(FMCSA), and the Research and Innovative Technology Administration 
(RITA). The TRCC works to improve the collection and analysis of 
traffic record safety data. Data and information is also shared within 
the Department through a number of working groups such as the 
Transportation Forecasting Group, which has representatives from across 
the modal administrations.

Q2b.  Ms. Flemer noted that DOT has not carried out sec. 1201 of 
SAFETEA-LU. Why not?

A2b. Section 1201 of SAFETEA-LU established the Real-Time System 
Management Information Program. The purpose of this program is to 
establish a system of basic realtime information for managing and 
operating the surface transportation system; identify and plan for 
future monitoring needs; and provide the capability to share monitoring 
data with States, local governments and the traveling public. The 
Department had been working with numerous entities in the private and 
public sectors, including States and local governments, for 
establishing the components of such a system. In 2006 the FHWA 
published a Request for Comments in the Federal Register to elicit 
comments from the stakeholder community on potential content and 
characteristics for such a nationally available program. In 2009 the 
FHWA published a Notice of Proposed Rule Making for a new regulation 
that would require States to establish basic capabilities within a 4 
year time span.
    The topic of real-time information and Section 1201 were considered 
as an objective of a recent Government Accountability Office report, 
``Efforts to Address Highway Congestion through Real-Time Traffic 
Information Systems Are Expanding but Face Implementation Challenges'' 
(ref. GAO-10-121R). Specifically, the objective was to report on ``what 
actions DOT has taken to establish the Real-Time System Management 
Information Program required by SAFETEA-LU, and stakeholders' views on 
these actions''. The GAO findings include the following:

        <bullet>  DOT has proposed a program that aims to improve 
        traffic information coverage, quality, and sharing

        <bullet>  DOT has proposed guidance on data exchange formats

        <bullet>  Stakeholders have cited benefits of the proposed 
        program

        <bullet>  State and local stakeholders have cited time frames 
        and costs as challenges in implementing the proposed program

Q3.  Tech Transfer. Stakeholder groups like AASHTO and TRB have 
consistently stated the need to improve technology transfer. Are these 
valid criticisms? What are DOT technology transfers activities, and 
what criteria does the Department use to evaluate if they are 
successful?

A3. We certainly believe that there is room for improvement in the 
Department's technology transfer efforts. The modal agencies already 
utilize a variety of methods and programs to accomplish technology 
transfer. For example, the Federal Highway Administration manages the 
National Highway Institute to provide training and education to highway 
interests; it manages the Highways for Life Program to assist in the 
demonstration and evaluation of new technologies and moving innovations 
to the market; and it participates with AASHTO and other associations 
on dissemination of innovations and market-ready technologies. FHWA 
also utilizes the thirteen Technical Service Teams in its Office of 
Technical Services to bring innovations to the States and others.

    RITA is also exploring how best to work across the modal 
administrations and DOT laboratories to initiate, coordinate, and 
evaluate DOT technology transfer activities, as well as to enhance the 
dissemination of transportation RD&T results. In 2008, RITA began 
coordinating the Department's submission for the Annual Technology 
Transfer Summary Report to Congress which includes patents, active 
licenses, number of licenses bearing income, and amount of income from 
licenses. The Summary Report also includes recent technology highlights 
from DOT laboratories. The Department has at least two agencies with 
designated technology transfer programs, the Federal Aviation 
Administration (FAA) at William J. Hughes Technology Center (Atlantic 
City, NJ) and the FHWA at Tumer-Fairbank Highway Research Center 
(McLean, VA) in conjunction with its Office of Technical Services. DOT 
counts at least twenty other programs, centers, or offices that are 
involved in the broad definition of technology transfer, which includes 
public-private partnerships; memoranda of understanding; cooperative 
agreements; technical training; technical assistance and expertise; 
international exchange programs; personnel exchange programs; and 
access to federal laboratory facilities and services.

Q3a.  In his testimony, Mr. Skinner discussed the need for ``knowledge 
management'' to facilitate the transfer of research results into 
practice. Could you please give specific examples of how stakeholders 
have benefited from the transportation library or other DOT 
informational resources? From DOT's experience, what are the specific 
informational needs of State and local transportation agencies?

A3a. The NTL serves as DOT's public point of contact for the American 
Recovery and Reinvestment Act (ARRA) and DOT TIGER Team public 
inquiries. NTL helped advance the Department's and the President's 
agenda on economic recovery, providing quick, accurate responses to 
more than 3,000 detailed information requests thus far from state and 
local governments as well as the general public. Applying knowledge 
management expertise, NTL contributes to ARRA's mandate to ``foster 
greater accountability and transparency in the use of funds made 
available in this Act.''
    Some limited examples of the specific and ongoing needs of State 
and local transportation agencies include:

        <bullet>  Long-distance passenger travel data.

        <bullet>  Real-time and post-processed commuter travel data.

        <bullet>  Detailed freight movement data by commodity type and 
        travel pattern.

        <bullet>  Federal and state research results applicable to 
        other states.

        <bullet>  Data to support performance metrics for 
        transportation system operations.

        <bullet>  Data for effective economic, environmental and land 
        use analysis to support transportation planning.

Q4.  Participation of Stakeholders. In Mr. Skinner's testimony, he 
noted-the importance of stakeholder involvement in setting R&D 
priorities to ensure that the research results are adopted by 
transportation decision-makers. Who does DOT consider to be 
stakeholders in this process?

A4. The DOT engages in cooperative and joint research with stakeholders 
and partners across the transportation sector, including other Federal 
agencies, state and local agencies, academia, not-for-profit 
institutions, and industry, including carriers, vehicle and 
transportation equipment manufacturers, and shippers.

Q5.  Role of Social Science. Many of the issues raised in witness 
testimony have a strong social science component, for example privacy 
and ITS systems, the definition of livability, and how the public would 
perceive improved transportation performances. What is the role of 
social science research as a component of transportation research 
programs? Has it received adequate attention in the past?

A5. The role of social science has not received adequate attention in 
the past. Transportation has traditionally been dominated by an 
engineering perspective that emphasized adding hardware and expanding 
infrastructure. Moving forward, the nation will need to make better use 
of existing resources. In this respect, social science methods (e.g., 
economics, sociology, psychology) are an important tool in measuring 
the effectiveness of alternative methods of achieving reduced 
congestion and better throughput that can improve economic 
competiveness. Sociological and psychological tools are also important 
in measuring the impact of transportation policies on livability and 
community development. Many of the tools available to better use 
existing transportation assets have a basis in social science. Several 
aspects of Asset Management programs, such as optimizing the 
expenditure of maintenance and rehabilitation dollars over the life of 
an asset, involve benefit-cost analysis. This also includes designing 
policies (e.g., incentivebased programs) to achieve changes in commuter 
patterns to spread out traffic over alternative routes, modes, and 
times. Psychological analysis is important in designing more effective 
safety programs.
    Social Science tools are also invaluable in conducting 
retrospective analysis to study which research programs and 
transportation policies were effective in achieving transportation 
outcomes, providing us with lessons learned and identifying causal 
factors that affect change that will assist us in framing better 
policies in the future. Research involving human subjects most always 
includes review by an Institutional Review Board (IRB) that reviews and 
ensures safety, privacy, and other aspects involving the human 
subjects.
    Some specific social science involvement in DOT research:

        <bullet>  ITS research specifically includes assessment of how 
        deploying ITS technologies affect driver performance (including 
        driver distraction), and evaluation of how ITS deployments 
        affect transportation systems performance.

        <bullet>  DOT has had a longstanding cross-modal human factors 
        R&D program that investigates issues such as hours of service, 
        operator medical requirements, the effects of aging on operator 
        performance, and the effects of changing demographics on 
        transportation service delivery.

        <bullet>  RITA is forming research clusters that are focus 
        areas intended to connect scientists to share ideas, project 
        pursuits, issues and lessons learned. Two areas include: Policy 
        Analysis and Travel Behavior

Q6.  Stewardship of Database. Could you please comment on the role of 
the DOT in the long--term stewardship of databases and physical 
collections?

A6. The modal administrations across DOT have the responsibility to 
establish and implement confidentiality protections and public 
accessibility, as appropriate, for Dot Funded and managed data 
collections to ensure proper long-term stewardship of transportation 
databases.

Questions submitted by Ranking Member Adrian Smith

Q1.  CAFE Standards and Vehicle Safety. In response to a question 
regarding the tradeoffs between safety and fuel efficiency in the 
context of President Obama's plan to raise CAFE standards, Assistant 
Secretary Trottenbery stated that ``I am hoping that . . . we won't 
have to have a trade-off between safety and emissions standards-that in 
fact you can really achieve both.''

         (a) Please clarify this statement and the Department's 
        position on this issue. Specially: does the Department expect 
        that there will not be a negative safety impact from the 
        increased mileage standards? If so, what is this conclusion 
        based on? If not, does the Department plan to support further 
        research into this issue to better understand the tradeoffs?

A1. Safety is the top priority of the Department. The Department 
believes it is critical that the potential for any tradeoffs be fully 
understood and minimized. The 2002 National Academy of Sciences report 
you cited, ``Effectiveness and Impact of Corporate Average Fuel Economy 
(CAFE) Standards,'' recommended switching to attribute-based standards 
to reduce the variance between large and small vehicles and thereby 
lower any safety risks associated with smaller vehicles. In fact, the 
Department now uses attribute-based standards when regulating fuel 
economy in order to address safety concerns about the vehicle fleet as 
we lower emissions and protect the environment.
    The proposed size-based CAFE standards minimize the risk that 
manufacturers will reduce vehicle weight by reducing vehicle size. 
Nevertheless, given the relative cost effectiveness of at least some 
approaches to weight reduction, it is reasonable to assume that vehicle 
manufacturers will choose weight reduction as one means of achieving 
compliance with the proposed standards. To the extent that future 
weight reductions are achieved by substituting light, high-strength 
materials for existing materials--without any accompanying reduction in 
the size or structural strength of the vehicle-the Department believes 
that the safety impacts, if any, would be minimal.
    However, the Department does not currently have sufficient 
information to predict with any precision what the fatality impacts 
might be for any given mixture of material substitution and 
downweighting.
    To the extent possible, the Department will provide a refined 
analysis in the upcoming CAFE final rule that will be issued by April 
1, 2010. However, it recognizes that the need to address issues 
relating to size, weight and safety is a continuing one, given that the 
need to improve fuel economy and reduce carbon dioxide emissions 
extends fax beyond the years covered by this rulemaking. Accordingly, 
the Department will formulate a plan for gathering additional data and 
conduct additional analyses to better understand these issues.

Q2a.  Livability.

         (a) What is the Department's definition of ``livability,'' and 
        how will progress toward the livability goal be measured?

A2a. President Obama has made livable communities a key component of 
his domestic agenda and has challenged all Federal agencies to 
coordinate and innovate around this goal in an unprecedented way. 
Fostering livable communities--where transportation, housing and 
commercial development investments are coordinated, place-based, 
accessible and environmentally sustainable--is a transformational 
policy shift for DOT. The Department will foster livable communities by 
achieving key outcomes, including:

        <bullet>  Increased access to convenient, affordable 
        transportation choices;

        <bullet>  Improved public transit experience;

        <bullet>  Increased portions of roads that accommodate 
        pedestrians and bicycles safely; and

        <bullet>  Improved access to transportation for special needs 
        populations and individuals with disabilities.

    The Department is currently considering performance measures that 
can be used for measuring progress on achieving livable communities. 
For example, to assess the outcome of increased access and 
transportation choices, data can be gathered on the percentage of a 
metropolitan' area population within a half-mile radius of a transit 
station and the number of intermodal transportation options available 
to travelers. Mean distance traveled between transit service 
interruptions can measure the overall quality of the public transit 
experience. To measure the portions of roads accommodating pedestrians 
and bicycles, an assessment can be done on the number of States and 
Metropolitan Planning Organizations (MPOs) that address all of the 
SAFETEA-LU elements for walking and biking activities. In addition to 
local assessments, livability can be measured in part from data on 
local commuting patterns collected nationwide in the Census Bureau's 
American Community Survey. Finally, in order to assess progress 
regarding improved access to transportation, performance measures may 
include the percentage of bus fleets and rail stations compliant with 
the Americans with Disabilities Act (ADA). By no means is this 
discussion exhaustive, but these are options we are considering as 
performance measures for livability.

Q2b.  What research does DOT currently fund related to livability? What 
new research is being planned or considered to support advancement of 
the livability goal?

A2b. The joint effort in 2006 by the Federal Highway Administration and 
Federal Transit Administration to revise and update the Statewide and 
Metropolitan Transportation Planning requirements contributed to the 
implementation of a ``livable communities'' model. The planning 
requirements were complex and comprehensive, and featured new 
components such as the required coordination between human service 
agencies and transit service providers to ensure that underserved 
populations had adequate and expanded mobility options. Many of the 
proposed changes in the planning requirements were founded on research 
studies carried out by DOT.
    Additionally, pilot research projects were implemented to 
demonstrate the outcomes and impacts of innovative transportation 
alternatives and livable communities' approaches. For example, SAFETEA-
LU provided a large infusion of funds to four diverse communities 
spread across the U.S. to allow the introduction of bicycle and 
pedestrian infrastructure, planning, and public outreach activities. 
The pilot communities used a share of available funding to undertake a 
rigorous evaluation of the effect of the program on bicycling and 
walking in each location.
    Research carried out by DOT and other federal partners have 
facilitated the creation and expansion of livable communities 
throughout the U.S. The HUD-DOT-EPA Interagency Partnership for 
Sustainable Communities--expanded in 2009--creates a platform for high-
level leadership in each agency to guide and oversee critical research 
efforts to better understand the connections between transportation and 
housing development, and community development initiatives that feature 
the wise use of energy and water resources.
    While livability is a newly-defined DOT strategic priority, it is 
an area several University Transportation Centers (UTCs) are already 
pursuing as components of their ongoing research portfolios. The DOT 
Research, Development and Technology (RD&T) Planning Team has also 
identified livability as a DOT Research Cluster topic and will have 
topic-specific groups of researchers meeting to share information on 
pursuits and results.
    Additionally, the Surface Transportation Environment and Planning 
Cooperative Research Program is a U.S. DOT (FHWA) led program that 
helps to improve understanding of the complex relationship between 
surface transportation, planning and the environment. The STEP includes 
research activities to develop models, understand transportation 
demand, develop indicators of performance, and meet other priorities. 
The results of this research will parlay well into the Department's 
livability efforts.
    FHWA is moving toward implementing a livability research project 
that has been identified as a part of the strategic initiative 
priorities for FY 2009 R&T Flexible funds. The objective of the project 
is to develop tools that can support and develop strategies to 
incorporate and promote livability communities. The project includes 
the development of a white paper that will describe livability, 
conducting livability workshops in various locations throughout the 
country to assist State and local governments and Federal agencies in 
improving coordination and identifying tools that are needed to further 
livability, the development of a toolbox of training materials on 
livability, development of a regional comprehensive livability plan 
that can be used by rural and urban areas to address livability in 
their region in anticipation of the upcoming transportation 
reauthorization and the development and implementation of a marketing 
plan that would support the promotion of the aforementioned tasks.

Q3.  Research Prioritization. How will the Department's increased focus 
on livability and sustainability result in changes to its R&D 
priorities? Will R&D to support livability and/or sustainability be 
paid for through new spending, or from cuts to other areas? If the 
latter, what research areas and/or programs will be reduced?

A3. The Department is still in the process of developing our strategic 
planning and research priorities, and as a result does not have the 
answer to this question yet. TIGER grants (Transportation Investment 
Generating Economic Recovery) have been very successful at funding 
desired attributes of transportation

Q4.  Research Earmarking. A recent National Academy of Sciences review 
of DOT R&D programs found that ``transportation research programs have 
experienced dramatic growth in earmarking'' in the last 15 years, and 
that this trend, (1) may push universities' energies in the wrong 
direction; (2) may undermine respect for science and jeopardize 
academic freedom; (3) can adversely affect mission-oriented research; 
and (4) reduces accountability for expenditure of public funds. (http:/
/pubsindex.tah.org/document/view/default.asp?Ibid=761938) Does the 
Department agree with these conclusions, and if so; what steps are 
being taken to reduce the earmarking of DOT research programs?

A4. The U.S. DOT believes earmarking seriously constrains the 
Department's achievement of its research goals and priorities. The 
large amount of earmarking done to U.S. DOT research programs may 
overly shape research at institutions and may obstruct the ability of 
research to improve our nation's transportation system. U.S. DOT is 
happy to work with Congress in communicating concern.

Q5.  Transportation data needs. In his written testimony, Mr. Pisarski 
lamented a lack of data to inform transportation policy, and called for 
DOT to fund a comprehensive transportation information needs assessment 
(TINA) that was mandated in SAFETEA-LU. What is DOT's position on Mr. 
Pisarski's recommendation regarding the mandate, and does it plan to 
fund the TINA project?

A5. U.S. DOT recognizes the importance of the Information Needs 
Assessment as a tool for identifying the data needs which are critical 
for transportation decision-making at the Federal, State and local 
level. The Information Needs Assessment was one of several mandates for 
Bureau of Transportation Statistics (STS) Given resource constraints we 
were unable to reach agreement with the National Research Council to 
carry out the Assessment.
    However, RITA/BTS and other modal agencies supported efforts by the 
Standing Committees of the Transportation Research Board (TRB) to 
address data and information needs. Approximately 140 out of 200 
Standing Committees identified more than 600 information needs, and a 
task force produced a white paper. The white paper emphasized the 
importance of understanding decision-maker needs in the development of 
data and analysis programs; underscored the value of reliable and 
sustainable national transportation databases; reminded us that, like 
any asset, data require investment of resources to produce a return of 
value; illustrated the efficiencies of sharing data across regions and 
agencies; and stressed the importance of the timely availability of 
data to support decisions.
    On December 10, 2009, TRB convened the first meeting of the 
Committee on Strategies for Improved Passenger and Freight Data. Alan 
Pisarski is a member of the panel and RITA/BTS and FHWA are sponsors. 
The Committee's work will address issues called for in the TRB white 
paper. Specifically, the study will assess the state of passenger and 
freight data at the federal, state, and local levels and develop a 
practical, achievable, and affordable strategy for collecting and 
funding essential passenger and freight information. The study will 
also recommend new data collection strategies as well as funding 
approaches, targeted to administrators of major surveys and data 
collection programs in the U.S. Department of Transportation and to 
policy makers who fund these programs.
                   Answers to Post-Hearing Questions
Responses by Neil J. Pedersen, Administrator, Maryland State Highway 
        Administration, Vice Chair, AASHTO

Questions submitted by Chairman David Wu

Q1.  Performance Metrics. In your testimony, you stated that 
inconsistencies in definitions hinder the development of performance 
measures and that AASHTO is working to determine appropriate surface 
transportation measures and how they should be applied. When will this 
work be completed and what areas does it cover (i.e., congestion, 
safety, environmental sustainability, etc.)? What impediments has 
AASHTO faced in determining appropriate performance measures?

A1. AASHTO has long endorsed each State DOT developing its own 
measures, standards, and reporting methods to meet the unique needs of 
their specific circumstances. Every state is different and needs the 
flexibility to customize their performance management standards, as 
opposed to developing singular, rigidly-enforced national standards 
that do not meet the true needs. Part of AASHTO's authorization 
recommendation include a ``back to basics'' federal program focusing on 
increased funding for priority areas of national interest, including 
preservation, freight, safety, operations, congestion, and the 
environment. The increased funding would be coupled with national 
goals, and states would be charged with defining the targets, as well 
as the strategies to reach these targets, within their own states. 
AASHTO feels that the most effective way to develop and deliver a 
performance-based federal-aid program is through a state-based 
approach, acknowledging that most of the states have already 
implemented key aspects of a performance management process.
    AASHTO is currently working to assist states to build on these 
efforts by creating more consistent processes in each state. The 
recommended process would have common key elements and measurement 
areas that each state could adopt, but each state would determine its 
own performance targets and strategies. Thus far, performance measures 
have been developed and adopted in concept by the Standing Committee on 
Performance Management of AASHTO for three areas--bridge preservation, 
pavement preservation, and safety. Work is needed, however, to develop 
guidelines and adopt them on uniform measurement techniques for the 
individual measures. The Committee is currently working to refine the 
candidate measures for traffic congestion and freight, and to develop 
candidate measures for system operations and the environment. It is 
anticipated that the additional performance measures will be developed 
and presented to the AASHTO Board of Directors within a two-year time 
frame.
    Impediments to developing performance measures have not arisen in 
the determination of the measures themselves, but in the methods states 
and locals currently use to measure these items and the associated cost 
and time it takes to change existing databases, modify collection 
methods, and implement new reporting mechanisms. Measures applicable to 
urban areas will need to be developed with the MPOs and transit 
agencies.

Q1a.  Could you describe how Washington State has implemented 
``effective community-based design'' or ``collaborative decision 
making?'' What other AASHTO members have followed Washington's model? 
What has prevented other members from following Washington's model?

A1a. AASHTO has worked with FHWA and advocacy groups to advance one 
collaborative decision-making tool called ``context-sensitive 
solutions,' or CSS. CSS is a collaborative, interdisciplinary approach 
to decision-making that involves all stakeholders in providing a 
transportation facility that fits is setting. It is an approach that 
works to preserve and enhancing scenic, aesthetic, historic, community, 
and environmental resources, while improving or maintaining safety 
mobility, and infrastructure conditions. Several states have followed 
these principles to advance transportation programs and projects in a 
collaborative manner with local citizens in ways that fit into the 
community and environment. Collaborative decision-making can lead to 
better relations with stakeholders and can result in expedited program 
delivery, which can save time and money. Simultaneous with this demand 
for more involvement from communities and other stakeholders, most 
transportation agencies are being asked to do more with less; 
therefore, it is more critical than ever that decision-making result in 
timely and cost effective solutions that work for the transportation 
agency and their stakeholders (i.e., doing the right thing the first 
time). Most states have adopted or utilize at least some aspects of 
context-sensitive solutions. Examples of states that have won accolades 
for their efforts to institutionalize CSS as part of their day-to-day 
program include Washington, New York, Utah, Illinois, and California.
    A new collaborative decision-making model is under development in 
the Transportation Research Board's Strategic Highway Research Program 
2 (IHRP 2), which was established by Congress as part of SAFETEA-LU. 
The objective of the ``capacity'' focus area is to develop a framework 
for reaching balanced, collaborative decisions on enhancing 
transportation capacity and to provide the tools for applying the 
framework. This new collaborative decision-making model may serve as a 
future way of doing business in highway project development in the 
twenty-first century, helping practitioners apply the most successful 
strategies for systematically integrating environmental, economic, and 
community needs into the analysis, planning, and design of new highway 
capacity. Transportation agencies are expected to be stewards of the 
environment with respect to natural habitats, wetlands, air quality, 
and greenhouse gas emissions. These agencies are also expected to serve 
as stewards of the community, delivering transportation capacity that 
people want and need. Because many interests are represented, finding 
the most appropriate solutions is challenging. Many of the strategies 
for accomplishing the objective are familiar to transportation 
agencies: consultation; ecological approaches to mitigation; practical 
or context-sensitive design; broad-based performance measurement; 
environmental justice; integrate corridor management; right-sizing; 
integrating planning and the requirements of National Environmental 
Policy Act; commitment tracking; and others. The next step is for State 
DOTs, MPOs, and their partners to pilot test the first release of the 
framework over the coming two years.

Q1b.  What is the AASHTO definition of sustainability? What metrics do 
AASHTO members use to assess the sustainability of their transportation 
systems?

A1b. ``Sustainability'' means different things to different people. 
Because of this, AASHTO is working with our members to define 
sustainability from the perspective of a state transportation agency, 
with the goal of helping states move toward a more efficient and 
effective transportation system that meets the needs of its citizens, 
the economy, and the environment.
    In 2007, AASHTO developed the report ``Transportation: Invest in 
Our Future,'' which urged transportation decision-makers to adopt the 
so-called ``triple bottom line'' approach to sustainability by 
evaluating performance on the basis of economic, social, and 
environmental impacts. Many states have focused their sustainability 
efforts on achieving this triple bottom line.
    Decision making in the context of sustainable transportation can 
take several forms: policy evaluation, project selection, alternatives 
evaluation, and impact assessment. It can also take the form of 
evaluating progress toward specific ``sustainability'' goals. The more 
common of the two types of decision making is the evaluation of 
progress toward sustainability goals. Most state DOTs perform this type 
of evaluation to some extent to track progress toward their goals. 
These evaluations are normally to track trends over time, compare with 
predetermined benchmarks, and compare between different areas. 
Washington and Hawaii have examples of such applications. Decision 
making where alternatives are assessed is still in the early stages of 
development. Multi-criteria decision making is an example of a 
methodology that can be used to evaluate the multiple and often 
conflicting objectives of sustainability. Recent examples of using 
multi-criteria decision making for sustainable transportation can be 
found at the regional level, corridor level, and street level.

Q1c.  In your testimony, you discussed the need for ``economic tools'' 
to assess life cycle costs and research to look at the long-term 
environmental costs and benefits of different transportation options. 
What are some examples of these economic tools and what research is 
needed to predict long-term environmental impacts? For both of these, 
you suggested tools that can offer long-term predictions. Do AASHTO 
members plan for 20, 80, or 100 year impacts?

A1c. There are several economic tools in existence or under development 
that can help to estimate the life-cycle costs of certain aspects of 
the transportation system, but an expansion of these tools is needed to 
truly meet the need. Often times, DOTs are forced into choosing the 
solution with the lowest capital cost, with full knowledge that a 
higher up-front cost could lead to lower maintenance costs or longer 
life for that infrastructure down the road. Communicating these trade-
offs in meaningful ways to our leaders and the public is crucial to 
using our limited resources to their best advantage.
    The Highway Economic Requirements System (HERS) model was developed 
by the Federal Highway Administration (FHWA) to examine the 
relationship between national investment levels and the condition and 
performance of the Nation's highway system. FHWA uses the model to 
estimate future investment required to either maintain or improve the 
Nation's highway system. FHWA provides this information to the U.S. 
Congress on a biennial basis. The state version of this software 
package (HERS-ST) can predict the investment required to achieve 
certain highway system performance levels; or, alternatively, to 
estimate the highway system performance that would result from various 
investment levels. HERS-ST considers capital improvement projects 
directed at correcting pavement and/or capacity deficiencies.
    The AASHTO Manual of User Benefit Analysis for Highways is another 
tool available for use by state and local transportation planning and 
policy officials in evaluating the user benefits of highway 
improvements. This manual and CD provide analytic tools to evaluate the 
costs and benefits associated with transportation improvement projects. 
This manual is currently being reviewed for update and expansion based 
on new research.
    To manage their infrastructure needs, many state DOTs are moving 
toward an asset management approach to determine the most appropriate 
time to perform strategic fixes to their infrastructure during its life 
cycle. An asset management system helps the transportation agency 
schedule cost-efficient maintenance procedures earlier in the life-
cycle to lengthen a structure's life, as opposed to allowing the 
infrastructure to deteriorate to the point where it is much more 
expensive to fix. A new NCHRP project (NCHRP 8-71) is working to 
determine when assets reach the end of their service life, including 
consideration of the cost and effectiveness of repair and maintenance 
actions that might be taken to further extend the asset's life 
expectancy. Different types of assets, such as pavements, bridges, 
signs, and signals, have very different life expectancies. In addition, 
asset life expectancy depends on the materials used, demands placed on 
the asset during use, environmental conditions, and maintenance, 
preservation, and rehabilitation activities performed.
    With regard to environmental research, one aspect of the 
Transportation Research Board's (TRB) second Strategic Highway Research 
Program (SHRP 2) is working to integrate conservation, highway 
planning, and environmental permitting using an outcome-based ecosystem 
approach. (SHRP 2 Projects C06-A and C06-B) This effort is based in 
part of FHWA's document Eco-Logical: an Ecosystem Approach to 
Developing Infrastructure Projects, which provides the conceptual 
groundwork for integrated conservation plans and mitigation activities 
that transcend individual agency jurisdictional boundaries and 
encourages an outcome-based ecosystem approach to conservation. The 
SHRP 2 projects are intended to provide the tools needed to implement 
the ecological approach. This new approach is a vast improvement over 
the piecemeal, project-by-project approach to environmental protection 
that is required by current environmental law and regulations. (Note: 
The document Eco-Logical is available online at: http://
environment.fhwa.dot.gov/ecological/ecological.pdf)
    Historically, states have used different time horizons for 
different purposes. For example, long-range regional transportation 
plans have typically used twenty to twenty-five years as their planning 
horizon. Often, these time horizons are constrained by the ability to 
predict future land-use patterns and the associated traffic that is 
generated by these land uses: In terms of facility design life, 50 
years or longer is not uncommon for bridges, and full-depth new 
pavements are designed with a life-cycle cost minimization approach 
that can be 50 years long. In terms of safety performance, five years 
is not uncommon for the effects of improvements to be measured.

Q2.  Improved Data Collection. All of the witnesses discussed the need 
for improved data collection. What are the problems with current U.S. 
DOT and State data collection efforts? At the hearing, you discussed 
the fact that the lack of standard methods hindered large-scale data 
collection. What has prevented AASHTO and its members from developing 
standard data collection methods? How does AASTO and its members plan 
to address the lack of data collecting, sharing, and standardization?

A2. Decisions made by transportation agencies across the country rely 
on the data that are collected. These data, in turn, are fed into a 
performance management system, which is used to measure the performance 
of the transportation system. However, there are issues to be resolved 
relating to the consistent use of the measures by all states.
    Several high-level issues and challenges have emerged from 
research, case studies, and a recent Leadership Forum held by AASHTO on 
this topic. Performance management systems at the state level have 
developed based on goals, measures, and targets that are relevant to a 
particular state; thus, because of the inherent differences between the 
states and the variation in goals set by the leaders of that state, the 
targets, measures, and even the data collected are different from state 
to state. In addition, each state has different capabilities in terms 
of resources and funding to develop data management systems to support 
performance-based decisions, and each DOT is at a different level of 
development of performance-based systems.
    Examples of issues that have been identified relative to specific, 
commonly-used measures within AASHTO's proposed goal areas are as 
follows:

        <bullet>  Pavement smoothness--while most states use the 
        International Roughness Index (IRI) to measure pavement 
        smoothness, there are differences from state to state in how 
        the IRI is measured and reported.

        <bullet>  Pavement condition--there is currently no national 
        standard for accurately characterizing the structural adequacy 
        of pavements, and the standards that exist do not consider the 
        full range of pavement distresses.

        <bullet>  Freight highway operations--there are inconsistencies 
        in measuring average speed on Interstate and NHS routes due to 
        differences that are attributable to significant variations in 
        terrain, infrastructure design and capacity, weather, 
        incidents, work zones, and time of travel Safety--measuring the 
        number of serious injuries resulting from crashes will be 
        inconsistent due to variations in the definitions of injuries 
        from state to state. In addition, the ability to acquire good 
        roadway and crash information on non-state highways is 
        problematic.

        <bullet>  Congestion--there are a variety of methods for 
        estimating vehicle-hours and person-hours of delay.

        <bullet>  Operations--there are currently no national standards 
        for measuring incident clearance times and delay due to lane 
        closures for work zones or weather events.

        <bullet>  Environment--transportation-related air quality 
        emissions are estimated, not actual measures.

    High-quality, consistent data are critical to successful 
performance management and, by extension, to achieving the overall 
goals and objectives of the transportation agency. Complex, system-
level transportation decisions require timely, understandable, and 
standardized data. However, the extent of data collection efforts must 
be balanced with the needs for which the data are being collected. Some 
of the major concerns of the State DOTs related to data are 
availability, quality, and affordability. The DOTs need to collect the 
most appropriate data so it can be used to make confident, robust 
decisions, not simply use data that happens to be available. Several 
state DOTs, such as Wisconsin, Florida, and Minnesota, are approaching 
data business planning by deploying data management or governance 
frameworks. Data management is the development, execution and oversight 
of architectures, polices, practices, and procedures to manage 
information as it pertains to data collection, storage, security, 
analysis, quality control, and reporting. Data management impacts 
people, processes, and technology, and includes data governance and 
stewardship.
    Two examples of recent advances at the national level that are 
based on data that have been gathered consistently over the past ten to 
twenty years are the Mechanistic-Empirical Pavement Design Guide and 
the Highway Safety Manual. The Pavement Design Guide is based on 
research and pavement performance data from the Long Term Pavement 
Performance (LTPP) program, which was established almost 20 years ago 
to improve pavement designs by helping to predict the life of pavements 
under various traffic loads. The Highway Safety Manual is the 
culmination of a 10-year effort, including multiple research projects, 
to assist agencies in predicting the potential safety outcomes of 
various highway improvements, such as widened shoulders, rumble strips, 
horizontal and vertical curvature, etc.

Q2a.  In your testimony, you also discussed the need for data 
collection technologies. What are examples of some of these improved 
data collection technologies? Who should be responsible for their 
development and what would you recommend to speed their deployment?

A2a. New technologies for collecting data are emerging every day, but 
their wide-spread implementation is not always easy or inexpensive. For 
example, GPS probe technology is being used as part of the U.S. DOT's 
SafeTrip-21 Initiative to track vehicles and provide real-time speed 
and travel time information in two test areas: the San Francisco Bay 
Area and the I-95 Corridor between North Carolina and New Jersey.
    The $14.6 million public-private effort in San Francisco was 
launched in April of 2008 by U.S. DOT, Caltrans, and private sector 
partners. This field test has five elements:

        <bullet>  Provision of alerts regarding safety, trip planning, 
        congestion, and transit conditions via GPS-enabled cell phones.

        <bullet>  A test of the ability of GPS-equipped cellular phones 
        to generate robust, quality probe data generate real-time 
        traffic information.

        <bullet>  Dissemination of real-time parking availability 
        information at key transit stations via changeable message 
        signs and GPS-enabled cell phones.

        <bullet>  A test of a work-zone monitoring device built into 
        traffic cones and barrels that monitors traffic and wirelessly 
        relays speed and queuing information for use in analyzing road 
        work restrictions, as well as facilitating efforts to suspend 
        road work when excessive traffic delays occur.

        <bullet>  Delay monitoring at signalized intersections to 
        generate real-time travel information along signalized streets, 
        as well as to provide data for signal re-timing purposes.

    The I-95 Corridor Field Test is a $6.4 million public-private 
effort that was launched in November of 2008 in an agreement between 
the DOT and the I-95 Corridor Coalition and its partners. Elements 
include:

        <bullet>  A web-based trip planner system to provide cross 
        jurisdictional, real-time information between key destinations 
        along the I-95 corridor using commercially available, real-time 
        traffic data derived from ``probe vehicles''.

        <bullet>  A test of web, wireless, and kiosk-based real-time 
        information on the status of ground transportation options--
        including transit, taxis, shuttle vans, and airportbus 
        services--to and from Baltimore-Washington International 
        Airport.

        <bullet>  Flat-panel displays of real-time nearby roadway 
        traffic information at three locations in the Washington 
        region.

        <bullet>  A work-zone monitoring device that will distribute 
        information to encourage travelers to seek less-congested 
        routes to avoid delays.

    The SafeTrip-21 Initiative is part of the U.S. DOT's IntelliDrive 
Program. This program conducts operational tests and demonstrations 
with the goal of accelerating the deployment of near-market-ready 
technologies that have the potential to deliver safety and mobility 
benefits to the traveling public.
    One of SHRP 2's strategic focus areas is looking into the role of 
human behavior on highway safety. This focus area will produce the most 
comprehensive information about driver behavior and driver interaction 
with vehicle and roadway ever collected. Researchers are conducting a 
``naturalistic'' driving study to investigate ordinary driving under 
real-world conditions in order to make the driving experience safer. 
Three thousand volunteer drivers will have their cars fitted with 
cameras, radar, and other sensors to capture data as they go about 
their usual driving tasks. Among the data collected will be: video 
images out the front and rear windshields; the passenger side view; the 
driver's face and hand position; speed; rates of acceleration; lateral 
and vertical motion; the presence of alcohol in the cabin; turn signal 
actuation; seat belt use, air bag deployment; objects in front of the 
car; and roadway information. The objective of the study is to produce 
a rich cache of data on driving behavior that researchers for decades 
to come can use as the basis for safety improvements. Nearly 500 
research questions have been gathered from safety researchers and 
practitioners, and are being prioritized according to their potential 
for improving safety.
    In the freight arena, there are several examples of new freight 
data collection technologies, and the use of these technologies will 
certainly expand and the number of technologies used will increase. 
GPS, cell phone, weigh-in-motion (WIM), virtual weigh stations, and 
electronic roadsides are collecting data now, some of which is being 
put to use specific to their underlying purposes and more generally to 
understanding freight movement better in order to support policies, 
programs, investment, and operations. However, it should be noted that 
there are concerns regarding the proprietary aspects of this data that 
make the collection process more complex.
    An example of a new freight data collection project is the FHWA/
American Trucking Research Institute (ATRI) partnership on Freight 
Performance Management. The ATRI (the research arm of the American 
Trucking Association) has an arrangement with three of the trucking 
communications companies to provide GPS data from the 600,000 on trucks 
on interstate highways nationwide, which is currently being used to map 
truck flows, identify chokepoints, and track traffic at land borders 
with Canada and Mexico. A similar example is found in Washington State 
where the state DOT has an agreement with several cell phone and GPS 
communications companies to provide real-time information on truck 
movement in the Puget Sound area to better understand the patterns of 
movement, origins and destinations, interaction with passenger 
vehicles, and implications for infrastructure investment and 
operations.
    In order to collect what has traditionally been closely-held 
propriety information, elaborate procedures have been developed to 
safeguard carrier identity and to guarantee non-disclosure of sensitive 
information. Thus, while it is possible to tap this data through new 
technology, it must be done carefully, and it raises longer-term issues 
concerning the availability of such data to all potential users. With 
other data generated by technologies such as WIM, virtual weigh 
stations, and electronic roadside, there are also issues related to 
proprietary data controlled by the providers of the technology and the 
possibility of compartmentalizing services and data based on multiple 
providers.
    As for deployment, no single model or sector emerges as the primary 
answer to speeding up the delivery of data collection technologies. 
Collaboration between the public and private sectors is key to 
delivering new technologies to improve our transportation system. In 
addition, communication is critical so that the needs and goals of the 
public sector are shared with the developers and implementers in the 
private sector. Encouraging collaboration and communication between 
these two sectors--through such things as increased funding, provision 
for public-private ventures, and the removal of restrictions that 
prohibit innovation--will provide tremendous benefits in developing and 
deploying new technologies.

Q3.  R&D Priority. Who should perform the research you recommended in 
your testimony on crash causation? As you know, a major focus of SHRP2 
is on understanding crash causation. You suggested that SHRP2 research 
be funded above the core $200 million funding for FHWA R&D programs. 
Why do you not consider SHRP 2 research on crash causation as a part of 
the core FHWA R&D program?

A3. The SHRP 2 Program is conducted independently under the auspices of 
the National Academy of Science. As such, the program engenders immense 
credibility due to its being competitively selected and subject to 
strict peer review standards. In addition, its multi-year focus is 
highly beneficial for a research program targeted at making significant 
advances in a relatively short period of time. The efforts being put 
forth as part of this targeted program are complementary to FHWA's core 
R&D program--as well as to other agencies' research programs, such as 
that of the National Highway Traffic Safety Administration--but go 
above and beyond what can be accomplished by FHWA alone given the wide 
range of activities these agencies must accomplish within their own 
funding allocations.

Q3a.  In your written testimony, you stated the need for more research 
to understand the effectiveness of laws designed to change behavior, 
such as those banning cell phones while driving. During the hearing, 
multiple witnesses commented that Europe has a better safety record 
than the U.S. in part because they strictly enforce traffic laws. Is 
much of the information you need to evaluate the effectiveness of 
strict laws and enforcement already available in Europe? How can we 
make better use of this information?

A3a. 1U.S. researchers have studied and will continue to study the 
effectiveness of what has been accomplished in the European Union, 
Australia, and other parts of the world, and determine what can be 
effectively implemented in the U.S.. However, we need to be cognizant 
of the inherent differences between our countries with regard to such 
things as constitutional protections (law enforcement in other 
countries can randomly pull drivers over without cause), behavioral 
aspects (many European nations have significantly stronger laws related 
to drunk driving and speeding), and other issues that are uniquely 
``American.'' For example, while automated speed control has been 
around for decades, it has only been implemented widely in two U.S. 
states due to privacy concerns (``Big Brother'') and the perception of 
it being a local money-making scheme. Thus, ideas from other countries 
are not always directly transferable to the U.S., and additional 
research and pilot testing need to be conducted to determine the 
effectiveness of any given application.
    AASHTO and FHWA currently collaborate on an international scanning 
program that sends expert teams of planners, engineers, and policy 
makers to other countries to bring back information on innovative 
technologies and practices that could significantly improve highways 
and highway transportation services in the United States. The primary 
goal of the program is the successful implementation in the U.S. of the 
world's best practices. The program enables innovations to be adapted 
and put into practice without spending limited research funds to re-
create advances already developed by other countries. And when each 
scan is complete, an implementation plan is developed--along with 
funding for carrying out the plan--for the most significant and 
promising technologies and policies identified on the scan. Over 75 
scans have been conducted in the past 20 years on topics such as 
safety, road pricing, performance management, freight issues, 
operations, infrastructure renewal, financing, and workforce 
development, with travel to Europe, Japan/China/Singapore, Australia/
New Zealand, India, and South Africa. However, this program is limited 
to 3-to-4 trips per year, while annual scan requests have numbered in 
the twenties. Thus, there is a great need to continue and possibly 
expand this program to accommodate the need for information exchange 
among all of the countries of the world.

Q3b.  You also recommended continued research on safety 
countermeasures. How do you define safety countermeasures and what 
specific priorities would you recommend in safety countermeasures 
research for the Federal DOT? Can you offer some examples of success 
stories from DOT safety research that have recently been adopted?

A3b. In the late 1990s, AASHTO approved its Strategic Highway Safety 
Plan, which was developed with the assistance of FHWA, NHTSA, and TRB. 
The plan includes strategies in 22 key emphasis areas that affect 
highway safety--such as run-off-the-road crashes, seat belt use, and 
drowsy/distracted drivers--with the goal of significantly reducing the 
annual number of highway deaths. Each of the emphasis areas includes 
strategies and an outline of what is needed to implement each strategy.
    From that plan, a series of guide was developed in the mid-2000s 
through the National Cooperative Highway Research Program (NCHRP) to 
assist state and local agencies in implementing specific strategies and 
countermeasures to address their safety issues. Many of these 
countermeasures--such as rumble strips, retroreflective pavement 
markings, and cable median barrier--are inexpensive to implement and 
have a strong track record of reducing particular types of crashes 
along our nation's highways. For example, Missouri DOT has 
systematically implemented rumble strips along its major highways and 
seen a significant drop in highway fatalities over the past few years. 
However, many other countermeasures do not have robust effectiveness 
data--or cost-effectiveness data--and, thus, have not been widely 
implemented. http://safety.transportation.or/guides.aspx
    In 2008, NCHRP completed a study entitled ``Effectiveness of 
Behavioral Highway Safety Countermeasures'' (NCHRP Report 622). A 
significant portion of highway safety program activities is devoted to 
behavioral countermeasures. These include the entire driver control 
system--from training and licensing to laws and enforcement, sometimes 
culminating in fines and sanctions. Given the enormous cost of crashes 
and the importance of driver behavior in highway crash reduction, it is 
important that behavioral countermeasures be implemented as effectively 
as possible. However, it is a huge challenge to accomplish this goal.
    Driver behavior can be changed, but it is not easily accomplished. 
Some behavioral countermeasures are effective; others, including some 
that are popular and widely used, are not effective. In addition, there 
are many complexities in assessing behavioral countermeasures--some 
that may not be effective on their own (e.g., certain public 
information programs) can be an essential feature when combined with 
other elements, and some programs that may be described the same way 
(for example, public information/education programs encouraging bicycle 
helmet use) can be different in significant ways that make one program 
effective, another not.
    Moreover, among measures that are effective, there is a wide range 
in how much they reduce the problem, depending on the effect size 
(e.g., a 5% versus a 25% reduction in highway deaths), the size of the 
population to which the measure applies, and the expected duration of 
the effect. There also can be wide differences in program costs, both 
monetary and non-monetary.
    The report provides a matrix documenting the effectiveness, costs, 
and benefits of existing behavioral highway safety countermeasures (to 
the extent that they are known) and the implementation issues 
associated with each. In addition, the report provides a framework for 
estimating the costs and benefits of emerging, experimental, untried, 
or unproven behavioral highway safety countermeasures.
    A complementary publication, produced by the Governors' Highway 
Safety Association, is entitled ``Countermeasures That Work: A Highway 
Safety Countermeasure Guide for State Highway Safety Offices.'' This 
guide provides information for selecting effective, science-based 
countermeasures for major highway safety problem areas.
    While these publications represent a significant step in evaluating 
the effectiveness of behavioral strategies to reduce highway crashes, 
more work needs to be done, including in the areas of speeding and 
alcohol enforcement. In addition, intersection safety, lane departure 
crashes, motorcycle crashes, and bicycle and pedestrian safety 
countermeasures need work. Some examples of success stories include the 
following:

        <bullet>  New Mexico has pursued aggressive alcohol 
        enforcement, including alcohol interlock systems on vehicles, 
        and has seen a reduction of DWI-related fatalities by nearly 20 
        percent in a three-year period.

        <bullet>  Missouri DOT has been implementing systematic safety 
        improvements on their highway system over the past several 
        years, such as rumble strips and median cable barrier, and has 
        seen a dramatic drop in fatalities.

        <bullet>  ``Naturalistic'' driving tests in Virginia have led 
        to the development of distracted driving countermeasures.

        <bullet>  Intelligent Transportation System (ITS) efforts are 
        leading vehicle enhancements related to lane departures, car 
        following, and distracted driving.

Q4.  Tech Transfer. The need to improve technology transfer for 
transportation research has been a consistent recommendation from 
AASHTO and other groups since the passage of SAFETEA-LU. What specific 
actions should DOT take to improve technology transfer? What are the 
criteria that should be used to evaluate DOT technology transfer 
activities?

A4. AASHTO and FHWA have utilized numerous methods over the years to 
``spread the word'' about new innovations and how they could benefit 
transportation agencies. One of the most effective methods of 
technology transfer has been face-to-face meetings, such as those that 
AASHTO hold throughout the year on specific topics or as part of 
routine technical committee meetings.
    Several years ago, Utah DOT asked its attendees at the TRB Annual 
Meeting to document what they learned at the conference, what they 
would implement, and how much benefit the DOT would derive from this 
implementation. Between 2003 and 2009, Utah DOT sent 49 individuals--
between 5 and 20 each year--to the TRB Annual Meeting. These attendees 
have introduced a total of 269 initiatives stemming from ideas gained 
at the Annual Meeting, and Utah DOT has implemented 136 of these as of 
October 2009. The cost-benefit ratio shows that the savings the 
Department gained far outweighed the cost of their attendance. Since 
the tracking process began in 2003, Utah DOT has realized a cost 
savings of more than $189 million by implementing initiatives in 
contracting methods, safety improvements, accelerated bridge 
construction, and other areas. In addition, some attendees reported 
additional, intangible benefits from the TRB Annual Meeting that are 
more difficult to quantify, such as information transfer, networking, 
and the ability to develop and maintain technical competency by 
attending technical and poster sessions.
    However, public perception persists that travel to meetings is a 
``perk,'' and with travel budgets being slashed, these meetings are 
becoming harder for government employees to attend.
    The use of internet technologies, such as webinars, has become a 
common substitute for meetings and is effective for ``getting the word 
out'' about new technology, and in these tight economic times they are 
a relatively low-cost way to reach a wide cross-section of people. 
AASHTO would welcome the opportunity to work with U.S. DOT to determine 
topic areas and formats for future webinars that would be most useful 
to the State DOTs and other practitioners in the field. Another 
potential option would be to survey the states to determine how many of 
their employees have participated in various technology transfer 
activities and how much benefit they received from this participation.
    Regarding evaluation criteria, it is much easier to measure the 
number of people who have participated in technology transfer 
activities (outputs) than to measure what has resulted from these 
activities (outcomes) and establish a cause-and-effect relationship 
between the activity and the improvement. However, we know 
anecdotally--such as from the Utah DOT example above--that these 
activities can provide a quantifiable benefit to an agency. AASHTO 
feels that continued dialog between consumers and providers will help 
to determine ways to improve the evaluation of these activities.

Q4a.  Mr. Skinner discussed the need for improved management of 
information resources. What type of informational resources do State 
DOT's need? Could you please give specific examples of how State DOTs 
have benefited from the DOT library?

A4a. State DOTs rely on information every day in all aspects of our 
work. Efficiency and credibility can be significantly impacted by the 
inability to find the information we need, slowing delivery or causing 
us to rethink decisions as new information emerges. Studies show that 
15-35% of employees' time is spent searching for information. In 
addition, a significant percentage of our transportation workforce is 
eligible to retire over the next decade. There is a need to improve 
management of and access to information--both to improve efficiency as 
well as to prevent the loss of knowledge that we've gained. Examples of 
information and data needs include, but are not limited to, the 
following:

        <bullet>  Project development: A lot of information has been 
        developed to support project delivery, but finding it can be 
        challenging as systems, processes, and people have changed. 
        Information needs include: materials used in previous 
        construction and the geology of the area; demographics; natural 
        resources; local plans; standards and specifications; policies; 
        regulatory requirements; best available science; alternate 
        design strategies; and much more.

        <bullet>  Improvement to practices: As regulations, standards, 
        policies, or resources change, or as problems are identified, 
        we need information to help shape changes in our practice, 
        Information used includes research findings, practices at other 
        organizations and sometimes in other fields, input from 
        experts, and information specific to the topic of interest.

        <bullet>  Integration of new policy objectives: New policy 
        objectives often require new information resources. A current 
        example is climate change. We need timely access to information 
        about: the impacts of and to transportation related to 
        anticipated climate change; practices in development or in use 
        by organizations; research, both on-going and completed; 
        experts and key managers. The Climate Change Clearinghouse 
        (http://climate.dot.gov/) is an example of an effort to improve 
        access to information on this topic. Information sources from 
        state and national sources are linked from this portal.

        <bullet>  Performance management: National expectations, 
        methods, and trends are needed for the development and 
        implementation of performance measures. Data and information 
        are needed on a variety of topics to manage performance 
        tracking and improve performance.

    The National Transportation Library (NTL) is working with State 
DOTs to improve practices in the capture and sharing of information. 
Improvements include: digital library practices within the 
transportation community for more rapid access to information; 
availability of data, reports, and publications from U.S. DOT modal 
administrations; and collection practices to avoid redundancy and 
stabilize our repository of information for current and future 
transportation practitioners. Access to information has been improved 
because of the NTL, but much more needs to be done. The report 
Implementing Transportation Knowledge Networks (NCHRP Report 643) was 
published by the Transportation Research Board in December 2009 and 
outlines steps needed to improve the management of and access to 
information used within the transportation community. Additional 
resources are needed to initiate and accelerate these improvements. 
Other fields such as health, agriculture, and education have benefited 
from networking information resources and, in the process, improved 
access to information for the private industry and the public as well.

Q5.  Organization. In your testimony, you identified six different 
entities involved in transportation R&D. Could you please rank these 
entities with respect to relevancy of the research to AASHTO members?

A5. As mentioned in my testimony, there are several components to our 
national transportation research effort that are supported with federal 
surface transportation funds. These various research entities play 
complementary roles, and each has its own place in national research 
and implementation efforts.
    For national-level issues that are common to a majority of the 
State DOTs, the federal programs--including FHWA, FTA, NHTSA, FMCSA, 
FRA, and RITA--and the Transportation Research Board activities--
including the cooperative research programs such as NCHRP--are all 
critical for utilizing pooled resources to resolve overarching issues 
that affect the transportation system as a whole.
    For more local and state-specific issues, research carried out by 
the individual State DOTs, often in conjunction with the University 
Transportation Research Centers, is important for answering questions 
that are priorities in those areas. Because research needs far outweigh 
the available resources at the national level (or at any level, for 
that matter), these local projects are very important to keeping local 
programs moving forward efficiently and effectively. It should be noted 
that the majority of funding for the State DOT programs comes from the 
federally-sponsored State Planning and Research (SP&R) program.
    The final component of the national research program is targeted 
research, such as TRB's policy-level research and the second Strategic 
Highway Research Program (SHRP 2), both of which work to make 
significant progress in specific areas.

Q5a.  How well is R&D coordinated across these entities and who is 
responsible for the coordination?

A5a. There is a significant amount of coordination taking place today 
between the entities involved in R&D, including Transportation Research 
Board-sponsored conferences, the development of research ``road maps'' 
in areas such as pavement and bridge preservation, and partnership 
efforts between agencies at various levels of government--federal, 
state, and local.
    Coordination is the responsibility of all, both at the agency level 
and the individual level. One of the first tasks of a research project 
is to identify existing research efforts related to the topic at hand 
through such means as the TRB-sponsored research databases--the 
Transportation Research Information Service (TRIS) database, which 
provides information on completed research, and the Research-in-
Progress (RIP) database, which lists ongoing projects. And these 
databases would not be effective if not for the efforts of the 
individuals and agencies across the country ensuring that their 
research efforts are listed and summarized for others to view.
    Informal coordination takes place daily in meetings and conferences 
across the country where researchers review each others' progress and 
provide input to continued work. The largest of these conferences is 
the annual TRB conference in Washington, DC, during which over 10,000 
attendees meet in sessions and committee meetings to discuss current 
and future endeavors.
    Another method for ensuring coordinated progress that has been used 
many times is the development of a ``road map'' in a particular subject 
area to guide researchers at all levels--government, university, 
private, and non-profit--toward a common goal. An example of such a 
road map is the Concrete Pavement Road Map, which is a comprehensive 
and strategic plan for concrete pavement research to guide the 
investment of research dollars over the next several years. 
Commissioned by FHWA, the development of this road map involved 
multiple partners, including TRB, State DOTs, the concrete pavement 
industry, several industry associations, contractors, materials 
suppliers, research universities, and concrete testing laboratories. 
From these meetings, approximately 250 problem statements were written, 
reviewed, fine tuned, and added to the research database as ``work to 
be accomplished'' via the Concrete Pavement Road Map. Additional road 
maps have been developed for pavement preservation and bridge research.

Q5b.  You also noted that all of FHWA's R&D funding was either 
earmarked or designated by SAFETEA-LU, leaving nothing for DOT to fund 
``mission related activities that the states depend on.'' Could you 
provide examples of some of these orphaned programs and the 
consequences that have resulted from their lack of funding? Also, 
within the context of R&D, how does AASHTO define earmarks? Does AASHTO 
oppose the practice of requesting earmarks?

A5b. Throughout its history and the history of its predecessor 
agencies, a core element of FHWA's mission has been to promote 
innovation and improvement in American's highway system. During the 
last few decades, this critical mission element has developed into a 
broad may of research and technology activities covering the spectrum 
of advanced research, applied research, technology transfer, and 
implementation. To maximize the effectiveness of these Research and 
Technology (R&T) activities, FHWA also carries out or funds a host of 
activities necessary to support a vibrant R&T program, including 
research administration, communication, coordination, conferences, and 
partnerships with other national and international organizations.
    Over the course of the last few authorization cycles, FHWA's R&T 
funding has been increasingly earmarked and designated until, under 
SAFETEA-LU, not a single discretionary R&T dollar was left to the 
agency. Because Congress authorized all of the funds for R&T to be 
spent on particular projects or research areas (often earmarking the 
funds to particular universities), FHWA was unable to fund a number of 
mission-related activities that the states depend upon. For example, 
there was no funding available for policy research, including 
infrastructure condition assessment; for updates to the Manual of 
Uniform Traffic Control Devices, which is the national standard for 
devices used to regulate, warn, or guide traffic; for FHWA's support of 
the Transportation Research Board (TRB); and for a host of other 
``orphaned programs.'' In addition, funding was curtailed for state and 
local safety programs, as well as research conducted in the labs at the 
Turner-Fairbank Highway Research Center.
    The most critical ``orphan'' was FHWA's Policy Program, which 
includes the Highway Performance Monitoring System (HPMS) and other 
data systems that drive the program, as well as the data that are used 
for analyses. FHWA's ability to explore policy questions, especially in 
looking at changes in travel behavior due to road pricing and other 
innovations, has been significantly limited.
    In addition, the lack of flexibility prevents FHWA from responding 
to changing national needs and crises--for example, the increased need 
for transportation security since 9/111/01. The states depend, directly 
or indirectly, on many of the activities carried out with FHWA R&T 
funds. FHWA needs to have the resources to carry out this aspect of 
their mission and the flexibility to carry it out in a responsive 
manner.

Q5c.  What are the ``core R&D programs'' at FHWA for which you 
recommended a funding level of $200 million per year?

A5c. AASHTO has recommended in its Authorization Policies that FHWA be 
provided with sufficient un-earmarked, non-designated funding to carry 
out research and technology (R&T) activities in all of its topic and 
mission areas, including structures, pavements, planning, environment, 
policy, operations, safety, and research and innovation support. In 
addition, enough funding should be made available to carry out the full 
range of R&T activities comprising the innovation cycle, including 
advanced research, applied research, technology transfer, research 
administration, communication and coordination, international outreach, 
and other R&T support activities. If Congress chooses to authorize 
other research programs of national priority, these should be funded 
over and above the core funding for FHWA's program.
                   Answers to Post-Hearing Questions
Responses by Ann Flemer, Deputy Executive Director, Policy, 
        Metropolitan Transportation Commission, Oakland, California; 
        Vice Chair, Intelligent Transportation Society of America

Questions submitted by Chairman David Wu

Q1.  Performance Metrics. You noted in your testimony that the first 
challenges to establishing national performance goals and measures will 
be to reach a consensus on what these should be. How should we develop 
a consensus on what the national performance goals and measures should 
be?

A1. The first step in the process would begin with the statement of 
Congress' intent that it is in the Nation's interest to measure the 
performance of the transportation system and the federal investment in 
that system. Following this, Congress would direct the U.S. Department 
of Transportation (DOT) to establish an advisory panel to research and 
make recommendations to the Secretary regarding appropriate national 
performance goals for safety, traffic congestion, travel delays, 
transportation-related emissions, and others deemed necessary for the 
performance of the multimodal transportation network. National 
performance goals should reflect the diverse challenges faced by urban, 
suburban and rural areas. Consensus will require-a clear understanding 
of how the goals will be used. One option would be to incorporate the 
goals into the federal transportation planning requirements to allow 
further definition in the context of state and metropolitan long range 
investment plans.
    The advisory panel should comprise stakeholders from across the 
transportation community including public agencies, private industry 
(including the technology sector), academic researchers, public policy 
experts, and nonprofit associations that represent the transportation 
user perspective. Many of these are already well-represented by 
national associations that can draw additional input from their 
membership in the course of the panel's work. The panel should hold 
public hearings to consider the types of performance-related data that 
are available today or could be collected using the state-of the-
practice in intelligent transportation systems, including ways to 
ensure uniformity of data across modes and jurisdictions, and ways to 
accelerate the deployment of a nationwide real-time transportation 
information system that would provide state and local agencies with the 
performance data they need to measure, monitor and actively manage 
their transportation system. A recently-released Government 
Accountability Office report entitled ``Surface Transportation: Efforts 
to Address Highway Congestion through Real-Time Traffic Information 
Systems Are Expanding but Face Implementation Challenges'' has already 
provided significant research in this area (available at: http://
www.gao.gov/products/GAO-10-121R).
    The advisory panel should provide their recommendations within one 
year to the Secretary, who should review the recommendations and 
respond expeditiously with a plan for establishing national performance 
goals for the state and metropolitan planning process, and a plan for 
confirming with state DOTs and MPOs the availability of transportation 
system information in each performance category. Note that this data 
should also be made readily available to the public, and could be 
published as part of a National Scorecard that would track progress 
toward meeting performance goals and/or targets.

Q2.  Improved Data Collection. All of the witnesses discussed the need 
for improved data collection. What are the problems with current U.S. 
DOT and State data collection efforts? At the hearing, you discussed 
the fact that deployment of data collection technology is slow and that 
there is a lack of accurate, uniform, userfriendly transportation 
performance data. What has prevented metropolitan planning 
organizations (MPOs) from developing standard data collection methods? 
How do MPOs plan to address the lack of data collecting, sharing, and 
standardization?

         (a) What are the impediments to widespread deployment of some 
        of the data collection technologies you mentioned?
A2. The availability and use of performance data at the state and 
metropolitan level is sporadic. Some areas of the country are already 
collecting, utilizing and disseminating real-time traffic and 
multimodal transportation information. Other areas have virtually no 
data collection systems in place. Systems that are in place often don't 
capture information across modes and jurisdictional boundaries. And 
most agencies are struggling to keep up with basic infrastructure 
maintenance, which competes for funding with data collection and other 
technology improvements for which there is no dedicated funding. Many 
agencies that do collect good data tend to focus their efforts on the 
areas of most immediate urgency to their jurisdiction, such as 
maintaining a state of good repair, rather than on improving system 
performance for transportation users. The U.S. DOT is beginning to move 
forward to implement Section 1201 of SAFETEA-LU which required the 
establishment of a real-time system management information program. 
However, as no funding has been made available in the legislation to 
comply with the mandate, the rule's implementation will likely rely on 
agencies to collect and disseminate real-time traffic data without 
providing additional resources to undertake the effort. The private 
sector has stepped up over the past few years to provide new data 
sources, as well as technologies to deliver that data to the public. 
But to take advantage of this real-time data on a nationwide scale, the 
federal government needs to play a stronger role in overcoming current 
impediments to widespread deployment, such as the: 1) lack of dedicated 
funding for real-time data collection technologies and operations; 2) 
lack of urgency at the state and local level in the absence of 
requirements to measure performance; and 3) lack of guidance from U.S. 
DOT on appropriate performance metrics and data standards to make 
progress toward uniformity and data sharing capability.

Q3.  Highest R&D Priority. What is the highest priority for ITS 
research at the Joint Program Office?

A3. One ITS research priority for the Joint Program Office stands out 
above the others because of the significant effort that has been 
invested to date: complete the research and accelerate the deployment 
of a nationwide interoperable IntelliDrive<SUP>SM</SUP> communications 
platform that holds significant promise for transforming our nation's 
multimodal transportation network. Providing wireless connectivity 
between vehicles from all modes, the transportation infrastructure, and 
consumer devices will open up a level of information and communications 
capability that represents the next generation of transportation 
safety, mobility and environmental solutions. Broad deployment of the 
IntelliDrive<SUP>SM</SUP> network will enable us to transition to a 
truly performance-based system based on real-time multimodal 
transportation data, and can provide the foundation to enable 
innovative transportation financing mechanisms. The U.S. DOT and many 
public and private sector partners have spent years and millions of 
dollars researching and testing vehicle-to-vehicle and vehicle-to-
infrastructure communications, and the ITS Joint Program Office should 
continue to focus on IntelliDrive<SUP>SM</SUP> with the goal of 
determining the best strategy for deploying this game changing 
technology as quickly as possible, including completing assessments 
they have underway related to policy, institutional roles and public 
acceptance.

Q4.  Tech Transfer. The need to improve technology transfer for 
transportation research has been a consistent recommendation from 
transportation interest groups since the passage of SAFETEA-LU. What 
specific actions should DOT take to improve technology transfer? What 
are the criteria that should be used to evaluate DOT technology 
transfer activities?

         (a) Also, for many ITS technologies, such as IntelliDrive, 
        understanding privacy, public acceptance, or other social 
        science issues would seem to be critical to encouraging 
        deployment. What is the role of social science in DOT R&D? In 
        particular for IntelliDrive, what social science research has 
        the program supported? What would you recommend to improve 
        social science research at DOT?

A4. Social science research plays a critical role in the successful 
transfer of technologies to the real world environment, and 
particularly so for a system like IntelliDrive<SUP>SM</SUP> that 
promises to bring our bricks and mortar transportation system into the 
wireless age. Public acceptance, privacy concerns, liability issues, 
the potential for driver distraction, and consideration of the levels 
of acceptance anticipated in the next generation of system users, are 
but a few of the areas that require additional research as we look 
toward full scale deployment of the system. We are pleased that the ITS 
Joint Program Office has recognized this and has just released a 5-year 
ITS Strategic Research Plan that includes a significant level of 
policy, institutional and social science research in addition to 
technical research. We are also pleased that RITA leadership has spoken 
out in favor of major real-world demonstration programs which we 
believe are critical for identifying and addressing potential social 
challenges associated with the successful deployment of an 
IntelliDrive<SUP>SM</SUP> network, which has already been through 
rigorous technical testing. ITS America and many other public and 
private sector leaders are recommending a large-scale model deployment 
program--the Smart Cities and Communities Initiative--that would 
designate several cities, communities, and corridors to serve as tech 
transfer and operational testing sites for IntelliDrive<SUP>SM</SUP> 
and other advanced technologies in order to provide real-world 
laboratories for the integration of multimodal ITS solutions.
    Technology transfer activities in general should be evaluated based 
on the technology's ability to improve the performance of the 
transportation system, and the prospects for successful real-world 
deployment and operation. Under the Smart Cities and Communities 
Initiative, each site would be required to establish clear performance 
objectives, consistent with national performance goals, for multimodal 
investments and use of advanced transportation management systems. 
Performance metrics would include areas such as traffic-related 
accidents, congestion and emissions levels, system performance 
optimization and access across transportation modes (i.e., transit, 
bicycles, pedestrians, automobiles), and success at providing real-
time, user friendly information to the public to make more informed 
multimodal travel decisions. Selected sites would be required to 
perform rigorous data collection and analysis and report back to 
Congress on the deployment and operational costs, safety, mobility and 
environmental benefits, challenges and lessons learned, and 
recommendations for future research and deployment strategies. In 
addition to providing real-world research and data on the costs and 
benefits of advanced ITS integration, the initiative would provide an 
ideal test bed for the transfer of public sector, private industry, and 
university research into the real world setting.

Q5.  Participation of Stakeholders. You noted that stakeholder 
involvement is critical for DOT research. Who are the stakeholders for 
ITS research funded by the DOT? What is the optimal model for 
stakeholder involvement in DOT ITS priority setting? What criteria 
should be used to see that DOT is meeting the goal of extensive 
stakeholder involvement?

         (a) You noted the importance of the private sector in such 
        capacities as aiding the deployment of ITS technologies or 
        creating innovative uses for system performance data. Could you 
        please offer details on how private sector entities support 
        these goals? How effectively has the DOT engaged with the 
        private sector?

A5. As reflected in the membership of ITS America, the ITS stakeholder 
community is one of the most diverse yet all encompassing communities 
of any field. It includes state DOTs, MPOs, transit agencies, local 
governments, university transportation centers (UTCs), other 
university-based research leaders, federal labs, environmental and 
safety advocates, highway and transit users, business associations, and 
private sector companies from automakers, transit providers and 
commercial carriers to tolling companies, general contractors, consumer 
electronics firms, real-time data providers, technology integrators, 
traffic equipment manufacturers, and many other fields. The 
organization's membership covers a wide spectrum of interests, from 
some of the nation's largest technology firms to some of the smallest, 
most rural counties. In addition, state and local agencies, private 
industry, and academic leaders in nearly 40 states are represented by 
active ITS State Chapter organizations that represent thousands of 
additional stakeholders at the state and local level.
    This broad community reflects the fact that ITS plays an important 
role in nearly every surface transportation mode, and is a critical and 
increasingly utilized solution for everyone from traffic engineers, 
transit operators and commercial carriers to the commuter trying to get 
home to his or her family after a long day at work. This last 
category--the public who depends on a safe and efficient transportation 
system--is a critical set of stakeholders that can be included in the 
process like never before thanks to the availability of Internet-based 
collaborative tools.
    The U.S. DOT utilizes a Congressionally-mandated Federal Advisory 
Committee as one mechanism for receiving input on ITS research 
priorities. However, given the breadth of the stakeholder community, 
the ITS Joint Program Office has a challenging task in involving all of 
the necessary stakeholders in the process. One way to strengthen this 
outreach would be to explore the utilization of ITS America's 
membership, extensive State Chapter network, and committee structure to 
solicit meaningful input and reach the broadest set of public and 
private sector stakeholders.
    By engaging the private sector more directly as part of this unique 
public-private collaborative environment, U.S. DOT and other public 
sector stakeholders could benefit from learning about the latest ITS 
technologies and solutions, and the private sector could be better 
informed about current transportation challenges as they are conducting 
research and developing new products and services. A great example of 
the benefits of such collaboration is the current distracted driving 
debate. Having a collaborative forum between U.S. DOT, state and local 
governments, the automotive, transit and commercial vehicle sectors, 
aftermarket and consumer electronics industries, safety advocates, GPS 
device manufacturers, real-time data providers, and others would 
provide an opportunity for those involved to share information and work 
together to address the technical, policy, and behavioral challenges 
associated with distracted driving. The U.S. DOT sponsored Distracted 
Driving Summit was a great start in bringing the stakeholder community 
together, but ongoing collaboration is critical as Members of Congress, 
U.S. DOT, and many states are working to craft legislation and 
regulations.
    ITS America was originally created as a Federal Advisory Committee 
to U.S. DOT. While the organization has since expanded beyond this 
role, we continue to work with the ITS Joint Program Office to more 
fully utilize ITS America's membership, extensive State Chapter 
network, and committee structure, as a nonprofit neutral forum for 
stakeholder engagement.
                   Answers to Post-Hearing Questions
Responses by Alan E. Pisarski, Independent Consultant

Questions submitted by Chairman David Wu

Q1.  Definitions. In your testimony, you stressed the importance of 
attributing tangible definitions to terms such as ``livability'' and 
``sustainability'' before considering programs or funding in these 
areas. How much time and funding would it take to develop clear 
definitions for these?

A1. Definitions. This research will involve both technological research 
and political science research as well to turn aspirational statements 
into viable, actionable performance goals. I would see it like this:

         a. Set the boundaries clearly. What is ``in'' and what is 
        ``out''? Is congestion relief part of livability? Is increased 
        access to jobs? What about freedom of choice re housing and 
        life styles? Is there a national sense of livability, a 
        livability standard, or doesn't it really vary from state to 
        state and within states? Isn't the meaning of livability 
        different in different places?

         b. Set the parameters for those elements defined as ``in 
        scope.'' Can the Travel Time Index, developed by Texas 
        Transportation Institute, be adopted as a national standard, a 
        national goal, for congestion, or some other option employed--
        e.g. total weekly delay per worker? Is there a national 
        standard for density? for walkability?

         c. Should we really define National Standards? Do we really 
        want a national standard for congestion reduction; for access 
        to transit service; to the number of side walk cafes we can 
        walk to? Is an increase in walking to work a sign of amenity 
        and also a sign of increased poverty? This would require 
        research on the unintended consequences of setting such 
        standards. (Sweden years ago adopted a floor space livability 
        standard requiring a minimum square footage per household which 
        forced young married couples to live with their parents, until 
        they could afford ``the standard.'')

         d. Funding allocations can be considered--after cost 
        effectiveness testing and comparative analyses focused on 
        outcomes, and the establishment of mechanisms for judging 
        results--many livability proposals are very long term in nature 
        but should not be funded based on their level of aspiration. 
        Funding should be based not on forecasted results, nor hoped-
        for results, but results. Realistically, transportation often 
        is simply an enabling technology for most if not all livability 
        concepts and the success or failure of goals will stand outside 
        transportation decisions.

         e. It would require a minimum of a year (probably more) to get 
        boundaries established and suggested performance measures for 
        those bounding parameters. The political science part involving 
        gaining ``buy in'' from the participation of interested parties 
        in the outcomes could take another year--or years. It should be 
        recognized that Eurostat, the statistical arm of the EU, a 
        capable and well-funded entity, has been at this for decades. 
        Treated like a commission effort two to two and a half years 
        and 5 million dollars would be the right scale. If it were 
        treated as a regulatory process based on enacted legislation 
        then it might be done with less time and cost. (recall that in 
        ISTEA, after more than two years of effort to define the 
        aspirational statements regarding Information Systems, which 
        were far more tangible than the present DOT goals, the attempts 
        to form regulations were abandoned. Three of the five 
        ``Information System'' mandates were never acted upon. The two 
        remaining were fundamentally engineering-based (bridges and 
        pavements) and had been pretty much in place before. The final 
        regulations were reduced to ``read the legislation.'')

Q2.  Improved Data Collection. In your testimony, you cited many 
institutional failings at DOT that have resulted in a lack of focus and 
leadership on data collection needs--What would you recommend to 
correct the failings you cite? In particular, for the Bureau of 
Transportation Statistics, what are the ``challenges is faces'' that it 
has failed to address? What would you recommend to fix these 
shortcomings?

         (a) You also commented that DOT has not shown leadership in 
        the research and testing of new data collecting technologies. 
        Who at DOT should be responsible for these activities?

A2. Improved Data Collection. It appears that in recent years the DOT's 
approach, and certainly that of its BTS, is to do what they think they 
are capable of, given present staff capabilities and funding 
constraints, rather than what needs to be done. This, in fact, was 
codified in a BTS mission statement a number of years ago. This modesty 
may be well placed, but the Department needs much more, whether by BTS 
or others. There has not been a statement of the needed information 
program for the Department to meet its legislative and programmatic 
responsibilities. The 1969 Transportation Information ``Red Book,'' in 
response to a Congressional request, was one such broad statement. 
After 40 years it still eludes the Department's capabilities. There was 
something referred to as ``The Horse Blanket''--a matrix of data 
collection requirements that ``covered everything''--all modes, all 
aspects, all intersecting sectors of the economy, all levels of 
geography, etc., produced in the early days of BTS when aspirations 
were higher. There have been innumerable statements of needs, and about 
needs, by the TRB of the NAS, as indicated in my testimony. The 
research has been there--what is needed now in the research process is:

        <bullet>  Refinement and updating of the needs assessments.

        <bullet>  Establishment of connectivity with the user community 
        to vet these needs assessments.

        <bullet>  Establishment of the boundaries of the program: what 
        can/should be done by the private sector and what is 
        appropriately a public function; what is federal--what is State 
        and local?

        <bullet>  Assessment of the intersecting activities and 
        responsibilities of other data collection agencies and 
        programs.

        <bullet>  This should be done as a joint effort of all data 
        collection entities within the department and could involve one 
        year staff re-assignments between BTS and other statistical 
        agencies of the Department and outside agencies.

        <bullet>  Development of estimates of times and costs.

        <bullet>  Development of a strategic plan setting priorities, 
        recognizing targets of opportunity, and the requirements and 
        capabilities of all departmental entities.

    The BTS must recognize its multi-fold action responsibilities in 
this area, including:

        <bullet>  Leading by example; demonstrating effectiveness in 
        resource allocation, statistical expertise and responsiveness. 
        Ultimately it can act as a convener, or support to the 
        convener, of the statistical agencies in the Department to 
        coordinate programs;

        <bullet>  Assessing and guiding the overall program of the 
        Department, focusing on the continuing, long term, ``flag 
        ship'' data programs of the agency;

        <bullet>  Acting as an independent data collection activity, 
        particularly regarding trans-modal efforts;

        <bullet>  Conduct, or cause to be conducted, immediate action 
        as well as long term research into improved methods of data 
        collection; \1\
---------------------------------------------------------------------------
    \1\ The BTS has this responsibility, but could delegate or 
coordinate research efforts with the Department's Administrations where 
their expertise or special capabilities indicated they provided greater 
comparative advantage. This responds to the question raised in the 
Chairman's sub-question 2(a).

        <bullet>  Representing the Department's and the transportation 
---------------------------------------------------------------------------
        sector's needs in the Federal statistical community;

        <bullet>  Serving as the focal point for the many elements of 
        the transportation community to make their needs known;

        <bullet>  Acting to assure that a national repository of 
        transportation information is established and maintained;

        <bullet>  Reporting on the state of statistics in 
        transportation for Secretarial and Congressional review.

    In short I would say that the intent needs to be to bring clarity 
to transportation information needs, capabilities, and 
responsibilities; and action-ability to the public-private, federal, 
state and local responses.

Q3.  ITS. You testified that ``one of the great research-driven areas 
of potential success in the future . . . will be the increasing 
automation of personal vehicle travel as well as buses and trucks.'' 
Who should do this research, the federal government or the private 
sector? What is currently being done in this area?

         (a) You described a failure among transportation agencies to 
        recognize and incorporate technological solutions and instead 
        rely on attempting to change behaviors. What are the bathers to 
        implementing existing technologies and how can they be 
        overcome?

A3. ITS. This ``revolution'' may be more evolutionary perhaps--
evolutionary in its technological accomplishments but revolutionary in 
its pay-offs in safety, mobility, infrastructure investment and energy. 
The main barrier to implementation is a chicken-and-egg problem: motor 
vehicle manufacturers have little incentive to build intelligent cars 
until we have intelligent roads; yet highway agencies have little 
incentive to make highways intelligent until we have intelligent cars. 
We are seeing amazing incremental improvements occurring now that are 
solely vehicle-based with little or no roadway connection: cars that 
can park themselves, avoid collisions, maintain fixed distances behind 
other cars, stop a stolen car and guide police to the site, and even 
steer themselves on highways. But next steps will require the 
involvement of a smart road system. the ``TII'' effort, a renaming of 
ITS efforts, is now renamed ``Intellidrive.'' This needs to be meshed 
with the internal vehicle improvements. The ``corporate'' approach 
developed by RITA has many of the attributes that seem required to lead 
this effort within the Department. One aspect, would certainly require 
AASHTO and the States to establish a coordinating body acting with 
federal and private sector players in a concerted effort to assure that 
the states and other owners of major roadways are prepared for the 
future in terms of research, design standards and regulations that 
incorporate private and public research enhancements. Perhaps the major 
aspect will be integrating the efforts of the private sector--car 
manufacturers and others--with federal and state efforts. Some 
proponents see the potential for driverless highways by 2020 and a 
completely driverless system by 2030. The key will be in establishing 
the institutional capabilities along with the technological. If there 
is an area for the U.S. to establish its world technological 
competitiveness and leadership this would be it.

Q4.  Role of Social Science. In your testimony, you highlighted the 
need for research on economic impacts, and other impacts, resulting 
from the development of a transportation system designed to serve a 
high income/high value society. What type of economic and sociological 
research does DOT currently support? What would you recommend for 
improving social science research at DOT?

A4. Role of Social Science. The DOT has never fully embraced social 
science research in its programs. In this I exclude some applied 
efforts especially cognitive psychological work in the safety area. I 
include in social science research two main areas: economics; and 
sociological research.

        <bullet>  Economics area. The Department has a number of 
        scientists referred to as Chief Economists but these actors 
        have not--to my knowledge--ever managed a substantial research 
        program in the economics of transportation and most certainly 
        have not been able to effectively extend transportation 
        understanding in the interactions of transportation with the 
        greater economy. This would yield great benefits in assessing 
        and justifying transportation investment. Absent recessions we 
        do not know how to justify transportation investment other than 
        in jobs creation. This is a major weakness in the department 
        and throughout transportation. Three programmatic examples: (1) 
        the BTS, learning from other economic sectors (i.e. tourism 
        research at Dept of Commerce and BEA), began the early 
        development of transportation satellite accounts to the 
        national income accounts of the US. Such accounts can 
        rigorously and comprehensively define transportation's role in 
        the economy, for example, as a share of the GDP, fax more 
        effectively than in the standard accounts which only counts 
        for-hire services as transportation. This work ended after 
        several years of very effective research without any 
        explanation by BTS and has not been updated. (2) research 
        efforts were underway at one time to establish the entire U.S. 
        transportation system's asset value, as part of the GASB 34 
        effort. Again this was a one-time effort and has not been 
        repeated. It would be very powerful to know whether the 
        national asset value, in highways or transit properties for 
        example, is increasing or decreasing, due to current levels of 
        maintenance. (3) FHWA conducted over a number of years the most 
        effective and well respected research on the economic benefits 
        of highway investment. It was conducted by M. Ishag Nadiri, a 
        noted professor of Economics at NYU, and was vetted extensively 
        in the economic literature. It used input/output analyses and 
        complex equations to establish the economic contributions to 
        national productivity of highway investment. This work ended 
        largely due to loss of staff at FHWA and Dr. Nadiri's role as 
        senior advisor to the President of Afghanistan. This kind of 
        work must be reestablished. These are only examples of what has 
        been begun and lost. Other areas, equally fertile, such as 
        issues of transportation's role in economic competitiveness, 
        await.

        <bullet>  Sociological Area. We all seem to implicitly accept 
        the value of mobility in our daily lives but do not have the 
        sound research that could describe and quantify it. This would 
        be immensely valuable for both individuals and distinct 
        socioeconomic groups. We know that as income rises people 
        demonstrate the value they place on mobility by spending more 
        on it -in total dollars and as a share of all spending. 
        Immensely valuable would be to examine the social and economic 
        consequences for those who lack mobility. What effect does it 
        have on access to employment opportunities, to social services, 
        to the prices they must pay for goods. There has been limited 
        research that shows that as congestion increases its effect on 
        work trips the public tends to interact less with others in 
        such mid week activities as PTA and community activities. A key 
        discovery regarding recreational activities was that the 
        African-American population had seen increases in intercity 
        travel greater than the increases by the general population in 
        the 1995 American Travel Survey; but they had not reached the 
        level the general population had when the last survey had been 
        done in 1977. This survey has not been repeated since 1995. 
        With an aging population, more workers in the senior age groups 
        and new immigrant populations dramatically changing the 
        nation's demographic structure, this kind of work is essential. 
        Moreover, if public policies lead to policies to restrict auto 
        travel and raise its costs through taxes, cap and trade, or 
        congestion pricing, etc., we must understand the impacts on 
        those on the periphery of access to automobility. Much of this 
        social science research will be central to any meaningful 
        concept of livability.

        <bullet>  The great research questions re transportation today 
        fall in the interstices between modes and often fall outside 
        standard subject areas. Much of the needed research falls into 
        the ``Transportation and--'' category, such as: transportation 
        and energy; and air quality; and safety, and international 
        competiveness, and the society, and the good life. There is 
        much that we don't know.
                   Answers to Post-Hearing Questions
Responses by Robert E. Skinner, Executive Director of the 
        Transportation Research Board, The National Academies

Questions submitted by Chairman David Wu

Q1.  Improved Data Collection. Could you please give some specific 
examples of the ``major gaps and problems with available data'' 
supported through U.S. DOT R&D budgets? How have such gaps developed?

A1. Improved Data Collection. Please give specific examples of major 
gaps and problems with available data.
    In my testimony I refer to data collection as among the activities 
funded through U.S. DOT R&D programs, but did not intend for this to be 
interpreted as indicating that data gaps and problems are limited to 
those programs funded by U.S. DOT. Indeed, some of the most important 
sources of transportation data come from surveys funded by the Census 
Bureau. There are many issues about the adequacy of data available for 
making decisions about investments and programs at all levels; I 
highlight some major ones below:
    Safety. One of the reasons for the SHRP 2 safety program is that we 
lack good information about the causes of crashes. U.S. DOT has good 
statistics on deaths and injuries in transportation and reasonable 
estimates of total crashes, but these data alone are not adequate for 
understanding the events precipitating a crash. In order to reduce 
crash incidence, we need to understand better why they occurred. Such 
information is extremely difficult to obtain for many reasons, which 
vary across modes, but are largely due to the complexity of the events 
and, frequently, to the lack of objective witnesses. The SHRP 2 safety 
program will help fill these gaps for the highway mode by providing 
information about how automobile drivers react and respond to crashes 
and near-crashes.
    System Performance. In TRB's recent report, Funding Options for 
Freight Transportation Projects, the authoring committee observes that 
a much clearer link is needed between investments made and the 
resulting performance of the system.\1\ To quote the committee, 
``highway congestion is not systematically measured, and therefore the 
scope and the costs of the problem, and how users are coping with it, 
are poorly understood.'' \2\ As noted in this report, the nation lacks 
measures of how well all freight modes are performing, because such 
freight data collection systems as exist were not designed to collect 
this kind of data.
---------------------------------------------------------------------------
    \1\ TRB Special Report 297. Funding Options for Freight 
Transportation Projects, Transportation Research Board of the National 
Academies, Washington, D.C. 2009.
    \2\ TRB Special Report 297, p. 56.
---------------------------------------------------------------------------
    The Commodity Flow Survey (CFS) is funded by U.S. DOT and 
administered by the Census Bureau. The CFS is the principal source of 
information about intercity freight movements for the Freight Analysis 
Framework (FAF) tool that the Federal Highway Administration develops 
for estimating freight flows between regions. Such information is 
essential for planning for capacity. The CFS, however, does not capture 
imports or agricultural and certain retail shipments, which represent a 
significant share of goods movement.\3\ Moreover, FHWA's FAF and other 
models for estimating demand placed on highways also depend on having 
reliable estimates of the number of trucks and their total use. Such 
information was provided by the Census Bureau's Vehicle Inventory and 
Use Survey, which was ended for budgetary reasons. This is forcing FHWA 
to extrapolate from 7-year-old data over a period in which the economy 
has changed significantly.
---------------------------------------------------------------------------
    \3\ TRB Special Report 277. Measuring Personal Travel and Goods 
Movement: A Review of the Bureau of Transportation Statistics' Surveys. 
Transportation Research Board of the National Academies, Washington, 
D.C. 2003.
---------------------------------------------------------------------------
    Information for Regional Investment Decisions. Metropolitan areas 
are required by federal law to plan long-range capital improvement 
programs that are consistent with states' implementation plans under 
the Clean Air Act.\4\ Most areas inform the planning process through 
travel, and sometimes also land use, models that forecast future supply 
and passenger demand for highway and transit facilities. With growing 
interest in relying on non-highway options for meeting travel and 
accessibility needs, it becomes increasingly important to represent in 
these models features that affect mode choice, such as distances 
between residences and employment and transit stops, which require 
detail at. much smaller units of geography than before. Also needed is 
information about existing trips by transit, bicycle, and walking that 
take place within small areas as opposed to simply between one part of 
a metropolitan area and another.
---------------------------------------------------------------------------
    \4\ TRB Special Report 288, Metropolitan Travel Forecasting: 
Current Practice and Future Direction. Transportation Research Board of 
the National Academies, Washington, D.C. 2009.
---------------------------------------------------------------------------
    Regions have traditionally relied upon Census Bureau surveys for 
information about journey-to-work trips, which today are provided 
through the American Community Survey (ACS). However, a combination of 
policies to avoid disclosing respondents' identities, shift from a 
decennial to a year-by-year data collection, and declining resources 
for statistical programs will result in metropolitan areas receiving 
less detailed and less reliable data on use of non-highway modes, 
particularly in smaller geographic units, than they have received in 
the past.\5\ Many states and regions rely on U.S. DOT's National 
Household Travel Survey (NHTS) for estimates of trips for all purposes. 
These data are nationally representative only, except for those states 
and regions that pay for over-sampling within their jurisdictions, 
which provides expanded coverage in 16 states.
---------------------------------------------------------------------------
    \5\ See CQ Weekly, Not Enough Information, Dec 7, 2009, pp. 2800-
2816, for a good overview of resource constraints on the ACS that are 
reducing sample sizes and increasing sampling error.
---------------------------------------------------------------------------
    Regional travel models do not represent commercial and freight 
trips within metropolitan areas. Data on intra-regional commercial and 
freight trips simply are not collected, yet use of diesel engines 
within metropolitan areas can be a significant factor in pollutant 
emissions and the ability to meet federal and state air quality 
standards.
    Intercity Passenger Travel. In 1995 the U.S. DOT conducted a survey 
of multimodal long-distance trip making (The American Travel Survey), 
which is the last large-sample survey of its kind reporting on round 
trips of more than 100 miles by mode.\6\ Resources have precluded a 
repeat of this survey. Given the renewed national interest in intercity 
passenger rail, the absence of information about intercity passenger 
trips accompanied by socioeconomic and demographic information about 
travelers represents an important gap in determining promising 
corridors for investment.
---------------------------------------------------------------------------
    \6\ The National Household Travel Survey asks for information about 
long-distance trips, but because these trips are infrequent, and given 
the relatively small sample of the NHTS, the number of trips collected 
is too small for substantive analysis.
---------------------------------------------------------------------------
    The above examples indicate important gaps in available data. 
Examples of many other limitations of available data are provided in 
Shofer et al. 2006.\7\
---------------------------------------------------------------------------
    \7\ Shofer, J., T. Lomax, T. Palmerlee, and J. Zmud. 2006. 
Transportation Information Assets and Impacts, An Assessment of Needs. 
Transportation Research Circular E-C109. Transportation Research Board 
of the National Academies, Washington, D.C.

Q2.  R&D Priorities. TRB recommended a number of research topics in 
Special Report 299 to mitigate the impact of the transportation system 
on the climate. How did you ensure that the report is not recommending 
---------------------------------------------------------------------------
DOT perform research that is already being done by other agencies?

A2. R&D Priorities. How has TRB ensured that the research recommended 
in Special Report 299 was not already being done by other agencies.
    The committee that prepared TRB Special Report 299, A 
Transportation Research Program for Mitigating and Adapting to Climate 
Change and Conserving Energy, reviewed in detail the R&D programs of 
the Environmental Protection Agency and the Department of Energy and 
did not find examples of the recommended research under way in these 
agencies.\8\ Searches were also made of an NSF database of funded 
research projects. As noted in the report, the committee found 
scattered examples of projects on related topics under way in 
universities, but noted that such isolated projects were not of an 
adequate scale or coverage to address the decisions that will be faced 
by federal, state, and local authorities.
---------------------------------------------------------------------------
    \8\ See Chapter 2 of the report.

Q2a.  A number of the topics you recommended for greenhouse gas 
mitigation strategies seem to have strong social science components. 
Generally, across all topics, how well has DOT supported the social 
sciences? If support has been lacking, what would you recommend to 
---------------------------------------------------------------------------
ensure stronger social science research?

A2a. (a) Support of social-science research at U.S. DOT.
    TRB committees have not had the occasion to address this question. 
I can observe that U.S. DOT research is not characterized by discipline 
in any database that I am aware of and that the transportation field 
itself is multi-disciplinary. Whereas much of U.S. DOT's research is 
surely engineering-oriented, the modal administrations fund safety 
research on human behavior; U.S. DOT's policy and planning research, 
includes economic and behavioral topics; U.S. DOT's survey programs 
rely on social science methodologies; and even some infrastructure 
topics, such as asset management, are informed by economics. 1 am not 
aware of whether research funded through the University Transportation 
Centers (UTC) Program is characterized by discipline, but several UTCs 
focus on planning, policy, and other topics that rely heavily on the 
social sciences.

Recommendations to support social science research.
    The U.S. DOT generally suffers from not having a budget for policy 
research, which depends heavily on economics, political science, and 
other social-science disciplines. Restoring funding lost for policy and 
planning research, as recommended in Special Report 295, would 
certainly be a step in the right direction.\9\ Moreover, much of the 
fundamental mitigation research recommended in Special Report 299 would 
be in the social sciences because this program depends so heavily on 
understanding public preferences, attitudes, and behavior and the 
ability of public policies to affect travel behavior in ways that would 
reduce energy consumption and emissions of greenhouse gases.
---------------------------------------------------------------------------
    \9\ TRB Special Report 295. The Federal Investment in Highway 
Research 2006-2009: Strengths and Weaknesses. Transportation Research 
Board of the National Academies, Washington, D.C. 2008.

Q3.  Tech Transfer. The need to improve technology transfer for 
transportation research has been a consistent recommendation from TRB 
and other groups since the passage of SAFETEA-LU. What specific actions 
should DOT take to improve technology transfer? What are the criteria 
---------------------------------------------------------------------------
that should be used to evaluate DOT technology transfer activities?

A3. Technology Transfer What specific actions should DOT take to 
improve technology transfer?
    A previous, and now somewhat dated, report of the Research and 
Technology Coordinating Committee (RTCC) pointed out that in TEA-21 
FHWA received far less funding for technology transfer than it 
requested.\10\ The agency has had limited resources for technology 
transfer since that time. The over-designation and earmarking of 
funding in SAFETEA-LU constrained FHWA's RD&T budget generally 
beginning in 2005. [SAFETEA-LU did fund the Highways for Life, Training 
Programs, and Local Technical Assistance Programs, albeit the total 
support--about $40 million annually-is modest compared with the $100 
million FHWA received annually for technology transfer before I998.] 
The RTCC's 1999 report also recommended improved organizational focus 
for technology transfer, which FHWA has acted upon as resources and 
program designations have permitted. TRB has not been asked to conduct 
a comprehensive assessment of FHWA's technology transfer programs since 
the RTCC's 1999 report, but FHWA is currently seeking guidance from the 
RTCC on how to overcome barriers to adoption of proprietary products. A 
letter report from the RTCC on this particular topic may be forthcoming 
following the committee's scheduled March 2010 meeting.
---------------------------------------------------------------------------
    \10\ TRB Special Report 256. Managing Technology Transfer: A 
Strategy for the Federal Highway Administration. Transportation 
Research Board. National Research Council, Washington, D.C. 1999.
---------------------------------------------------------------------------
    The Strategic Highway Research Program 2 (SHRP 2) implementation 
report (TRB Special Report 296) identifies specific actions that should 
be taken to implement the expected outcomes of the SHRP 2 program, 
although it should be noted that the congressionally-mandated schedule 
to complete the implementation report required completion before most 
of the SHRP 2 products had been delivered.\11\ Outlined on pages 107-
111 of SR 296 are recommended principles to guide the program, and 
outlined on pages 111-115 are key implementation strategies. The latter 
include strategic branding and packaging; provision of technical 
assistance; support for standards, specifications, guidebooks and 
manuals; conduct of follow-on research, testing and evaluation; support 
for implementation by lead users and demonstration efforts; training 
and education; and long-term stewardship of certain products, 
databases, software packages, and website.
---------------------------------------------------------------------------
    \11\ TRB Special Report 296. Implementing the Results of the Second 
Strategic Highway Research Program: Saving Lives, Reducing Congestion, 
Improving Quality of Life. Transportation Research Board of the 
National Academies. Washington, D.C. 2009.
---------------------------------------------------------------------------
    What are the criteria that should be used to evaluate U.S. DOT 
technology transfer activities?
    The principles laid out in Special Report 296 for the SHRP 2 
program might be a useful resource in developing criteria appropriate 
for technology transfer programs within U.S. DOT.\12\ These principles 
include: identifying a specific responsible entity; involving 
stakeholders throughout the technology transfer process; extensive 
communication and outreach; prioritization of effort on products most 
likely to be adopted and having significant benefit; marketing and 
packaging to facilitate user acceptance; choosing implementation 
strategies appropriate for a particular product; and balancing a 
strategy of being open to unexpected opportunities with a disciplined 
and specific program. An obvious criterion to add would be a measure of 
the rate of adoption for the innovations marketed through the program.
---------------------------------------------------------------------------
    \12\ It should be noted that the various administrations of U.S. 
DOT have varied relationships with stakeholders. FHWA and FTA work in 
partnerships with states, transit agencies, and others to encourage 
adoption of innovation, but this role is less characteristic of 
agencies with a primarily safety regulatory role (NHTSA, PHMSA, FRA) 
and for agencies with limited missions (Maritime Administration, St. 
Lawrence Seaway). RITA's technology transfer activities are largely 
carried out through requirements on universities that participate in 
the University Transportation Centers program.

Q4.  Participation of Stakeholders. You noted that stakeholder 
involvement is critical for DOT research because state and local 
agencies are ultimately responsible for implementing research results. 
Who are the stakeholders for research funded by the DOT? What is the 
optimal model for stakeholder involvement in DOT R&D priority setting? 
What criteria should be used to see that DOT is meeting the goal of 
---------------------------------------------------------------------------
extensive stakeholder involvement?

A4. Participation of Stakeholders Who are the stakeholders for research 
funded by the DOT?
    At the broadest level, stakeholders include the public, Congress, 
transportation policy makers and agencies at all levels of government, 
special-purpose transportation authorities, private companies, and the 
research and education community. State and local governments and 
authorities tend to be the closest to the users of publicly-owned 
highway, transit, rail, and airport facilities and are the 
organizations most likely to directly benefit from and use the results 
of much of U.S. DOT's applied research. Freight and passenger railroad 
companies and states are stakeholders for aspects of FBA's R&D, and 
will be even more so as FRA R&D renews its activities in intercity 
passenger rail.
    What is the optimal model for stakeholder involvement in DOT R&D 
priority-setting?
    TRB committees have not addressed this question directly, certainly 
not for DOT as a whole. In commenting on appropriate stakeholder roles 
in FHWA programs, the RTCC has observed that assistance in priority 
setting for FHWA's advanced research program should differ from that of 
FHWA's normal applied programs.\13\ Advanced research requires two 
levels of input on priority setting. The first involves policy makers' 
identification of significant problems that need to be solved. The 
second involves engaging with experts and researchers to define 
researchable topics to address the identified problem areas. In applied 
research, practitioners, experts, and researchers can guide both topics 
of research and methodological approaches.\14\ The committee that 
prepared TRB Special Report 299 identified different stakeholder 
involvement processes along these lines for the fundamental mitigation 
and applied adaptation research programs recommended in its report.\15\
---------------------------------------------------------------------------
    \13\ See TRB Special Report 295. The Federal Investment in Highway 
Research, 2006-2009: Strengths and Weaknesses, Transportation Research 
Board of the National Academies. Washington, D.C. 2009, page 90.
    \14\ Brach, A. 2005. A Taxonomy for Stakeholder Involvement in 
Public Sector Transportation Research and Development Programs. Public 
Works Management and Policy, Vol. 9, No. 3, pp. 223-231.
    \15\ TRB Special Report 299: A Transportation Research Program for 
Mitigating and Adapting to Climate Change and Conserving Energy. 
Transportation Research Board of the National Academies. Washington, 
D.C. 2009.
---------------------------------------------------------------------------
    We believe that the models relied upon for the Cooperative Research 
Programs (CRPs) administered by TRB and funded by different modal 
administrations are very effective in engaging stakeholders in setting 
applied R&D priorities. In these programs, stakeholders identify the 
problems that need to be addressed through applied research, and then 
representatives of these groups select which projects should be funded. 
CRPs tend to operate with the philosophy of placing priority on 
addressing problems identified by those in the field where research has 
the prospect of making a positive difference, but such programs are not 
necessarily strategic because of their ``bottoms up'' nature. The SHRP 
2 program is much more focused, and addresses a small set of strategic 
issues through a somewhat different process, but nonetheless places 
decision-making authority in the hands of a stakeholder committee. For 
programs operated within U.S. DOT, stakeholder recommendations 
presumably would have to be advisory only.
    What criteria should be used to evaluate DOT achievement of 
extensive stakeholder involvement?
    FHWA has committed to extensive stakeholder involvement in its 
Corporate Master Plan for Research and Deployment of Technology and 
Innovation,\16\ albeit, as noted by the RTCC in Special Report 295, the 
agency was not provided with resources in SAFETEA-LU to act upon these 
principles to any significant degree. Even so, the principles laid out 
in the Corporate Master Plan would provide a basis for developing 
criteria for evaluating whether the goal of extensive stakeholder 
involvement is being achieved in the future. Key considerations would 
be whether an open and transparent process exists for stakeholders to 
become involved and the role of stakeholders in influencing decisions 
about priorities and resource allocation. Evaluating success in this 
regard may well require surveying stakeholders about their perceptions 
and the application of expert judgment regarding the effectiveness of 
the processes put in place.
---------------------------------------------------------------------------
    \16\ http:/lwww.fhwa.dot.gov/legsregs/directives/policy/cmp/
03077.htm

Q5.  Organization. TRB Special Report 261 recommended that at least 25% 
of FHWA's R&D portfolio should be allocated for higher-risk, longer-
term research, 50% should be allocated to fill gaps in research not 
covered by other programs and on emerging issues of importance, and 25% 
for mission-oriented research on policy and regulation, technology 
transfer, and training. Percentage-wise, how much does FHWA currently 
fund in each of those categories? How much has FHWA traditionally 
funded in each of those categories? What are some examples of research 
---------------------------------------------------------------------------
that would fall into each of those categories?

        <bullet>  (a) You also stated the need to provide for long-term 
        stewardship of products, such as databases, software, and web 
        tools. How would you recommend DOT plan and provide for these 
        long-term a investments? For example, for SHRP2, what would 
        these costs be?

        <bullet>  (b) You noted that TRB committees are in the process 
        of evaluating FHWA's overall research program as well as 
        particular research programs, such as pavement research and 
        deployment. What is the criteria TRB use in these evaluations? 
        When will these evaluations be completed?

A5. Organization TRB Special Report 261 recommended that at least 25% 
of FHWA's portfolio should be allocated for higher-risk longer-term 
research, 50% should be allocated to fill gaps in research not covered 
by other programs and on emerging issues of importance, and 25% for 
mission-oriented research on policy and regulation, technology 
transfer, and training.

    The RTCC made those recommendations in 2000 with a concern about 
increasing the share of investment devoted to advanced, or higher-risk, 
longer-term research. Given the estimates of what would be required to 
effectively transfer the technologies and products developed out of the 
SHRP 2 program estimated in Special Report 296 in 2009, the RTCC may 
need to revisit its estimates for how FHWA's portfolio should be 
allocated.

    Percentage-wise, how much does FHWA currently fund in the 
categories of higher-risk, longer-term research, gap-filling research, 
and mission-oriented research?
    Answering this question involves making a number of assumptions and 
judgments, not least of which is deciding what to include in the 
denominator. Assumptions are required in deciding what ``FHWA funds.'' 
Should this, for example, include the SHRP 2 program and State Planning 
and Research? Should it include all funding through Title V of SAFETEA-
LU (the research title), which includes about $30 million annually for 
research programs and earmarks administered by U.S. DOT agencies other 
than FHWA? Should it include highway research conducted through the 
University Transportation Centers Program, which is funded through 
Title V? In the estimates below, I've limited the denominator to those 
funds that FHWA directly administers for R&D and technology transfer 
(excluding SHRP 2, SP&R, and Title V programs administered by agencies 
other than FHWA).
    In Chapter 5 of Special Report 295, the RTCC provided quantitative 
estimates for aspects of this question and qualitative assessments for 
others. Regarding higher-risk, longer-term research, the RTCC estimates 
that the Exploratory Advanced Research Program and earmarks for 
fundamental asphalt research have averaged about $19 million during 
2006-2009 period of SAFETEA-LU.
    The RTCC qualitatively assesses that FHWA's infrastructure, 
operations, and safety research is ``mostly gap filling.'' These 
programs have been funded at approximately $74 million annually during 
FY 2006-2009. FHWA's planning and environmental research during 
SAFETEA-LU, about $19 million annually, is classified as mostly gap-
filling, but the RTCC notes that most of these activities could also be 
classified as mission-oriented technical assistance. Mission-oriented 
policy research, which suffered from FHWA's loss of discretionary funds 
in SAFETEA-LU, has averaged less than $1 million annually. FHWA's 
training and education programs of about $23.5 million annually during 
SAFETEA-LU could be classified as mission-oriented technology transfer. 
The Highways for Life program, which is funded out of Title I at about 
$19 million annually, can be classified as mission-oriented technology 
transfer.
    The above estimates allow one to guesstimate that about 12 percent 
of FHWA's R&D is longer-term, higher-risk; about 60 percent of FHWA's 
R&D is allocated to R&D that is filling gaps not covered in other 
programs; and about 28 percent is for mission oriented RD&T activities. 
The RTCC's main concerns about the designation of FHWA's R&D funds in 
SAFETEA-LU are the under-emphasis on longer-term, higher-risk research 
and the near absence of funding for policy research.

    How much has FHWA traditionally funded in each of these categories?
    The RTCC has not systematically assessed FHWA's R&D allocations in 
years before SAFETEA-LU. In 2000, the RTCC estimated that about 0.5 
percent of FHWA's RD&T funding at that time could be categorized as 
longer-term, higher-risk; this estimate, however, did not include an 
earmark for fundamental asphalt research.\17\ (Before SAFETEA-LU, FHWA 
had about $1 million annually specifically directed toward longer-term, 
higher-risk research, compared with about $11.5 million annually during 
SAFETEA-LU.)
---------------------------------------------------------------------------
    \17\ TRB Special Report 261. The Federal Role in Highway Research 
and Technology. Transportation Research Board of the National 
Academies. Washington, D.C. 2000.

    What are some examples of research that would fall in each of those 
categories?
    Examples of longer-term, higher-risk research can be reviewed on 
the webpage of FHWA's Exploratory Advanced Research Program at this 
link: http://www.fhwa.dot.gov/advancedresearchlresearch.cfm. The RTCC 
classifies the SHRP 2 safety program as advanced research. The projects 
that make up this program can be accessed from this link: http://
trb.org/StrategicHighwayResearchProgram2SHRP2/Public/Pages/
Safety_153.aspx
    As indicated above, most of FHWA's Infrastructure, Operations, and 
Safety research can be categorized as gap-filling research. Examples of 
completed research projects can be viewed at the following links:

http://www.tfhrc.gov/structur/pubs.htm
http://www.fhwa.dot.gov/pavement/pub_listing.cfm
http://www.tfhre.gov/safety/pubs.htm
http:/lwww.tfhrc.gov/itslpubs.htm

    In terms of mission-oriented RD&T, FHWA's policy research supports 
the analysis and models relied upon to prepare a report assessing the 
condition and performance of highway and transit systems. The 2006 
report, Status of the Nation's Highways, Bridges, and Transit: 
Conditions and Performance, can be accessed from this link: http://
www.fhwa.dot.gov/policy/2006cpr/index.htm
    The Highways for Life technology transfer program is described at 
this link: http://www.fhwa.dot.govlhfl/
    (a) You also stated the need to provide for long-term stewardship 
of products, such as databases, software, and web tools. How would you 
recommend DOT plan and provide for these long-term investments? For 
example, for SHRP 2, what would these costs be?
    A TRB committee made recommendations for the stewardship of the 
data collected through the Long-Term Pavement Performance Program 
(LTPP) in 2009.\18\ In its report, the TRB LTPP committee recommended 
that the database be established as the National Pavement Performance 
Database (NPPD) as a self-contained and fully funded entity with 
appropriate staff resources to carry out the tasks of keeping software 
and hardware current, enhancing data quality and completeness; 
incorporating additional pavement performance data as it becomes 
available; conducting LTPP data analysis and product development; 
supporting those who seek to analyze the data; and developing new 
pavement designs and maintenance strategies based on the results of 
analysis of the database. The committee estimated that the funding for 
these activities would average about $9 million per year (this estimate 
includes the cost of collecting data from the pavement test sections 
that remain in service). At the urging of this committee, FHWA 
commissioned a thorough analysis of what would be required to support 
the LTPP database for the long term. The committee relied upon this 
consultant report for the budget estimates included in its report.
---------------------------------------------------------------------------
    \18\ Preserving and Maximizing the Utility of the Pavement 
Performance Database. Transportation Research Board of the National 
Academies, Washington, D.C. 2009.
---------------------------------------------------------------------------
    An estimate for supporting long-term stewardship of SHRP 2 
databases, software, and web tools is $14.3 million annually over the 
next authorization period.\19\ This funding would support maintenance 
and updating of the products and a minimum level of customer support. 
Specialized training, additional analyses, and development of 
additional tools for special or new user needs are not included in this 
estimate.
---------------------------------------------------------------------------
    \19\ TRB Special Report 296. Implementing the Results of the Second 
Strategic Highway Research Program: Saving Lives, Reducing Congestion, 
Improving Quality of Life. Transportation Research Board of the 
National Academies. Washington, D.C. 2009.
---------------------------------------------------------------------------
    (b) You noted that TRB committees are in the process of evaluating 
FHWA's overall research program as well as particular research 
programs, such as pavement research and deployment. What is the 
criteria TRB uses in these evaluations? When will these evaluations be 
completed?
    My testimony referred to the ongoing work of the RTCC in reviewing 
and evaluating FHWA's R&D program. The committee issues occasional 
letter reports as well as full length analyses, usually prefatory to 
the surface transportation reauthorization process. Its last full-
length report was Special Report 295. As indicated above, the RTCC may 
issue a letter report following its March 2010 meeting with advice on 
how FHWA can facilitate the adoption of appropriate proprietary 
research products. (States are generally prohibited from using federal 
aid to purchase products only available from a single vendor unless 
FHWA issues a public interest finding.)
    My testimony also referred to the work of a committee that reviews 
FHWA's pavement research and deployment--the Pavement Technology Review 
and Evaluation Committee. The committee is expected to release its 
final letter report in early 2010. Previous letter reports of the 
committee are available at this link: http://
www8.nationalacademies.orglcp/projectview.aspx?key=48707
    The criteria that the committees use for evaluation vary across 
topics. As peer review projects, they obviously rely heavily on expert 
judgment. The RTCC's Special Report 295 relies on the principles for 
R&D articulated in the preamble of Title V in SAFETEA-LU to evaluate 
FHWA's R&D program, which I believe resulted from contributions of the 
House Science and Technology Committee to this legislation. The 
Pavement Technology Review and Evaluation Committee has placed 
particular emphasis on the stakeholder involvement principle from Title 
V's preface in its previous letter reports.





</pre></body></html>
